Audit Report




OIG-12-016
Audit of the Department of the Treasury’s Special-Purpose
Financial Statements for Fiscal Years 2011 and 2010
November 15, 2011




Office of
Inspector General
Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
Contents


Transmittal Memorandum


Section I – Independent Auditors’ Report on Special-Purpose
             Financial Statements


Section II – Department of the Treasury’s Special-Purpose Financial
             Statements for Fiscal Years 2011 and 2010
THIS PAGE INTENTIONALLY LEFT BLANK
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              November 15, 2011


            MEMORANDUM FOR HOLDEN HOGUE, DIRECTOR
                           FINANCIAL AND BUDGET REPORTS DIRECTORATE
                           FINANCIAL MANAGEMENT SERVICE

                                     LOUISE DiBENEDETTO, ASSISTANT DIRECTOR
                                     FINANCIAL MANAGEMENT AND ASSURANCE
                                     GOVERNMENT ACCOUNTABILITY OFFICE

                                     REGINA KEARNEY
                                     SENIOR ADVISOR TO THE DEPUTY CONTROLLER
                                     OFFICE OF MANAGEMENT AND BUDGET

            FROM:                    Michael Fitzgerald
                                     Director, Financial Audits

            SUBJECT:                 Audit of the Department of the Treasury’s Special-Purpose
                                     Financial Statements for Fiscal Years 2011 and 2010

            I am pleased to transmit the attached audited Department of the Treasury
            (Department) special-purpose financial statements for fiscal years 2011 and 2010.
            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the
            Department’s special-purpose financial statements as of September 30, 2011 and
            2010 and for the years then ended. The contract required that the audit be
            performed in accordance with generally accepted government auditing standards
            and Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements, as amended.

            In its audit, KPMG LLP found:

                    •   that the special-purpose financial statements were fairly presented, in all
                        material respects, in conformity with U.S. generally accepted accounting
                        principles and the presentation pursuant to the requirements of Treasury
                        Financial Manual Volume I, Part 2 – Chapter 4700 (Chapter 4700) and
                        specific Department related instructions received from the Financial
                        Management Service (FMS),
Page 2

      •   no matters involving internal control over the financial reporting for the
          special-purpose financial statements that are considered material
          weaknesses, and

      •   no instances of reportable noncompliance with Chapter 4700 and specific
          Department related instructions received from FMS.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express an opinion on the special-purpose financial statements, or make any
conclusions with regard to the effectiveness of internal control over financial
reporting or compliance with Chapter 4700 and specific Department related
instructions received from FMS. KPMG LLP is responsible for the attached auditors’
report dated November 15, 2011, and the conclusions expressed therein. Our
review disclosed no instances where KPMG LLP did not comply, in all material
respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Ade Bankole, Manager, Financial Audits at
(202) 927-5329.

Attachment
             SECTION I

  INDEPENDENT AUDITORS’ REPORT ON
SPECIAL PURPOSE FINANCIAL STATEMENTS
THIS PAGE INTENTIONALLY LEFT BLANK
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




            Independent Auditors’ Report on Special-Purpose Financial Statements


Inspector General
U.S. Department of the Treasury:

We have audited:
      •   the accompanying Closing Package Financial Statement Reports – Balance Sheet of the
          U.S. Department of the Treasury (Department) as of September 30, 2011 and 2010;

        •     the related Closing Package Financial Statement Reports – Statement of Net Cost and
              Statement of Changes in Net Position, and the accompanying Financial Report (FR)
              Notes Reports (except for FR Notes Report No. 16 – Section F, and the information
              included in the FR Notes Reports entitled “Threshold”) for the years then ended;

        •     the accompanying Note No. 31, Summary of Significant Accounting Policies; and

        •     the accompanying Trading Partner Summary Note Report – Balance Sheet as of
              September 30, 2011 and 2010; the related Trading Partner Summary Note Reports –
              Statement of Net Cost and Statement of Changes in Net Position for the years then
              ended.

Hereinafter, these are collectively referred to as the special-purpose financial statements.

These special-purpose financial statements are the responsibility of the Department’s management.
Our responsibility is to express an opinion on these special-purpose financial statements based on our
audits.

We did not audit the amounts included in the special-purpose financial statements related to the
Internal Revenue Service (IRS), a component entity of the Department, which reflect total assets of
$43.3 billion and $43.2 billion, net costs of operations of $13.0 billion and $13.4 billion, before
applicable eliminating entries, and custodial revenues of $2.4 trillion and $2.3 trillion, as of and for
the years ended September 30, 2011 and 2010, respectively. The financial statements of the IRS as of
and for the years ended September 30, 2011 and 2010, were audited by another auditor whose report
dated November 4, 2011, has been provided to us, and our opinion, insofar as it relates to the amounts
included for the IRS in the special-purpose financial statements, is based solely on the report of the
other auditor.

In addition, we did not audit the amounts included in the special-purpose financial statements related
to the Office of Financial Stability (OFS), a component entity of the Department, which reflect total
assets of $164.2 billion and $244.2 billion, and net costs of operations and net (income) of $9.5
billion and $(23.1) billion, before applicable eliminating entries, as of and for the years ended
September 30, 2011 and 2010. The financial statements of the OFS as of and for the years ended
September 30, 2011 and 2010, were audited by another auditor whose report dated November 4,
2011, has been provided to us, and our opinion, insofar as it relates to the amounts included for the
OFS in the special-purpose financial statements, is based solely on the report of the other auditor.


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
We, and the other auditor, conducted our audits in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and Office
of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, as amended. Those standards and OMB Bulletin 07-04, require that we plan and perform
the audits to obtain reasonable assurance about whether the special-purpose financial statements are
free of material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances, but not
for the purpose of expressing an opinion on the effectiveness of the Department’s internal control
over financial reporting. Accordingly, we express no such opinion. An audit also includes examining,
on a test basis, evidence supporting the amounts and disclosures in the special-purpose financial
statements and assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall special-purpose financial statement presentation. We
believe that our audits and the reports of the other auditor, related to the amounts included for the
IRS and OFS, provide a reasonable basis for our opinion.

The accompanying special-purpose financial statements have been prepared for the purpose of
complying with the requirements of Chapter 4700 of the U.S. Department of the Treasury’s Treasury
Financial Manual (TFM) as described in Note No. 31, and specific Department related instructions
received from the Financial Management Service (FMS). The special-purpose financial statements
are prepared solely for the purpose of providing financial information to the Department and the U.S.
Government Accountability Office (GAO) to use in preparing and auditing the Financial Report of
the U.S. Government. The special-purpose financial statements are not intended to be a complete
presentation of the Department’s consolidated balance sheets as of September 30, 2011 and 2010,
and the related consolidated statements of net cost, and changes in net position, and combined
statements of budgetary resources and statements of custodial activity (hereinafter referred to as the
“general-purpose financial statements”) for the years then ended.

In accordance with TFM Chapter 4700, the Department prepared FR Notes Report Nos. 1 through
30, except for FR Note Report 30 which was not applicable to the Department. The Department
included Note No. 31 to disclose other data not contained in the special-purpose financial statements,
but which is necessary to make the special-purpose financial statements more informative.

In our opinion, based on our audit and the reports of the other auditors, the special-purpose financial
statements referred to above present fairly, in all material respects, the financial position of the
Department as of September 30, 2011 and 2010, and its net costs and changes in net position for the
years then ended in conformity with U.S. generally accepted accounting principles and the
presentation pursuant to the requirements of TFM Chapter 4700, as described in Note No. 31 and
specific Department related instructions received from FMS.

As discussed in FR Notes Report Nos. 1, 4A, 20, 21, 28A, and 28B, the Department is a participant
in significant legislation and transactions whose purpose is to assist in stabilizing the financial
markets.

Note No. 31A Part 2 and 31V and discuss the following matters:

        •   The special-purpose financial statements do not include the assets, liabilities, or results of
            operations of commercial entities in which the Department has a significant equity


                                                   2
            interest as it has determined that none of these meet the criteria for inclusion as a federal
            entity and are therefore not included in the special purpose financial statements.

        •   The valuation of certain investments, loans, commitments, and asset guarantees is based
            on estimates. These estimates are inherently subject to substantial uncertainty arising
            from the likelihood of future changes in general economic, regulatory, and market
            conditions. In addition, there are significant uncertainties related to the amounts that the
            Department will realize from its investments. As such, there will be differences between
            the net estimated value of these investments, loans, commitments and asset guarantees at
            September 30, 2011, and the amounts that will ultimately be realized from these assets or
            be required to pay to settle these commitments and guarantees. Such differences may be
            material and will also affect the ultimate cost of these programs.

The Department also prepared Other Data Report Nos. 2 through 16, except for Other Data Report
Nos. 4 to 8, 11, and 14, which were not applicable to the Department. The information included in
the Other Data Report Nos. 2, 9, 10, and 13 Section A is presented for the purpose of additional
analysis and is not a required part of the special-purpose financial statements, but is supplementary
information required by U.S. generally accepted accounting principles and the TFM Chapter 4700.
We have applied certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of this information. However, we did not
audit this supplementary information, and accordingly, we express no opinion on it.

The information entitled “Threshold” in FR Notes Reports; the information included in Other Data
Report Nos. 3, 12, 13 Section B, 15 and 16; and the information in the Closing Package Line
Reclassification Summary Report – Balance Sheet, Statement of Net Cost, Statement of Changes in
Net Position, and Custodial Activity are presented for purposes of additional analysis and are not a
required part of the special-purpose financial statements. This information has not been subjected to
the auditing procedures applied in the audits of the special-purpose financial statements and,
accordingly, we express no opinion on it.

The TFM Chapter 4700 requires agencies to use the Governmentwide Financial Reporting System
to input certain data as described in Note No. 31. Except as discussed in this report, we express no
opinion on information maintained in that system.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, we have also
issued a combined Independent Auditors’ Report dated November 15, 2011, on our, and the other
auditor’s consideration of the Department’s internal control over financial reporting, and the results
of our, and the other auditor’s, tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, and other matters that are required to be reported under Government
Auditing Standards. That report is an integral part of the audits of the general-purpose financial
statements, performed in accordance with Government Auditing Standards and OMB Bulletin
No. 07-04, and should be read in conjunction with this report in considering the results of our audits
of the special-purpose financial statements. Our, and the other auditor’s, audit of the fiscal year 2011
general-purpose financial statements disclosed the following material weaknesses, significant
deficiencies, compliance, and other matters:




                                                   3
Material Weakness:

        •   Financial Systems and Reporting at the Internal Revenue Service (IRS) (Repeat
            Condition)

Significant Deficiencies:

        •   Financial Reporting Practices at the Departmental Level (Repeat Condition)
        •   Financial Accounting and Reporting at the Office of Financial Stability (OFS) (Repeat
            Condition)
        •   Information Systems Controls at the Financial Management Service (FMS) (Repeat
            Condition)

Noncompliance with certain provisions of laws, regulations, contracts, and grant agreements:

        •   An instance of noncompliance with Internal Revenue Code Section 6325 (Repeat
            Condition)

In addition, the Department’s financial management systems did not substantially comply with the
Federal Financial Management Improvement Act of 1996 requirements related to compliance with
Federal financial management system requirements, and applicable Federal accounting standards.
Our, and the other auditor’s, audit disclosed no instances in which the Department’s financial
management systems did not substantially comply with the U.S. Standard General Ledger at the
transaction level.

Other Matter:

The Department informed us of an instance of a potential of the Anti-deficiency Act related to
voluntary services provided to the Departmental Offices. The Department is reviewing this matter.

                                    ______________________

Management is responsible for establishing and maintaining effective internal control. In planning
and performing our audit of the special-purpose financial statements, we considered internal control
over financial reporting by obtaining an understanding of the Department’s internal control and
performing tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the special-purpose financial statements, but not for the purpose of
expressing an opinion on the effectiveness of internal control over financial reporting. Accordingly,
we do not express an opinion on the effectiveness of the Department’s internal control over financial
reporting.

Our consideration of internal control over financial reporting for the special-purpose financial
statements was for the limited purpose described in the preceding paragraph and was not designed to
identify all deficiencies in the internal control over financial reporting that might be significant
deficiencies, or material weaknesses and therefore, there can be no assurance that all deficiencies,
significant deficiencies, or material weaknesses have been identified.



                                                 4
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. A material weakness is a
deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected on a timely basis.

Management is responsible for complying with laws, regulations (including TFM Chapter 4700),
specific Department related instructions received from FMS, contracts, and grant agreements
applicable to the Department. As part of obtaining reasonable assurance about whether the
Department’s special-purpose financial statements are free of material misstatement, we, and the
other auditor, performed tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect
on the determination of financial statement amounts. However, providing an opinion on compliance
with those provisions or on compliance with TFM Chapter 4700 requirements was not an objective
of our audit of the special-purpose financial statements and, accordingly, we do not express such an
opinion.

The results of our tests of compliance with TFM Chapter 4700, and specific Department related
instructions received from FMS disclosed no instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards or OMB Bulletin No. 07-04.
                               ______________________________

This report is intended solely for the information and use of the Department, the Department’s Office
of Inspector General, OMB, and GAO, in connection with the preparation and audit of the Financial
Report of the U.S. Government, and is not intended to be and should not be used by anyone other
than these specified parties.




November 15, 2011




                                                  5
THIS PAGE INTENTIONALLY LEFT BLANK
             SECTION II

    DEPARTMENT OF THE TREASURY’S
SPECIAL-PURPOSE FINANCIAL STATEMENTS
   FOR FISCAL YEARS 2011 AND 2010
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                       U.S Department of the Treasury                                         11-15-2011 11:33:30
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2011                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                       2010-SEPTEMBER                     Previously Reported
Assets:
Non-Federal
Cash and Other Monetary Assets                                              148,865                             396,402                            399,250
Accounts and Taxes Receivable                                                36,690                              37,008                             37,008
Loans Receivable and mortgage                                                99,068                             186,520                            186,520
backed securities
TARP Direct Loans and Equity                                                 80,104                             144,692                            144,692
Investments
Beneficial Interest in Trust                                                 10,862                              20,805                             20,805
Inventory and Related Property                                                  743                                 697                                697
Property, Plant and Equipment                                                 2,266                               2,031                              2,031
Debt and Equity Securities                                                   15,798                              15,487                             12,639
Investment in Government sponsored                                          133,043                             109,216                            109,216
enterprises (GSEs)
Derivative Assets                                                                 0                                   0                                  0
Other Assets                                                                  5,715                               5,593                              5,593
Total Non-Federal Assets                                                    533,154                             918,451                            918,451

Federal
Fund Balance with Treasury                                                  381,784                             437,026                            437,026
Federal Investments                                                             739                                 815                                815
Accounts Receivable                                                             407                                 361                                361
Accounts Receivable, capital transfers                                            0                                   0                                  0
Interest Receivable                                                             225                                 413                                413
Loans Receivable                                                            771,198                             586,551                            586,551
Transfers Receivable                                                              0                                   0                                  0
Benefit Program Contributions                                                     0                                   0                                  0




                                                                                              -1-
                                                                       U.S Department of the Treasury                                          11-15-2011 11:33:30
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2011                                Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                  Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                       2010-SEPTEMBER                      Previously Reported
Receivable
Advances to Others and Prepayments                                                2                                  3                                     3
Other Assets (without reciprocals)                                       14,902,717                         13,655,637                            13,655,637
Total Federal Assets                                                     16,057,072                         14,680,806                            14,680,806
Total Assets                                                             16,590,226                         15,599,257                            15,599,257

Liabilities
Non-Federal
Accounts Payable                                                             (4,787)                            (5,359)                               (5,359)
Federal Debt Securities Held by the                                     (10,148,963)                        (9,035,929)                           (9,035,929)
Public
Federal Employee and Veteran                                                   (641)                               (601)                               (601)
Benefits Payable
Environmental and Disposal                                                         0                                   0                                      0
Liabilities
Benefits Due and Payable                                                          0                                    0                                   0
Loan Guarantee Liabilities                                                        0                                    0                                   0
Liabilities to Government Sponsored                                        (316,230)                            (359,900)                           (359,900)
Enterprises
Insurance and Guarantee Program                                                    0                                 (25)                                (25)
Liabilities
Derivative Liabilities                                                            0                                  0                                     0
Other Liabilities                                                           (83,835)                           (83,569)                              (83,569)
Total Non-Federal Liabilities                                           (10,554,456)                        (9,485,383)                           (9,485,383)

Federal
Accounts Payable                                                               (159)                               (108)                               (108)




                                                                                              -2-
                                                                       U.S Department of the Treasury                                      11-15-2011 11:33:30
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2011                            Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:   ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                       2010-SEPTEMBER                  Previously Reported
Accounts Payable, capital transfers                                               0                                   0                                0
Federal Debt                                                             (4,680,864)                         (4,549,495)                      (4,549,495)
Interest Payable                                                            (47,841)                            (48,665)                         (48,665)
Loans Payable                                                                     0                                   0                                0
Transfers Payable                                                                 0                                   0                                0
Benefit Program Contributions                                                  (239)                               (226)                            (226)
Payable
Advances from Others and Deferred                                                (56)                               (34)                             (34)
Credits
Liability to the General Fund for                                        (1,226,475)                         (1,414,252)                      (1,414,252)
custodial and other non-entity assets
Other Liabilities (without reciprocals)                                           2                                   2                                2
Total Federal Liabilities                                                (5,955,632)                         (6,012,778)                      (6,012,778)
Total Liabilities                                                       (16,510,088)                        (15,498,161)                     (15,498,161)


Net Position
Net Position-Non-Earmarked Funds                                            (36,327)                            (59,470)                         (59,470)
Net Position-Earmarked Funds                                                (43,811)                            (41,626)                         (41,626)
Total Net Position                                                          (80,138)                           (101,096)                        (101,096)
Total Liabilities and Net Position                                      (16,590,226)                        (15,599,257)                     (15,599,257)




                                                                                              -3-
                                                                       U.S Department of the Treasury                                         11-15-2011 11:33:30
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2011                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                       2010-SEPTEMBER                     Previously Reported
Gross Cost:
Non-Federal Gross Cost                                                       21,693                             330,178                            330,178
Interest on Debt Held by the Public                                         250,921                             214,796                            214,796
Gain/Loss from changes in actuarial                                             195                                 820                                820
assumptions
Total Non-Federal Gross Cost                                                272,809                             545,794                            545,794

Federal Gross Cost
Benefit Program Costs                                                         1,744                               2,119                              2,119
Imputed Costs                                                                   925                               1,008                              1,008
Buy/Sell Costs                                                                1,736                               1,642                              1,642
Federal Securities Interest Expense                                         203,026                             198,597                            198,597
Borrowing and Other Interest                                                  8,016                               8,192                              8,192
Expense
Borrowing Losses                                                                  0                                   0                                  0
Other Expenses (without reciprocals)                                            485                                   0                                  0
Total Federal Gross Cost                                                    215,932                             211,558                            211,558
Department Total Gross Cost                                                 488,741                             757,352                            757,352

Earned Revenue
Non-Federal Earned Revenue                                                  (54,436)                            (73,951)                            (73,951)

Federal Earned Revenue
Benefit Program Revenue (exchange)                                                 0                                 0                                   0
Buy/Sell Revenue                                                              (1,265)                             (219)                               (219)
Federal Securities Interest Revenue                                                0                                 0                                   0
(exchange)




                                                                                              -4-
                                                                       U.S Department of the Treasury                                         11-15-2011 11:33:30
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2011                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                       2010-SEPTEMBER                     Previously Reported
Borrowing and Other Interest                                                (28,821)                            (24,181)                            (24,181)
Revenue (Exchange)
Borrowings Gains                                                                (64)                               (160)                               (160)
Other Revenue (without reciprocals)                                               0                                   0                                   0
Total Federal Earned Revenue                                                (30,150)                            (24,560)                            (24,560)

Department Total Earned Revenue                                             (84,586)                            (98,511)                            (98,511)

Net Cost                                                                    404,155                             658,841                            658,841




                                                                                              -5-
                                                                       U.S Department of the Treasury                                          11-15-2011 11:33:30
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2011                                Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                  Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                       2010-SEPTEMBER                      Previously Reported
Beginning Net Position                                                     (101,096)                            (428,056)                           (428,056)
Non-Federal Prior-Period
Adjustments
Changes in Accounting Principles -                                                 0                                   0                                      0
Non Federal
Corrections of Errors - Non Federal                                                0                                   0                                      0
Corrections of Errors - Years                                                      0                                   0                                      0
Preceding the Prior Year - Non
Federal
Federal Prior-Period Adjustments
Change in Accounting Principles -                                                  0                                   0                                      0
Federal
Corrections of Errors - Federal                                                    0                                   0                                      0
Corrections of Errors - Years                                                      0                                   0                                      0
Preceding the Prior Year - Federal
Adjusted Beginning Net Position                                            (101,096)                            (428,056)                           (428,056)
Balance

Non-Federal Nonexchange Revenue
Individual Income Tax and Tax                                            (1,757,493)                        (1,617,454)                           (1,617,454)
Witholdings
Corporation Income Taxes                                                   (175,071)                            (181,751)                           (181,751)
Unemployment Taxes                                                           (6,803)                              (6,450)                             (6,450)
Excise Taxes                                                                (70,605)                             (69,520)                            (69,520)
Estate and Gift Taxes                                                        (7,301)                             (18,826)                            (18,826)
Custom Duties                                                                     0                                    0                                   0
Other Taxes and Receipts                                                    (88,482)                             (78,915)                            (78,915)




                                                                                              -6-
                                                                       U.S Department of the Treasury                                          11-15-2011 11:33:30
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2011                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:        MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                        2010-SEPTEMBER                     Previously Reported
Miscellaneous Earned Revenue                                                  7,971                                  0                                     0
Total Non-Federal Nonexchange                                            (2,097,784)                        (1,972,916)                           (1,972,916)
Revenue

Federal Nonexchange Revenue
Federal Securities Interest Revenue                                                 0                                  0                                      0
(nonexchange)
Borrowing and other interest revenue                                                0                                  0                                      0
(nonexchange)
Benefit Program Revenue                                                             0                                  0                                      0
(nonexchange)
Other taxes and receipts                                                           (3)                               (12)                                (12)
Total Federal Nonexchange Revenue                                                  (3)                               (12)                                (12)

Budgetary Financing Sources:
Appropriations received as adjusted                                        (490,421)                            (447,760)                           (447,760)
(rescissions and other adjustments)
Appropriation of unavailable special                                                0                                  0                                      0
or trust fund receipts transfers-in
Appropriation of unavailable special                                                0                                 14                                  14
or trust fund receipts Transfers-out
Nonexpenditure transfers-in of                                                 (133)                                 (92)                                (92)
unexpended appropriations and
financing sources
Nonexpenditure Transfers-out of                                                     4                                  0                                      0
unexpended appropriations and
financing sources




                                                                                               -7-
                                                                       U.S Department of the Treasury                                          11-15-2011 11:33:30
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2011                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:        MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                        2010-SEPTEMBER                     Previously Reported
Expenditure transfers-in of financing                                               0                                  0                                      0
sources
Expenditure Transfers-out of                                                       49                                 74                                  74
financing sources
Nonexpenditure Transfers-In of                                                      0                                  0                                      0
Financing Sources - Capital Transfers
Nonexpenditure Transfers-out of                                                     0                                  0                                      0
Financing Sources - Capital Transfers
Collections for Others Transferred to                                               0                                  0                                      0
the General Fund
Accrual for Amounts to be Collected                                                 0                                  0                                      0
for Others and Transferred to the
General Fund
Other budgetary financing sources                                            19,147                               23,627                              23,627
Total Budgetary Financing Sources                                          (471,354)                            (424,137)                           (424,137)

Other Financing Sources:
Transfers-in Without Reimbursement                                                  0                                  1                                   1
Transfers-out Without                                                              60                                 41                                  41
Reimbursement
Imputed Financing Source                                                       (925)                           (1,008)                                (1,008)
Non-Entity Collections Transferred                                        2,199,481                         1,972,885                              1,972,885
to the General Fund
Accrual for Non-entity Amounts to                                           (12,672)                              93,265                              93,265
be Collected and Transferred to the
General Fund
Other non-budgetary financing                                                       0                                  0                                      0




                                                                                               -8-
                                                                       U.S Department of the Treasury                                         11-15-2011 11:33:30
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2011                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                  Decimal Point:     ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2011-SEPTEMBER                       2010-SEPTEMBER                     Previously Reported
sources
Total Other Financing Sources                                             2,185,944                         2,065,184                             2,065,184


Net Cost                                                                    404,155                             658,841                            658,841

Ending Net Position Balance                                                 (80,138)                            (101,096)                          (101,096)




                                                                                              -9-
                                                                                                                                                                                              11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01            Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                  Fiscal Year: 2011                     Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:        1, 16, 23, RSI

  Status: Complete                            The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Federal Reserve Earnings                                                               Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                            Decimal: Zero
Line Status Line Description          NB        2011 - SEPTEMBER             2010 - SEPTEMBER                 Previously Rptd     Line Item Changes
 1              Treasury securities Credit                    1,665,419                    813,550                     813,550                          0
                including those
                held by the Federal
                Reserve Bank
                (FRB)
 2              FRB earnings on     Credit                       82,546                     75,845                      75,845                          0
                Treasury securities
                that exceed the
                statutory amount.

       Section: B             Section Name: Related Parties, External to the Reporting Entity for       No Data Flag: YES          Line Attributes: Dollars
                                            the Financial Report                                                                 Rounding Method: Millions                            Decimal: Zero
Line Status Line Description          NB        2011 - SEPTEMBER             2010 - SEPTEMBER                 Previously Rptd     Line Item Changes
 1              Related party        Debit
                receivables
 2              Related party        Credit
                payables
 3              Related party        Credit
                operating revenue
 4              Related party net    Debit
                cost of operations
 5              Related party        Debit
                economic
                dependency
                transactions
 6              Investments in       Debit
                related parties




                                                                                                           -1-
                                                                                                                                                                                              11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

    Note: 01          Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                   Fiscal Year: 2011                   Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                     Agency Notes:      1, 16, 23, RSI

 Status: Complete                        The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                        Answer
1                  Describe any significant events that occured after the date of the balance sheet but prior to   N/A
                   the agencies audited financial statements being issued.
2                  Describe any departures from U.S. Generally Accepted Accounting Procedures (GAAP).              N/A
3                  When applying the general rule of the Statements of Federal Financial Accounting Standards      In accordance with SFFAS No. 7, Accounting for Revenue and Other Financing
                   (SFFAS) No. 7, par.                                                                             Sources and Concepts for Reconciling Budgetary and Financial Accounting, some
                   48, describe the specific potential accruals that are not made and the practical and inherent   unpaid tax assessments do not meet the criteria for financial statement recognition.
                   limitations affecting the                                                                       Under Internal Revenue Code Section 6201, the Department is authorized and required
                   accrual of taxes and duties.                                                                    to make inquiries, determinations, and assessments of all taxes which have not been
                                                                                                                   duly paid (including interest, additions to the tax, and assessable penalties) under the
                                                                                                                   law. Unpaid assessments result from taxpayers filing returns without sufficient
                                                                                                                   payment, as well as from tax compliance programs such as examination, under-
                                                                                                                   reporter, substitute for return, and combined annual wage reporting. The Department
                                                                                                                   also has authority to abate the paid or unpaid portion of an assessed tax, interest, and
                                                                                                                   penalty. Abatements occur for a number of reasons and are a normal part of the tax
                                                                                                                   administration process. Abatements may result in claims for refunds or a reduction of
                                                                                                                   the unpaid assessed amount.
                                                                                                                   Under federal accounting standards, unpaid assessments require taxpayer or court
                                                                                                                   agreement to be considered federal taxes receivable. Assessments not agreed to by
                                                                                                                   taxpayers or the courts are considered compliance assessments and are not
                                                                                                                   considered federal taxes receivable. Due to the lack of agreement, these compliance
                                                                                                                   assessments are less likely to have future collection potential than those unpaid
                                                                                                                   assessments that are considered federal taxes receivable.

4                  Describe any change in accounting if a collecting entity adopts accounting standards that       N/A
                   embody a fuller
                   application of accrual accounting concepts that differ from that prescribed by SFFAS No. 7,
                   par. 48.
5                  List all of the agency's components for which balances and activities are not combined into     N/A
                   the agency's financial statements, and, therefore, are represented in the GFRS data.
6                  List all of the agency's components for which balances and activities are combined into the     The Department¿s reporting entities include the Departmental Offices (DO) and eight
                   agency's financial                                                                              operating bureaus. For financial reporting purposes, DO is composed of: International
                   statements, and, therefore, are represented in the GFRS data.                                   Assistance Programs (IAP), Office of Inspector General (OIG), Special Office of
                                                                                                                   Inspector General for the Troubled Asset Relief Program (SIGTARP), Treasury
                                                                                                                   Forfeiture Fund (TFF), Exchange Stabilization Fund (ESF), Community Development
                                                                                                                   Financial Institutions (CDFI) Fund, Office of D.C. Pensions (DCP), Treasury Inspector
                                                                                                                   General for Tax Administration (TIGTA), Federal Financing Bank (FFB), Office of
                                                                                                                   Financial Stability (OFS), Government Sponsored Enterprise (GSE) Program, Small
                                                                                                                   Business Lending Fund (SBLF), Office of Financial Research (OFR), and the DO policy
                                                                                                                   offices.
                                                                                                                   The eight operating bureaus are: Bureau of Engraving and Printing (BEP); Bureau of
                                                                                                                   the Public Debt (BPD); Financial Crimes Enforcement Network (FinCEN); Financial
                                                                                                                   Management Service (FMS); Internal Revenue Service (IRS); United States Mint (Mint);
                                                                                                                   Office of the Comptroller of the Currency (OCC); and the Alcohol and Tobacco Tax and
                                                                                                                   Trade Bureau (TTB). On July 21, 2010, the President signed into law the Dodd-Frank


                                                                                                          -2-
                                                                                                                                                                                              11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01         Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                    Fiscal Year: 2011                   Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                      Agency Notes:      1, 16, 23, RSI

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
                                                                                                                    Wall Street Reform and Consumer Protection Act (the ¿Dodd-Frank Act¿), which
                                                                                                                    includes the Enhancing Financial Institution Safety and Soundness Act of 2010. In
                                                                                                                    accordance with the Dodd-Frank Act, on July 21, 2011 (the ¿transfer¿ date¿),
                                                                                                                    substantially all of the operations of the Office of Thrift Supervision (OTS) were
                                                                                                                    transferred to the OCC; and certain other duties were transferred to the Federal
                                                                                                                    Reserve Board and Federal Deposit Insurance Corporation (FDIC).
7                  Describe any additional significant accounting policies specific to the agency not included in   N/A
                   GFRS Module
                   GF006 - FR Notes.
8                  Provide any other relevant information pertaining to the Federal Reserve Earnings.               N/A
9                  Describe the nature of the related party relationship and transactions pertaining to the         The primary ¿related parties¿ with whom the Department conducts business are other
                   amount in the ,Other                                                                             federal agencies, mainly through the normal lending activities of the BPD and the FFB.
                   Notes Info, tab, Related party receivables' line.                                                These activities are disclosed in these financial statements. The Department utilizes
                                                                                                                    the services of the FRB to execute a variety of transactions on behalf of the BPD and
                                                                                                                    the ESF. The FRB is serving as the Department¿s fiscal agent in executing these
                                                                                                                    transactions and receives fees for its services. The Department also consults with the
                                                                                                                    FRB on matters affecting the economy, such as the structuring of bailout financing for
                                                                                                                    the GSEs, AIG, and other companies affected by the current economic situation.
                                                                                                                    Transactions and balances arising from these transactions are accounted for and
                                                                                                                    disclosed in the consolidated financial statements (Notes 7, 8, 11, and 26).
                                                                                                                    Finally, the Secretary serves on the FHFA Oversight Board, and consults with the
                                                                                                                    Director of FHFA on matters involving Fannie Mae and Freddie Mac. This provides the
                                                                                                                    Department a voice in the FHFA¿s actions as the conservator for Fannie Mae and
                                                                                                                    Freddie Mac. The Department has no transactions with FHFA.

10                 Describe the nature of the related party relationship and transactions pertaining to the         N/A
                   amount in the "Other
                   Notes Info " tab," Related party payables" line.
11                 Describe the "Other Notes Info" tab, "Related party operating revenue" transactions along        N/A
                   with the related party
                   relationship and include transactions with zero or nominal balances, guarantees, and other
                   terms. Also, describe
                   changes in related party terms.
12                 Describe the ''Other Notes Info" tab, "Related party net cost of operations" transactions        N/A
                   along with the related party relationship and include transactions with zero or nominal
                   balances, guarantees, and other terms. Also, describe changes in related party terms.
13                 Describe related party economic dependency (that is, major customers, suppliers,                 see 9
                   franchisors, franchisees, distributors, general agents, borrowers, and lenders) relationships
                   and transactions included in the "Other Notes Info" tab, "Related party economic
                   dependency transactions" section.
14                 Provide details on the investments in related parties.                                           N/A
15                 Provide details on related party leases.                                                         N/A
16                 Describe control relationships with entities under common ownership, management control,         The Secretary serves on the FHFA Oversight Board, and consults with the Director of


                                                                                                            -3-
                                                                                                                                                                                         11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01        Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                   Fiscal Year: 2011                  Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                     Agency Notes:     1, 16, 23, RSI

 Status: Complete                       The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line             Question                                                                                          Answer
                 and conservatorship if the operating results or financial position could be significantly         FHFA on matters involving Fannie Mae and Freddie Mac. This provides the
                 impacted as a result of the relationship. Include control relationships with and without          Department a voice in the FHFA¿s actions as the conservator for Fannie Mae and
                 transactions.                                                                                     Freddie Mac. The Department has no transactions with FHFA.
17               Provide any other useful information on related parties.                                          N/A




                                                                                                             -4-
                                                                                                                                                                                                11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 02           Cash and Other Monetary Assets                                                                                 Fiscal Year: 2011                    Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                    Agency Notes:        1,5, 6 and 12

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2011 - SEPTEMBER      2010 - SEPTEMBER
                                                                                   Type
Cash and Other Monetary Assets                                             D         A                  148,865                 396,402
                                                                                Variance:                     0                       0            Rounding Method: Millions               Decimal: Zero
Line Status Line Description             2011 - SEPTEMBER             2010 - SEPTEMBER              Previously Rptd            Line Item Changes
 1           Operating Cash- not                            49,812                    103,615                     103,615                               0
             restricted
 2           Operating Cash-                                     0                    199,962                     199,962                               0
             restricted
 3           Other cash - not                                  243                          291                          291                            0
             restricted
 4           Other cash - restricted                           315                        534                         534                               0
 5           International monetary                         76,593                     70,348                      70,348                               0
             assets
 6           Gold                                            11,062                    11,062                      11,062                             0
 7           Foreign currency                                10,840                    10,590                      13,438                       -2,848
             Total                                          148,865                   396,402                     399,250                        -2,848
Threshold

 Line Description                                               Question                                                             Answer
 Line Item Notes - Operating Cash- not restricted (2011 -       Please provide explanations for any amounts that have               The decrease is because there were more outlays than receipts and an
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between          increase of approximately $2 billion in checks outstanding as of September
                                                                the current fiscal year and prior fiscal year. (Unaudited)          30, 2011.
 Line Item Notes - Other cash - not restricted (2011 -          Please provide explanations for any amounts that have               The variance is not material to the Department's financial statements.
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between
                                                                the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Other cash - restricted (2011 -              Please provide explanations for any amounts that have               The decrease is due to the U.S. courts not reporting a receipt, therefore an
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between          adjustment had to be done by FMC.
                                                                the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                       -5-
                                                                                                                                                                                            11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 02             Cash and Other Monetary Assets                                                                              Fiscal Year: 2011                    Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                  Agency Notes:        1,5, 6 and 12

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                                            Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                           Decimal: Zero
Line Status Line Description           NB       2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd      Line Item Changes
 1              IMF Letter of Credit Debit                       42,950                     45,245                     45,245                          0
                - available balance
 2              Reserve Position in Debit                        22,656                     12,938                     12,938                          0
                the IMF
 3              SDR Holdings-        Debit                       55,911                     57,439                     57,439                          0
                Exchange
                Stabilization Fund
 4        I     SDR Certificates     Debit                                                                             -5,200                     5,200
                outstanding with
                the FRB
 5              SDR Certificates     Credit                       5,200                      5,200                                                5,200
                outstanding with
                the FRB
 6              Interest bearing     Credit                      55,150                     54,958                     54,958                          0
                liability to the IMF
                for SDR Allocations
 7              Gold certificates    Credit                      11,037                     11,037                     11,037                          0
       Section: B              Section Name: Gold                                                                                 Line Attributes: Units


Line Status Line Description           NB       2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd      Line Item Changes
 1              Number of fine troy    N/A             261,498,900.0000          261,498,900.0000           261,498,900.0000                      .0000
                ounces of gold
 2              Statutory price of 1   N/A                     42.2222                     42.2222                    42.2222                     .0000
                fine troy ounce of
                gold
 3              Market value of 1      N/A                   1,620.0000                 1,307.0000                 1,307.0000                     .0000
                fine troy ounce of
                gold




                                                                                                         -6-
                                                                                                                                                                                    11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 02            Cash and Other Monetary Assets                                                                           Fiscal Year: 2011                Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                               Agency Notes:    1,5, 6 and 12

  Status: Complete                             The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: C             Section Name: Analysis of Cash Held Outside Treasury                     No Data Flag: YES      Line Attributes: Dollars
                                                                                                                            Rounding Method: Millions                       Decimal: Zero
Line Status Line Description           NB        2011 - SEPTEMBER             2010 - SEPTEMBER
 1              Total Cash Held       Credit
                Outside Treasury
                (reported to
                Treasury
 2              Agency-entered        Credit
                reconciling item
 3              Agency-entered        Credit
                reconciling item
 4              Agency-entered        Credit
                reconciling item
 5              Agency-entered        Credit
                reconciling item
 6              Agency-entered        Credit
                reconciling item
 7              Total cash reported    N/A
                in Note 2.




                                                                                                          -7-
                                                                                                                                                                                                     11/15/2011 11:32:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 02          Cash and Other Monetary Assets                                                                                     Fiscal Year: 2011                   Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                         Agency Notes:       1,5, 6 and 12

 Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                            Answer
1                  Describe the nature of the amount in the line item "other cash - not restricted."                   This is mainly comprised of cash reported by the FMS as Other listed in Note 5 of the
                                                                                                                       Department's AFR. It is mainly cash expected to be included in Operating Cash in the
                                                                                                                       near future and it fluctuates daily.
2                  Describe the restrictions on the cash reported in the line item "Other cash - restricted" and       This is mainly non-entity tax related deposits in the U.S. Territories held by the Internal
                   any statutory authority (law, regulation, or agreement).                                            Revenue Service that cannot be used in its operations. It also includes seized cash
                                                                                                                       reported by the Treasury Forfeiture Fund.
3                  If the cash is restricted because it is non-entity, state the entity for which the cash is being    Internal Revenue Service - held for taxpayers. Treasury Forfeiture Fund - individuals
                   held.                                                                                               or entities who own the seized cash.
4                  Is the reported restricted cash being held in a financial institution? If yes, is it a Treasury     The Office of International Affairs maintains funds at the Federal Reserve Bank in New
                   designated bank?                                                                                    York that are restricted for use by the IMF. The articles of agreement with the IMF
                                                                                                                       provide for return of these funds should the U.S. withdraw from the IMF. Other
                                                                                                                       restricted assets are held at Treasury designated financial institutions.
5                  If the agency has restricted cash, is the restricted cash invested? If yes, is it invested in the   Invested cash is displayed on the balance sheet as investments rather than cash.
                   Bureau of the Public Debt (BPD)security, agency security, and/or non-Federal security?              Investments in BPD securities are eliminated from the Department's balance sheet.
6                  Describe the nature of the amount in the line item "Foreign currency."                              Foreign currency is held by the Exchange Stabilization Fund. All operations of the ESF
                                                                                                                       require the explicit authority of the Secretary of the Treasury. FMS Operating Cash
                                                                                                                       also holds foreign currency in a custodial capacity for the use of the entire U.S.
                                                                                                                       Government.


7                  Disclose any restrictions on the use (for example, by law, regulation, or agreement) of the         N/A
                   amount in the line item "Foreign Currency."
8                  Disclose the method of exchange rate used on the financial statement date (Treasury                 Treasury exchange rate
                   exchange rate or prevailing market rate).
9                  Provide additional details describibg the nature and cause of reconciling items reported in         N/A
                   Section C, lines 2 through 6.
10                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly      Substantially all of the Department's operating cash is non-entity government-wide
                   the significant accounting policies pertaining to this note.                                        cash held in depositary institutions and FRB accounts. Agencies can deposit funds that
                                                                                                                       are submitted to them directly into either a Federal Reserve Treasury General Account
                                                                                                                       (TGA) or a local TGA depositary. The balances in these TGA accounts are transferred
                                                                                                                       to the Federal Reserve Bank of New York (FRBNY)'s TGA at the end of each day.
                                                                                                                       Operating cash of the U.S. Government represents balances from tax collections,
                                                                                                                       customs duties, other revenue, federal debt receipts, and other various receipts net of
                                                                                                                       cash outflows for budget outlays and other payments held in the FRBs, foreign and
                                                                                                                       domestic financial institutions, and in Treasury Tax and Loan (TT&L) accounts.
                                                                                                                       Outstanding checks are netted against operating cash until they are cleared by the
                                                                                                                       Federal Reserve System.

                                                                                                                       The TGA is maintained at the FRBNY and functions as the government's checking
                                                                                                                       account for deposits and disbursements of public funds. The TT&L program includes
                                                                                                                       about 9,000 depositories that accept tax payments and remit them the day after receipt
                                                                                                                       to FRBNY's TGA. Certain TT&L depositories also hold non-entity government-wide
                                                                                                                       cash in interest bearing accounts. Cash in the TGA and the TT&L program is restricted



                                                                                                                -8-
                                                                                                                                                                                        11/15/2011 11:32:59

                                                                            U.S. Department of the Treasury
                                                                             Financial Management Service
                                                                        Governmentwide Financial Report System
                                                                                GF006 - FR Notes Report

   Note: 02         Cash and Other Monetary Assets                                                                              Fiscal Year: 2011                  Period: SEPTEMBER
  Entity: 2000      Department of the Treasury                                                                                  Agency Notes:      1,5, 6 and 12

 Status: Complete                    The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line             Question                                                                                     Answer
                                                                                                              for government-wide operations.

                                                                                                              The Supplementary Financing Program (SFP) Account is maintained at FRBNY. The
                                                                                                              SFP is a temporary program announced on September 17, 2008, by the Department
                                                                                                              and the Federal Reserve, to provide emergency cash for Federal Reserve initiatives
                                                                                                              aimed at addressing the ongoing crisis in financial markets. As of September 30, 2011,
                                                                                                              there were no outstanding cash management bills earmarked for SFP, as compared to
                                                                                                              eight outstanding cash management bills totaling $200.0 billion as of September 30,
                                                                                                              2010.

                                                                                                              The Department's foreign currency investments having original maturities of three
                                                                                                              months or less are classified as cash equivalents. Other foreign currency holdings
                                                                                                              having terms greater than three months but less than or equal to one year are classified
                                                                                                              as "available-for-sale" investments. Special Drawing Rights (SDRs) holdings comprise
                                                                                                              most of the other monetary assets (refer to "Special Drawing Rights" accounting policy).

                                                                                                              IMF Letter of Credit and the Reserve Position for fiscal year 2011, includes amounts
                                                                                                              subject to Federal Credit Reform Act (See FR Note 19 Commitments).




                                                                                                -9-
                                                                                                                                                                                              11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                  Fiscal Year: 2011                Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                     Agency Notes:        1 and 13

  Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account    2011 - SEPTEMBER         2010 - SEPTEMBER
                                                                                    Type
Accounts and Taxes Receivable                                                D        A                    36,690                 37,008
                                                                                 Variance:                      0                      0           Rounding Method: Millions             Decimal: Zero
Line Status Line Description            2011 - SEPTEMBER               2010 - SEPTEMBER               Previously Rptd          Line Item Changes
 1           Accounts receivable,                                 82                         62                           62                            0
             gross
 2           Related interest                                  1,603                      1,943                        1,943                            0
             receivable - accounts
             receivable
 3           Penalties, fines, and                                 8                          2                            2                            0
             administrative fees
             receivable
 4           Less: allowance for                                  -2                         -4                           -4                            0
             loss on accounts
             receivable
 5           Less: allowance for                                  -3
             loss on interest
             receivable
 6           Less: allowance for                                  -6                         -2                           -2                            0
             loss on penalties,
             fines, and admin. fees
             rec.
 7           Taxes receivable,                               147,025                    138,107                      138,107                            0
             gross
 8           Less: allowance for                            -112,017                  -103,100                      -103,100                            0
             loss on taxes
             receivable
             Total                                            36,690                     37,008                       37,008                            0
Threshold

 Line Description                                                 Question                                                           Answer
 Line Item Notes - Accounts receivable, gross (2011 -             Please provide explanations for any amounts that have             Variance presented is not material to the Department's consolidated
 SEPTEMBER)                                                       changed by 10% or more and or greater than 500,000 between        financial statements.
                                                                  the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Related interest receivable - accounts         Please provide explanations for any amounts that have             Variance presented is not material to the Department's consolidated
 receivable (2011 - SEPTEMBER)                                    changed by 10% or more and or greater than 500,000 between        financial statements.
                                                                  the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                        - 10 -
                                                                                                                                                                                                       11/15/2011 11:32:59

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                        Fiscal Year: 2011                  Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                           Agency Notes:        1 and 13

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Taxes (To be completed by the Depts. of Treasury,                                             Line Attributes: Dollars
                                           Labor and Homeland Security)                                                                Rounding Method: Millions                             Decimal: Zero
Line Status Line Description         NB       2011 - SEPTEMBER                2010 - SEPTEMBER                   Previously Rptd         Line Item Changes
 1              Interest on         Debit                             4                            13                          13                             0
                uncollectible
                accounts (SFFAS
                No. 1, par. 55)




Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Describe the method(s) used to calculate the allowances on accounts receivable.                       Allowances are calculated differently by each Treasury bureau depending on the nature
                                                                                                                           of the balances.
 2                   Describe the method(s) used to calculate the allowance on taxes receivable.                           IRS- Uses a sophisticated model to estimate both taxes receivable and the allowance.
                                                                                                                           TTB uses aging, analysis of individual accounts, analysis of offers in compromise, etc.

 3                   Explain any material difference between the balance of accounts receivable and the                    No known material differences.
                     amounts reported on the Treasury Report on Receivables.
 4                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly        Federal taxes receivable, net, and the corresponding liability, due to the Department are
                     the significant accounting policies pertainnig to this note.                                          not accrued until related tax returns are filed or assessments are made by the IRS and
                                                                                                                           agreed to by either the taxpayer or the court. Additionally, the prepayments are netted
                                                                                                                           against liabilities. Accruals are made to reflect penalties and interest on taxes
                                                                                                                           receivable through the balance sheet date.
                                                                                                                           Taxes receivable consist of unpaid assessments (taxes and associated penalties and
                                                                                                                           interest) due from taxpayers. The existence of a receivable is supported by a taxpayer
                                                                                                                           agreement, such as filing of a tax return without sufficient payment, or a court ruling in
                                                                                                                           favor of the IRS. The allowance reflects an estimate of the portion of total taxes
                                                                                                                           receivable deemed to be uncollectible.
                                                                                                                           Compliance assessments are unpaid assessments which neither the taxpayer nor a
                                                                                                                           court has affirmed the taxpayer owes to the Federal Government. Examples include
                                                                                                                           assessments resulting from an IRS audit or examination in which the taxpayer does not
                                                                                                                           agree with the results. Write-offs consist of unpaid assessments for which the IRS does
                                                                                                                           not expect further collections due to factors such as taxpayers¿ bankruptcy, insolvency,
                                                                                                                           or death. Compliance assessments and write-offs are not reported on the balance
                                                                                                                           sheet. Statutory provisions require the accounts to be maintained until the statute for
                                                                                                                           collection expires.




                                                                                                            - 11 -
                                                                                                                                                                                             11/15/2011 11:32:59

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

      Note: 04A        Direct Loans Receivable and Mortgage Backed Securities                                                      Fiscal Year: 2011                  Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                  Agency Notes:       1 and 11

  Status: Complete                      The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                                Type
Loans Receivable and mortgage backed securities                          D        A                    99,068               186,520
                                                                             Variance:                      0                     0          Rounding Method: Millions                  Decimal: Zero
Line Status Line Description           CY Face Value of loans        CY Long-term cost of      CY Net loans receivable     PY Face Value of loans        PY Long-term cost of          PY Net loans receivable
                                            outstanding                         loans                                           outstanding                         loans
 13          GSE Mortgage Backed                       70,586                       -1,831                      72,417                    164,340                       -7,894                              172,234
             Securities Purchase
             Program
 14          SBLF Small Business                           4,028                         -80                     4,108
             Lending
 15          CDFI Community                                  53                           17                          36                         56                             15                              41
             Development Financial
             Institutions
 16          HFA Initiative                               15,143                         815                    14,328                      15,307                           1,186                           14,121
 17          IMF International                             1,995                          64                     1,931
             Monetary Fund
 18          NAB (Non-Credit                               6,148                           0                     6,148
             Reform)
 19          All other loans                                 99                           -1                         100                       123                              -1                             124
             receivable
             Total                                        98,052                     -1,016                      99,068                    179,826                          -6,694                          186,520
Threshold

 Line Description                                             Question                                                           Answer
 Line Item Notes - GSE Mortgage Backed Securities             Please provide explanations for any amounts that have             On March 21, 2011, the Department announced that it would begin an
 Purchase Program (CY Face Value of loans outstanding)        changed by 10% or more and or greater than 500,000 between        orderly sale of its MBS portfolio. The Department plans to sell up to $10.0
                                                              the current fiscal year and prior fiscal year. (Unaudited)        billion in GSE MBS securities per month, subject to market conditions. This
                                                                                                                                decision is more consistent with the Department's divestment strategy for
                                                                                                                                financial assets acquired during 2008 and 2009 as part of its other economic
                                                                                                                                stabilization programs.
 Line Item Notes - CDFI Community Development Financial       Please provide explanations for any amounts that have             This balance is not significant to the Department and fluctuation of this
 Institutions (CY Long-term cost of loans)                    changed by 10% or more and or greater than 500,000 between        amount is not significant.
                                                              the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                    - 12 -
                                                                                                                                                                                       11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 04A           Direct Loans Receivable and Mortgage Backed Securities                                                   Fiscal Year: 2011                Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                               Agency Notes:     1 and 11

 Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line



Threshold

Line Description                                                Question                                                      Answer
Line Item Notes - HFA Initiative (CY Long-term cost of loans)   Please provide explanations for any amounts that have        The reducution in subsidy cost allowance is due to the subsidy allowance
                                                                changed by 10% or more and or greater than 500,000 between   amortization partially offset by an upward reestimate in fiscal year 2011.
                                                                the current fiscal year and prior fiscal year. (Unaudited)   This upward reestimate is the net result of projected lower coupon rates on
                                                                                                                             the expected release of escrowed NIBP funds between September 30,
                                                                                                                             2011, and the termination of the escrowed NIBP funds on December 31,
                                                                                                                             2011. Most of this increase in cost is offset by an increase in prepayment
                                                                                                                             speeds. The projected lower coupon rates on the expected release of
                                                                                                                             escrowed NIBP funds are due to lower market interest rates used as index
                                                                                                                             to calculate the coupon rates. The increase in prepayment speeds is
                                                                                                                             primarily due to a decrease in market mortgage rates and a related increase
                                                                                                                             in refinancing activity.

                                                                                                                             The subsidy allowance amortization is comprised of the net difference
                                                                                                                             between interest received on uninvested funds, interest expense on
                                                                                                                             borrowings, fees, and interest received from the HFAs. The amortization for
                                                                                                                             fiscal year 2011 was $410 million.
Line Item Notes - All other loans receivable (CY Face Value     Please provide explanations for any amounts that have        Variance presented is not material to the Department's consolidated
of loans outstanding)                                           changed by 10% or more and or greater than 500,000 between   financial statements.
                                                                the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                      - 13 -
                                                                                                                                                                                                11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                        Fiscal Year: 2011                  Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                    Agency Notes:         1 and 11

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

      Section: A                Section Name: Subsidy Expense/(Income)                                                            Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                            Decimal: Zero
Line Status Line Description          NB       2011 - SEPTEMBER             2010 - SEPTEMBER                  Previously Rptd    Line Item Changes
13            GSE Mortgage           Debit                       1,814                        -632                                                 -632
              Backed Securities
              Purchase Program
14            SBLF Small             Debit                         -80                            0                                                     0
              Business Lending
              Fund
15            CDFI Community         Debit                           2                          -4                                                     -4
              Development
              Financial
              Institutions
16            HFA Initiative         Debit                           9                       1,723                                                1,723
17            IMF International      Debit                          62                            0                                                     0
              Monetary Fund
18                                   Debit
19            All other loans        Debit
              receivable
20            Total               N/A                            1,807                       1,087                                                1,087
Threshold
 Line Description                                                Question                                                          Answer
 Other Notes Info - GSE Mortgage Backed Securities               Please provide explanations for any amounts that have             The change in the subsidy allowance from September 30, 2010 to
 Purchase Program (2011 - SEPTEMBER)                             changed by 10% or more and or greater than 500,000                September 30, 2011 stems from: (i) a subsidy modification, which occurred
                                                                 between the current fiscal year and prior fiscal year.            as a result of the Department's decision to sell its MBS holdings, (ii) a
                                                                 (Unaudited)                                                       financial statement reestimate, which occurred at year end, and (iii) subsidy
                                                                                                                                   allowance amortization. The different assumptions underlying the
                                                                                                                                   calculation of the subsidy modification and the subsidy reestimate drove the
                                                                                                                                   difference in the program's cost.
 Other Notes Info - CDFI Community Development Financial         Please provide explanations for any amounts that have             This balance is not significant to the Department and fluctuation of this
 Institutions (2011 - SEPTEMBER)                                 changed by 10% or more and or greater than 500,000                amount is not significant.
                                                                 between the current fiscal year and prior fiscal year.
                                                                 (Unaudited)
 Other Notes Info - IMF International Monetary Fund (2011 -      Please provide explanations for any amounts that have             This is a new program under federal credit reform in FY 2011.
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000
                                                                 between the current fiscal year and prior fiscal year.
                                                                 (Unaudited)




                                                                                                          - 14 -
                                                                                                                                                                                               11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                        Fiscal Year: 2011                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                   Agency Notes:      1 and 11

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: A             Section Name: Subsidy Expense/(Income)                                                              Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                            Decimal: Zero
Threshold
 Line Description                                                Question                                                          Answer
 Other Notes Info - HFA Initiative (2011 - SEPTEMBER)            Please provide explanations for any amounts that have             The Department performed a financial statement reestimate of the
                                                                 changed by 10% or more and or greater than 500,000                program's cost as of September 30, 2011. The financial statement
                                                                 between the current fiscal year and prior fiscal year.            reestimate resulted in a total upward reestimate of $9 million for fiscal year
                                                                 (Unaudited)                                                       2011. This upward reestimate is the net result of projected lower coupon
                                                                                                                                   rates on the expected release of escrowed NIBP funds between September
                                                                                                                                   30, 2011, and the termination of the escrowed NIBP funds on December 31,
                                                                                                                                   2011. Most of this increase in cost is offset by an increase in prepayment
                                                                                                                                   speeds. The projected lower coupon rates on the expected release of
                                                                                                                                   escrowed NIBP funds are due to lower market interest rates used as index
                                                                                                                                   to calculate the coupon rates. The increase in prepayment speeds is
                                                                                                                                   primarily due to a decrease in market mortgage rates and a related increase
                                                                                                                                   in refinancing activity.
       Section: B             Section Name: Foreclosed Assets - Balances (SFFAS No. 3, par.            No Data Flag: YES          Line Attributes: Dollars
                                            91)                                                                                 Rounding Method: Millions                            Decimal: Zero
Line Status Line Description          NB       2011 - SEPTEMBER             2010 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1             Balances for          Debit
               property held Pre-
               1992
 2             Balances for          Debit
               property held Post-
               1991




       Section: C             Section Name: Components of Loans Receivable, Net - Current              No Data Flag: YES          Line Attributes: Dollars
                                            Year                                                                                Rounding Method: Millions                            Decimal: Zero
Line Status Line Description          NB      Federal Direct Student              Electric Loans       Rural Housing Service          Federal Family      Water and Environmental                    Farm Loans
                                                             Loans                                                                  Education Loan                        Loans
 1             Loans receivable,     Debit
               net - beginning of
               the year
 2             Loans disbursed       Debit
               (loans made)
 3             Loan collections      Debit
               (principal and
               interest
               repayments,



                                                                                                          - 15 -
                                                                                                                                                                                       11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                      Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                  Agency Notes:    1 and 11

  Status: Complete                           The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: C             Section Name: Components of Loans Receivable, Net - Current            No Data Flag: YES          Line Attributes: Dollars
                                            Year                                                                              Rounding Method: Millions                       Decimal: Zero
Line Status Line Description          NB      Federal Direct Student              Electric Loans     Rural Housing Service          Federal Family      Water and Environmental               Farm Loans
                                                             Loans                                                                Education Loan                        Loans
               penalties and fines
               related to loans)
 4                                   Debit
 5                                   Debit
 6                                   Debit
 7                                   Debit
 8             Interest accrued on   Debit
               loans
 9             Foreclosed            Debit
               property acquired
10             Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11             Allowance for         Debit
               subsidy
12                                   Debit
13                                   Debit
14                                   Debit
15                                   Debit
16             Loans receivable,     N/A
               net - end of the
               year
Line Status Line Description          NB        Export-Import Bank                U.S. Agency for         Housing and Urban    Telecommunications          GSE Mortgage Backed All other loans receivable
                                                           Loans                     International           Development                 Loans               Securities Purchase
                                                                                  Development                                                                          Program
 1             Loans receivable,     Debit
               net - beginning of
               the year
 2             Loans disbursed       Debit
               (loans made)
 3             Loan collections      Debit
               (principal and
               interest
               repayments,
               penalties and fines



                                                                                                       - 16 -
                                                                                                                                                                                     11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A           Direct Loans Receivable and Mortgage Backed Securities                                                     Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                 Agency Notes:    1 and 11

  Status: Complete                           The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: C             Section Name: Components of Loans Receivable, Net - Current            No Data Flag: YES          Line Attributes: Dollars
                                            Year                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB        Export-Import Bank                U.S. Agency for         Housing and Urban    Telecommunications        GSE Mortgage Backed All other loans receivable
                                                           Loans                     International           Development                    Loans          Securities Purchase
                                                                                  Development                                                                        Program
 3             related to loans)
 4                                   Debit
 5                                   Debit
 6                                   Debit
 7                                   Debit
 8             Interest accrued on   Debit
               loans
 9             Foreclosed            Debit
               property acquired
10             Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11             Allowance for         Debit
               subsidy
12                                   Debit
13                                   Debit
14                                   Debit
15                                   Debit
16             Loans receivable,      N/A
               net - end of the
               year
       Section: D             Section Name: Components of Loans Receivable, Net - Prior Year         No Data Flag: YES          Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB      Federal Direct Student              Electric Loans     Rural Housing Service          Federal Family      Water and Environmental              Farm Loans
                                                             Loans                                                                Education Loan                        Loans
 1             Loans receivable,     Debit
               net - beginning of
               the year
 2             Loans disbursed       Debit
               (loans made)
 3             Loan collections      Debit
               (principal and
               interest
               repayments,


                                                                                                       - 17 -
                                                                                                                                                                                       11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                      Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                  Agency Notes:    1 and 11

  Status: Complete                           The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: D            Section Name: Components of Loans Receivable, Net - Prior Year          No Data Flag: YES          Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                       Decimal: Zero
Line Status Line Description          NB      Federal Direct Student              Electric Loans     Rural Housing Service          Federal Family      Water and Environmental               Farm Loans
                                                             Loans                                                                Education Loan                        Loans
               penaltiesand fines
               related to loans)
 4                                   Debit
 5                                   Debit
 6                                   Debit
 7                                   Debit
 8             Interest accrued on   Debit
               loans
 9             Foreclosed            Debit
               property acquired
10             Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11             Allowance for         Debit
               subsidy
12                                   Debit
13                                   Debit
14                                   Debit
15                                   Debit
16             Loans receivable,     N/A
               net - end of the
               year
Line Status Line Description          NB        Export-Import Bank                U.S. Agency for         Housing and Urban    Telecommunications          GSE Mortgage Backed All other loans receivable
                                                           Loans                     International           Development                 Loans               Securities Purchase
                                                                                  Development                                                                          Program
 1             Loans receivable,     Debit
               net - beginning of
               the year
 2             Loans disbursed       Debit
               (loans made)
 3             Loan collections      Debit
               (principal and
               interest
               repayments,
               penaltiesand fines



                                                                                                       - 18 -
                                                                                                                                                                                    11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A           Direct Loans Receivable and Mortgage Backed Securities                                                    Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                Agency Notes:    1 and 11

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D             Section Name: Components of Loans Receivable, Net - Prior Year         No Data Flag: YES          Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description         NB         Export-Import Bank                U.S. Agency for         Housing and Urban    Telecommunications        GSE Mortgage Backed All other loans receivable
                                                           Loans                     International           Development                    Loans          Securities Purchase
                                                                                  Development                                                                        Program
 3             related to loans)
 4                                   Debit
 5                                   Debit
 6                                   Debit
 7                                   Debit
 8             Interest accrued on   Debit
               loans
 9             Foreclosed            Debit
               property acquired
10             Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11             Allowance for         Debit
               subsidy
12                                   Debit
13                                   Debit
14                                   Debit
15                                   Debit
16             Loans receivable,      N/A
               net - end of the
               year




                                                                                                       - 19 -
                                                                                                                                                                                               11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 04A         Direct Loans Receivable and Mortgage Backed Securities                                                          Fiscal Year: 2011                 Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                     Agency Notes:       1 and 11

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Provide a broad description of foreclosed property.                                              N/A
2                  Provide details regarding programs reported in Sections C and D that comprise amounts            Sections C-D not completed, as information is not directly derived from AFR or
                   reported in the "All Other loans receivable" colulmn.                                            otherwise readily available.
3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   The Department accounts for all of its credit program receivablesunder the provisions of
                   the significant accounting policies pertaining to this note.                                     credit reform accounting, including the loans or equity securities associated with the
                                                                                                                    Department's: GSE mortgage-backed securities (MBS) purchase program, state and
                                                                                                                    local Housing Finance Agency (HFA) Initiative program, SBLF program, CDFI program,
                                                                                                                    and certain portions of the Department's participation in the IMF (Department's Note
                                                                                                                    11).

                                                                                                                    The Department applies the accounting provisions of SFFAS No. 2, Accounting for
                                                                                                                    Direct Loans and Loan Guarantees, as amended by SFFAS No. 18, Amendments to
                                                                                                                    Accounting Standards for Direct Loans and Loan Guarantees, and SFFAS No. 19,
                                                                                                                    Technical Amendments to Accounting Standards for Direct Loans and Loan
                                                                                                                    Guarantees. SFFAS No. 2, as amended, requires measurement of the asset or liability
                                                                                                                    at the net present value of the estimated future cash flows. The cash flow estimates for
                                                                                                                    each credit program transaction reflect the actual structure of the instruments. For each
                                                                                                                    of these instruments, the Department estimates cash inflows and outflows related to the
                                                                                                                    program over the estimated term of the instrument. Further, each cash-flow estimate
                                                                                                                    reflects the specific terms and conditions of the program, technical assumptions
                                                                                                                    regarding the underlying assets, risk of default or other losses, and other factors as
                                                                                                                    appropriate. The measurement of assets within these programs is primarily derived
                                                                                                                    from inputs which generally represent market data and, when such data is not available,
                                                                                                                    management's best estimate of how a market participant would assess the risk inherent
                                                                                                                    in the asset.

                                                                                                                    Cash flows associated with the Department's credit programs generally include
                                                                                                                    disbursements, repayments, repurchases, fees, recoveries, interest, dividends,
                                                                                                                    proceeds from sales of instruments, borrowings from Treasury, negative subsidy, and
                                                                                                                    the subsidy cost received from the program accounts. Security-level data and
                                                                                                                    assumptions used as the basis for cash flow model forecasts and program performance
                                                                                                                    are drawn from widely available market sources, as well as information published by
                                                                                                                    investees. Key inputs to the cash flow forecasts include:

                                                                                                                    * Security characteristics such as unpaid principal balance, coupon rate, weighted-
                                                                                                                    average loan age, issued bond balance, credit rating, maturity date, principal and
                                                                                                                    interest payment schedules, priority of payments, and performance of underlying
                                                                                                                    collateral
                                                                                                                    * Department actions as well as changes in legislation
                                                                                                                    * Forecast prepayment rates and default rates
                                                                                                                    * Forecast dividend payments
                                                                                                                    * Expected escrow conversion and return rates
                                                                                                                    * Default and recovery reports published by Moody's and Standard and Poor's
                                                                                                                    * Other third-party market sources



                                                                                                          - 20 -
                                                                                                                                                                                        11/15/2011 11:32:59

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                 GF006 - FR Notes Report

   Note: 04A        Direct Loans Receivable and Mortgage Backed Securities                                                      Fiscal Year: 2011                 Period: SEPTEMBER
  Entity: 2000      Department of the Treasury                                                                                  Agency Notes:      1 and 11

 Status: Complete                    The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line             Question                                                                                     Answer
                                                                                                              The recorded subsidy cost associated with each of the Department's credit programs is
                                                                                                              based on the calculated net present value of expected future cash flows. The
                                                                                                              Department's actions, as well as changes in legislation, may impact estimated future
                                                                                                              cash flows and related subsidy costs. The cost or cost savings of a modification is
                                                                                                              recognized in subsidy costs when the terms of a program are modified. Subsidy costs
                                                                                                              are also impacted by reestimates which may occur as a result of updates to the original
                                                                                                              program subsidy cost estimates to reflect actual cash flows experience, as well as
                                                                                                              changes in forecasts of estimated future cash flows associated with the credit program.




                                                                                               - 21 -
                                                                                                                                                                                       11/15/2011 11:32:59

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

      Note: 04B         Loan Guarantees                                                                                          Fiscal Year: 2011                Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                               Agency Notes:       N/A - ATSB no longer exists as of FY 2009

  Status: Complete                        The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                                Type
Loan Guarantee Liabilities                                               C        L                          0                  0
                                                                             Variance:                       0                  0            Rounding Method: Millions            Decimal: Zero
Line Status Line Description          2011 - SEPTEMBER            2010 - SEPTEMBER                Previously Rptd        Line Item Changes
 9           Air Transportation
             Stabilization Board
 13
 14
 15
 16
 17
 18          All other loan
             guarantee liabilities
             Total




                                                                                                    - 22 -
                                                                                                                                                                                               11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 04B          Loan Guarantees                                                                                                  Fiscal Year: 2011                Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                      Agency Notes:       N/A - ATSB no longer exists as of FY 2009

  Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Other Related Information                                    No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                          Decimal: Zero
Line Status Line Description         NB          CY Face Value of           CY Amount Guaranteed         CY Subsidy Expense D     PY Face Value of Loans PY Amount Guaranteed by          PY Subsidy Expense D
                                             Loans Outstanding D             by the Government D                                         Outstanding D        the Government D
 9             Air Transportation    N/A
               Stabilization Board
13                                   N/A
14                                   N/A
15                                   N/A
16                                   N/A
17                                   N/A
18          All other loans          N/A
            guarantee liabilities
19          Total:                   N/A
Tab: Text Data                         No Data Flag: YES
 Line               Question                                                                                             Answer
 1                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                            - 23 -
                                                                                                                                                                                             11/15/2011 11:32:59

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 05          Inventories and Related Property                                                                             Fiscal Year: 2011                  Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                   Agency Notes:        immaterial to the Dept no separate note disclosure

  Status: Complete                       The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2011 - SEPTEMBER         2010 - SEPTEMBER
                                                                               Type
Inventory and Related Property                                          D        A                          743                  697
                                                                            Variance:                         0                    0            Rounding Method: Millions               Decimal: Zero
Line Status Line Description          2011 - SEPTEMBER            2010 - SEPTEMBER               Previously Rptd            Line Item Changes
 1          Gross Inventory -                              707                          638                           638                            0
            balance beginning of
            year
 2          Prior-period
            adjustment (not
            restated)
 3          Capitalized                                    664                          591                           591                            0
            acquisitions from the
            public
 4          Capitalized
            acquisitions from
            Government agencies
 5          Inventory sold or used                        -614                        -522                         -522                              0
 6          Total allowance for                            -14                         -10                          -10                              0
            inventories and related
            property
            Total                                           743                         697                           697                            0




                                                                                                   - 24 -
                                                                                                                                                                                                   11/15/2011 11:32:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 05             Inventories and Related Property                                                                                Fiscal Year: 2011                  Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                      Agency Notes:        immaterial to the Dept no separate note disclosure

  Status: Complete                               The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Inventory Yearend Balances by Category Type                                             Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                            Decimal: Zero
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              Inventory               Debit
                purchased for sale
 2              Inventory held in       Debit
                reserve for future
                sale to the public
 3              Inventory and           Debit
                operating material
                and supplies held
                for repair
 4              Inventory - excess,     Debit
                obsolete, and
                unserviceable
 5              Operating materials     Debit                           17                         17                          17                          0
                and supplies held
                for use
 6              Operating materials     Debit                           26                         25                          25                          0
                and supplies held
                in reserve for future
                use
 7              Operating materials     Debit
                and supplies
                excess, obsolete,
                and unserviceable
 8              Stockpile materials     Debit
 9              Stockpile materials     Debit
                held for sale
10              Forfeited property      Debit                           63                         69                          69                          0
11              Other related           Debit                          651                        596                         596                          0
                property
12              Total allowance for     Credit                          14                         10                          10                          0
                inventories and
                related property
13              Total inventories        N/A                           743                        697                         697                          0
                and related
                property, net




                                                                                                           - 25 -
                                                                                                                                                                                               11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                             Fiscal Year: 2011                  Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                   Agency Notes:        immaterial to the Dept no separate note disclosure

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: B              Section Name: Capitalized Acquitions From Government Agencies         No Data Flag: YES            Line Attributes: Dollars
                                             by Trading Patrner                                                                 Rounding Method: Millions                            Decimal: Zero
Line Status Line Description          NB       2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              General Services     Debit
                Administration
 2              Department of        Debit
                Defense
 3              Department of        Debit
                Justice
 4              National             Debit
                Aeronautics and
                Space
                Administration
 5              All other            Debit
                departments
 6              Total Capitalized     N/A
                Assets from
                Federal Agencies
       Section: C              Section Name: Other Information - Dollar Value                                                     Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                            Decimal: Zero
Line Status Line Description          NB       2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              Seized property      Debit                         494                        558                         558                          0
 2              Forfeited property   Debit                          54                         63                          63                          0
 3              Goods held under     Debit
                price support and
                stabilization
                programs




                                                                                                       - 26 -
                                                                                                                                                                                                             11/15/2011 11:32:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                                       Fiscal Year: 2011                    Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                            Agency Notes:        immaterial to the Dept no separate note disclosure

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                      I = Inactive Line


       Section: D              Section Name: Other Information - Number of Items/Volume                                                     Line Attributes: Units


Line Status Line Description          NB       2011 - SEPTEMBER                2010 - SEPTEMBER                   Previously Rptd          Line Item Changes
 1              Seized property       N/A                   30,900.0000                   28,836.0000                  28,836.0000                           .0000
 2              Forfeited property    N/A                   15,297.0000                   11,814.0000                  11,814.0000                           .0000
 3              Goods held under      N/A
                price support and
                stabilization
                programs



Tab: Text Data
 Line                Question                                                                                               Answer
 1                   Method used to calculate allowance for each category of inventory.                                     All inventory that is not for sale has an allowance of 100% of the original value
 2                   Significant accounting principles and methods of applying those principles.                            Inventory and related property includes inventory, operating materials and supplies and
                                                                                                                            forfeited property held by Treasury. Treasury¿s operating materials and supplies are
                                                                                                                            maintained for the production of bureau products. Treasury maintains inventory
                                                                                                                            accounts or balances for use in manufacturing currency and coins. The cost of these
                                                                                                                            items is included in inventory costs and is recorded as cost of goods sold upon delivery
                                                                                                                            to customers. Inventory for check processing activities is also maintained.
 3                    Provide any other relevant information pertaining to this note. At a minimum, describe briefly        The Treasury values inventories at either standard cost, or lower of cost or latest
                      the significant accounting policies pertaining to this note.                                          acquisition cost, except for finished goods inventories, which are valued at weighted-
                                                                                                                            average unit cost. These inventories were categorized based on the Department¿s
                                                                                                                            major activities and the services the Department provides to the Federal Government
                                                                                                                            and the public. All operating materials and supplies are recorded as an expense when
                                                                                                                            consumed in operations.

                                                                                                                            Forfeited property is recorded at estimated fair market value as deferred revenue, and
                                                                                                                            may be adjusted to reflect the current fair market value at the end of the fiscal year.
                                                                                                                            Property forfeited in satisfaction of a taxpayer¿s assessed liability is recorded when title
                                                                                                                            to the property passes to the U.S. Government and a corresponding credit is made to
                                                                                                                            the related taxes receivable. Direct and indirect holding costs are not capitalized for
                                                                                                                            individual forfeited assets.

                                                                                                                            Mortgages and claims on forfeited assets are recognized as a valuation allowance and
                                                                                                                            a reduction of deferred revenue from forfeited assets when the asset is forfeited. The
                                                                                                                            allowance includes mortgages and claims on forfeited property held for sale and a
                                                                                                                            minimal amount of claims on forfeited property previously sold. Revenue from the
                                                                                                                            forfeiture of property is deferred until the property is sold or transferred to a state, local,
                                                                                                                            or federal agency. Revenue is not recognized if the forfeited property is ultimately
                                                                                                                            destroyed or cannot be legally sold.




                                                                                                             - 27 -
                                                                                                                                                                                               11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 06          Property, Plant, and Equipment                                                                                  Fiscal Year: 2011                 Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                      Agency Notes:        1, 14

  Status: Complete                       The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account      2011 - SEPTEMBER         2010 - SEPTEMBER
                                                                                   Type
Property, Plant and Equipment                                               D        A                        2,266                2,031
                                                                                Variance:                         0                    0            Rounding Method: Millions             Decimal: Zero
Line Status Line Description                        CY PP&E             CY Accum. Depr.                   CY Net PP& E                    PY PP&E             PY Accum. Depr.                   PY Net PP&E
 1           PP&E - balance                               5,986                           3,955                         2,031                    5,745                          3,709                        2,036
             beginning of year
 2           Prior-period
             adjustments (not
             restated)
 3           Capitalized                                       665                                                        665                        434                                                      434
             acquisitions from the
             public
 4           Capitalized                                        83                           12                             71                        69                                                       69
             acquisitions from
             Government agencies
 5           Deletions from the                               -400                         -381                           -19                       -262                        -234                          -28
             Balance Sheet
 6           Revaluations                                        0                             0                             0
 7           Stewardship
             reclassifications
 8           Depreciation/amortizati                                                        482                          -482                                                    480                         -480
             on
             Total                                            6,334                        4,068                         2,266                      5,986                       3,955                        2,031
Threshold

 Line Description                                               Question                                                            Answer
 Line Item Notes - Revaluations (CY Accum. Depr.)               Accumulated Depreciation is not allowed for this line. Please go    The variance is not material to the Department's financial statements.
                                                                back and erase any amount you entered.




                                                                                                          - 28 -
                                                                                                                                                                                                    11/15/2011 11:32:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06              Property, Plant, and Equipment                                                                                  Fiscal Year: 2011                 Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                      Agency Notes:        1, 14

  Status: Complete                              The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Gross cost for PP&E for each category                                                   Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                           Decimal: Zero
Line Status Line Description             NB       2011 - SEPTEMBER             2010 - SEPTEMBER                  Previously Rptd      Line Item Changes
 1              Buildings,              Debit                         703                         701                         701                           0
                structures, and
                facilities (including
                improvement to
                land)
 2              Furniture, fixtures,    Debit                       3,097                       3,100                        3,100                          0
                and equipmen
                (including
                aircraf,ships,
                vessels, small
                boats, and
                vehicles)
 3              Construction in         Debit                         153                          15                          15                           0
                progress
 4              Land and Land           Debit                          15                          13                          13                           0
                Rights
 5              Internal use            Debit                       1,849                       1,612                        1,612                          0
                software
 6              Assets under            Debit                           7                            4                          4                           0
                capital lease
 7              Leasehold               Debit                         510                         541                         541                           0
                improvements
 8              Other property,         Debit
                plant and
                equipment
 9              Total property,         N/A                         6,334                       5,986                        5,986                          0
                plant and
                equipment
Threshold
 Line Description                                                   Question                                                            Answer
 Other Notes Info - Construction in progress (2011 -                Please provide explanations for any amounts that have               The increase is the result of the acquisition of production equipment used in
 SEPTEMBER)                                                         changed by 10% or more and or greater than 500,000                  the manufacturing of U.S. currency and information technology.
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)
 Other Notes Info - Land and Land Rights (2011 -                    Please provide explanations for any amounts that have               The variance is not material to the Department's financial statements.
 SEPTEMBER)                                                         changed by 10% or more and or greater than 500,000
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)



                                                                                                             - 29 -
                                                                                                                                                                                                    11/15/2011 11:32:59

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

     Note: 06             Property, Plant, and Equipment                                                                                     Fiscal Year: 2011                Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                         Agency Notes:        1, 14

  Status: Complete                               The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: A               Section Name: Gross cost for PP&E for each category                                                      Line Attributes: Dollars
                                                                                                                                       Rounding Method: Millions                          Decimal: Zero
Threshold
 Line Description                                                    Question                                                             Answer
 Other Notes Info - Assets under capital lease (2011 -               Please provide explanations for any amounts that have                IRS entered into lease agreements this year.
 SEPTEMBER)                                                          changed by 10% or more and or greater than 500,000
                                                                     between the current fiscal year and prior fiscal year.
                                                                     (Unaudited)
 Other Notes Info - Internal use software (2011 -                    Please provide explanations for any amounts that have                Internal Use Software increased as a result of additional development costs
 SEPTEMBER)                                                          changed by 10% or more and or greater than 500,000                   of various ongoing projects including CADE 2, IRDM, RRP Mod E-File and
                                                                     between the current fiscal year and prior fiscal year.               KISAM.
                                                                     (Unaudited)

       Section: B               Section Name: Accumulated Depreciation/Amortization                                                      Line Attributes: Dollars
                                                                                                                                       Rounding Method: Millions                          Decimal: Zero
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER                  Previously Rptd       Line Item Changes
 1              Buildings,              Credit                         360                         336                          336                           0
                structures, and
                facilities (including
                improvements to
                land)
 2              Furniture, fixtures,    Credit                       2,259                       2,295                         2,295                          0
                and equipment
                (including aircraft,
                ships, vessels,
                small boats, and
                vehicles)
 3              Internal use            Credit                       1,151                       1,003                         1,003                          0
                software
 4              Assets under            Credit                           1                            2                            2                          0
                capital lease
 5              Leasehold               Credit                         297                         319                          319                           0
                improvements
 6              Other property,         Credit
                plant, and
                equipment
 7              Total accumulated        N/A                        -4,068                      -3,955                        -3,955                          0
                depreciation/amorti
                zation




                                                                                                              - 30 -
                                                                                                                                                                                     11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 06            Property, Plant, and Equipment                                                                                Fiscal Year: 2011            Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:        1, 14

  Status: Complete                             The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C              Section Name: Intragovernmental Capitalized acquisition amounts                                     Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                   Decimal: Zero
Line Status Line Description           NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd      Line Item Changes
 1              General Services      Debit                           50                         66                         66                          0
                Administration
 2              Department of         Debit                            1
                Defense
 3              Department of the     Debit                           13                          2                          2                          0
                Interior
 4              Department of         Debit
                Justice
 5              National              Debit
                Aeronautics and
                Space
                Administration
 6              All other             Debit                           19                          1                          1                          0
                departments
 7              Total capitalized      N/A                            83                         69                         69                          0
                assets from
                Federal agencies
       Section: D              Section Name: Gain/Loss on Sale/Disposition                                                         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                   Decimal: Zero
Line Status Line Description           NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd      Line Item Changes
 1              Gain/loss on          Credit                         -17                         21                         21                          0
                sale/disposition of
                property, plant and
                equipment




                                                                                                         - 31 -
                                                                                                                                                                                               11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

    Note: 06          Property, Plant, and Equipment                                                                                 Fiscal Year: 2011                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                     Agency Notes:       1, 14

 Status: Complete                        The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line               Question                                                                                       Answer
1                  Provide the physical quantity information by category for multiuse heritage assets that are    Treasury Complex (Main Treasury Building and Annex) and Mint has 4 buildings
                   included in the "Line Item Notes" tab of this note (SFFAS No. 29, par 25).
2                  Provide any other relevant information pertaining to this note and any material changes from   Property, plant, and equipment (PP&E) is composed of capital assets used in providing
                   the prior years' depreciation methods and capitalization thresholds. In addition, describe     goods or services. It also includes assets acquired through capital leases, which are
                   briefly the significant accounting policies pertaining to this note.                           initially recorded at the amount recognized as a liability for the capital lease at its
                                                                                                                  inception. PP&E is stated at full cost, including costs related to acquisition, delivery,
                                                                                                                  and installation, less accumulated depreciation. Major alterations and renovations,
                                                                                                                  including leasehold and land improvements, are capitalized, while maintenance and
                                                                                                                  repair costs are charged to expenses as incurred.
                                                                                                                  Internal use software encompasses software design, development, and testing of
                                                                                                                  projects adding significant new functionality and long-term benefits. Costs for
                                                                                                                  developing internal use software are accumulated in work in development until a project
                                                                                                                  is placed into service, and testing and final acceptance are successfully completed.
                                                                                                                  Once completed, the costs are transferred to depreciable property.
                                                                                                                  Costs for construction projects are recorded as construction-in-progress until
                                                                                                                  completed, and are valued at actual (direct) cost, plus applied overhead and other
                                                                                                                  indirect costs.
                                                                                                                  The Department leases land and buildings from the General Services Administration
                                                                                                                  (GSA) to conduct most of its operations. GSA charges a standard level user fee which
                                                                                                                  approximates commercial rental rates for similar properties. Therefore, GSA-owned
                                                                                                                  properties are not included in the Department¿s PP&E.
                                                                                                                  The Department¿s bureaus are diverse both in size and in operating environment.
                                                                                                                  Accordingly, the Department¿s capitalization policy provides minimum capitalization
                                                                                                                  thresholds which range from $25,000 to $50,000 for all property categories except for
                                                                                                                  internal use software thresholds which range from $125,000 to $250,000. The
                                                                                                                  Department also uses a capitalization threshold range for bulk purchases: $250,000 to
                                                                                                                  $500,000 for non-manufacturing bureaus and $25,000 to $50,000 for manufacturing
                                                                                                                  bureaus. Bureaus determine the individual items that comprise bulk purchases based
                                                                                                                  on Departmental guidance. In addition, the Department¿s bureaus may expense bulk
                                                                                                                  purchases if they conclude that total period costs would not be materially distorted and
                                                                                                                  the cost of capitalization is not economically feasible.
                                                                                                                  Depreciation is expensed on a straight-line basis over the estimated useful life of the
                                                                                                                  asset with the exception of leasehold improvements and capital leases. Leasehold
                                                                                                                  improvements are depreciated over the term of the lease or the useful life of the
                                                                                                                  improvement, whichever is shorter. Capital leases are depreciated over the estimated
                                                                                                                  life of the asset or term of the lease, depending on the conditions met for capitalization.
                                                                                                                  Service life ranges (2 to 50 years) are high due to the Department¿s diversity of PP&E.
                                                                                                                  Land, construction in progress, and internal use software in development are not
                                                                                                                  depreciated.
                                                                                                                  Heritage Assets
                                                                                                                  The Department owns the Treasury Complex (Main Treasury and Treasury Annex) ¿ a
                                                                                                                  multi-use heritage asset. The buildings housing the Mint facilities in Denver, San
                                                                                                                  Francisco, Fort Knox, and West Point, are also considered multi-use heritage assets.
                                                                                                                  Multi-use heritage assets are assets of historical significance for which the
                                                                                                                  predominant use is general government operations. All acquisition, reconstruction, and


                                                                                                         - 32 -
                                                                                                                                                                                        11/15/2011 11:32:59

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                 GF006 - FR Notes Report

   Note: 06         Property, Plant, and Equipment                                                                               Fiscal Year: 2011                Period: SEPTEMBER
  Entity: 2000      Department of the Treasury                                                                                   Agency Notes:      1, 14

 Status: Complete                     The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Text Data
Line             Question                                                                                      Answer
                                                                                                               betterment costs for the Treasury buildings are capitalized as general PP&E and
                                                                                                               depreciated over their service life.




                                                                                                - 33 -
                                                                                                                                                                                      11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                  Fiscal Year: 2011               Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                  Agency Notes:        1 and 10

  Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                                  Type
Debt and Equity Securities                                                 D        A                    15,798                  15,487
                                                                               Variance:                      0                       0           Rounding Method: Millions       Decimal: Zero
Line Status Line Description              2011 - SEPTEMBER           2010 - SEPTEMBER               Previously Rptd           Line Item Changes
 1              Fixed/Debt Securities                      15,777                      15,465                      12,617                         2,848
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Non-U.S.
                Government Securities
 2              Fixed/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Commercial
                Securities
 3              Fixed/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Mortgage/asset
                backed Securities
 4              Fixed/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9):Corporate and other
                bonds
 5              All other Fixed                                  4                          3                             3                            0
                Income/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9) All:Other fixed/debt
                securities
 6              Equity Securities                              14                          16                            16                            0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Common Stocks
 7              Equity Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Unit Trusts
 8              Equity Securities                                3                          3                             3                            0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): All Other Equity



                                                                                                      - 34 -
                                                                                                                                                                                             11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                 Fiscal Year: 2011                 Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                 Agency Notes:       1 and 10

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


Line Status Line Description             2011 - SEPTEMBER            2010 - SEPTEMBER               Previously Rptd          Line Item Changes
             Securities
 9           Other
             Total                                          15,798                     15,487                      12,639                        2,848
Threshold

 Line Description                                               Question                                                          Answer
 Line Item Notes - All other Fixed Income/Debt Securities       Please provide explanations for any amounts that have             The variance is not material to the Department's financial statements.
 (FASB ASC 320-10-50-1 and 320-10-50-9) All:Other               changed by 10% or more and or greater than 500,000 between
 fixed/debt securities (2011 - SEPTEMBER)                       the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Equity Securities (FASB ASC 320-10-50-       Please provide explanations for any amounts that have             The variance is not material to the Department's financial statements.
 1 and 320-10-50-9): Common Stocks (2011 -                      changed by 10% or more and or greater than 500,000 between
 SEPTEMBER)                                                     the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                      - 35 -
                                                                                                                                                                                        11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                  Fiscal Year: 2011                Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                  Agency Notes:         1 and 10

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Investment Category - Held-to-Maturity Securities                                   Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                       Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D              CY Unamortized           CY Net Investment       PY Basis (Costs) D                PY Unamortized     PY Net Investment
                                                                             Premium/Discount D                                                                 Premium/Discount D
 1              Fixed/Debt              N/A
                Securities: Non-
                U.S. Government
                securities
 2              Fixed/Debt              N/A
                Securities: Non-
                U.S. Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A                           6                           -2                        4                           5                      -2                          3
                Securities: All other
                fixed income/debt
                securiteis
 6              Equity Securities:      N/A                          19                           -5                       14                          21                      -5                       16
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A                           6                           -3                        3                           6                      -3                          3
                All Other equity
                securities
 9              Other                   N/A
10              Total Held-to-          N/A                          31                        -10                         21                          32                     -10                       22
                Maturity Securities




                                                                                                        - 36 -
                                                                                                                                                                                         11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                  Fiscal Year: 2011               Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                  Agency Notes:       1 and 10

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: B               Section Name: Investment Category - Available-for-Sale Securities                                 Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                        Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value       PY Basis (Costs) D        PY Unrealized Gain/Loss       PY Market Value
                                                                                               D                                                                                 D
 1              Fixed/Debt              N/A                      15,499                        278                     15,777                    14,973                       492                    15,465
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                secruties
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All other equity
                securities
 9              Other                   N/A
10              Total Available-        N/A                      15,499                        278                     15,777                    14,973                       492                    15,465
                for-Sale Securities




                                                                                                        - 37 -
                                                                                                                                                                                     11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                Agency Notes:    1 and 10

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C               Section Name: Investment Category - Trading Securities                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value     PY Basis (Costs) D      PY Unrealized Gain/Loss       PY Market Value
                                                                                               D                                                                             D
 1              Fixed/Debt              N/A
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                securities
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All other equity
                securities
 9              Other                   N/A
10              Total Trading           N/A
                Securities




                                                                                                        - 38 -
                                                                                                                                                                                     11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                    Fiscal Year: 2011           Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                    Agency Notes:    1 and 10

  Status: Complete                             The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: D              Section Name: Other Information                                                                      Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                  Decimal: Zero
Line Status Line Description           NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd         Line Item Change
 1              Proceeds from         Debit
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 2              Gross realized        Debit
                gains (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 3              Gross realized        Credit
                losses (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 4              Gross gains           Debit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 5              Gross losses          Credit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 6              Net unrealized        Debit                          278                        324                         324
                holding gain on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income



                                                                                                         - 39 -
                                                                                                                                                                                    11/15/2011 11:32:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                   Fiscal Year: 2011           Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                  Agency Notes:    1 and 10

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D               Section Name: Other Information                                                                    Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                  Decimal: Zero
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd      Line Item Change
 7              Net unrealized          Credit
                holding loss on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income
 8              Amount of               Debit
                gains/losses
                reclassified out of
                accumulated other
                comprehensive
                income into
                earnings for the
                period
 9              Portion of trading      Debit
                gains/losses that
                relates to trading
                securities still held
                at the reporting
                date
10              Net carrying            Debit
                amount of
                sold/transferred
                held-to-maturity
                securities (FASB
                ASC 320-10-50-
                10)
11              Net gain/loss in        Debit
                accum. other
                comp. income for
                any derivative that
                hedged the
                forecasted
                acquisition of HTM
                security




                                                                                                           - 40 -
                                                                                                                                                                                                11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 07          Debt and Equity Securities                                                                                       Fiscal Year: 2011                  Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                      Agency Notes:       1 and 10

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Provide a description of the amounts reported on the "Line Item Notes" tab for lines 5, 8 and     CDF - Line 5 Represents $.3M in convertible subordinated debt securities and $4M in
                   9.                                                                                                secondary capital investments in federal credit unions. Line 8 represents $3M of other
                                                                                                                     equity securities with limited partnership interests.

2                  Provide a description of the amounts reported on the "Other Notes Infor" tab for lines 5, 8       CDF- Line 5 represents $2M in convertible subordinated debt securities (and the
                   and 9 in Sections A through C.                                                                    related $1.6 discount on imputed interest) and $4M in secondary capital investments in
                                                                                                                     federal credit unions. Line 8 represents $6M of other equity securities with limited
                                                                                                                     partnership interests. All of CDFI securities are "Held to Maturity."

3                  Provide the basis on which the cost of a security sold or the amount reclassified out of          N/A
                   accumulated other comprehensive income into earnings was determined (FASB ASC 320-
                   10-50-9).
4                  Provide the circumstances leading to the decision to sell or transfer the security for held-to-   N/A
                   maturity securities (FASB ASC 320-10-50-10).
5                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly    ESF holds most of the Department's foreign currency investments. "Other Foreign
                   the significant accounting policies pertaining to this note.                                      Currency Denominated Assets" and "Investment Securities" are considered "available-
                                                                                                                     for-sale" securities and recorded at fair value. These holdings are normally invested in
                                                                                                                     interest-bearing securities issued or held through foreign governments or monetary
                                                                                                                     authorities.




                                                                                                           - 41 -
                                                                                                                                                                                                         11/15/2011 11:32:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 08           Other Assets                                                                                                           Fiscal Year: 2011                   Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                             Agency Notes:        Note 1 and 9

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                      I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account      2011 - SEPTEMBER          2010 - SEPTEMBER
                                                                                       Type
Other Assets                                                                   D         A                          5,715                 5,593
                                                                                    Variance:                           0                     0           Rounding Method: Millions                Decimal: Zero
Line Status Line Description             2011 - SEPTEMBER               2010 - SEPTEMBER                   Previously Rptd           Line Item Changes
 1             Advances and                                        6                              8                             8                               0
               prepayments
 4             Regulatory Assets
 5             Other assets                                    5,709                          5,585                         5,585                               0
               Total                                           5,715                          5,593                         5,593                               0
Threshold

 Line Description                                                  Question                                                                 Answer
 Line Item Notes - Advances and prepayments (2010 -                Please provide explanations for any amounts that have                    This amount is not significant to the Department
 SEPTEMBER)                                                        changed by 10% or more and or greater than 500,000 between
                                                                   the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Advances and prepayments (2011 -                Please provide explanations for any amounts that have                    Most of this balance relates to the Internal Revenue Service (IRS) and
 SEPTEMBER)                                                        changed by 10% or more and or greater than 500,000 between               fluctuation of this amount is not significant
                                                                   the current fiscal year and prior fiscal year. (Unaudited)
Tab: Text Data
 Line                Question                                                                                                Answer
 1                   Provide a description of advances and prepayments on the "Line Item Notes" tab for line 1.              Advances to the public consist of cash outlays for criminal investigations (IRS) and
                                                                                                                             employee travel.


 2                   Provide a description and related amounts for balances that exceed $1 billion in the line titled        $5.707 billion relates to Treasury participation in Multilateral Development Banks
                     "Other Assets" on the "Line Item Notes" tab.                                                            (MDB). See AFR Note 9.


 3                   Provide any relevant information pertaining to this note. At a minimum, describe briefly the            The Department, on behalf of the United States, invests in Multilateral Development
                     significant accounting policies pertaining to this note.                                                Banks (MDBs) to support poverty reduction, private sector development, transitions to
                                                                                                                             market economies and sustainable economic growth and development, thereby
                                                                                                                             advancing the United States¿ economic, political, and commercial interests abroad. As
                                                                                                                             a participating member country, the Department, on behalf of the United States,
                                                                                                                             provides a portion of the capital base of the MDBs, through subscriptions to capital,
                                                                                                                             which allows the MDBs to issue loans at market-based rates to middle income
                                                                                                                             developing countries. These paid-in capital investments are considered non-
                                                                                                                             marketable equity investments valued at cost on the Department¿s Consolidated
                                                                                                                             Balance Sheets.




                                                                                                              - 42 -
                                                                                                                                                                                      11/15/2011 11:32:59

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 09          Accounts Payable                                                                                            Fiscal Year: 2011               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                  Agency Notes:        Note 19

  Status: Complete                        The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                                Type
Accounts Payable                                                         C        L                     4,787                  5,359
                                                                             Variance:                      0                      0           Rounding Method: Millions         Decimal: Zero
Line Status Line Description         2011 - SEPTEMBER             2010 - SEPTEMBER                Previously Rptd          Line Item Changes
 1          Accounts Payable                              4,787                       5,359                       5,359                             0
            Total                                         4,787                       5,359                       5,359                             0
Threshold

 Line Description                                             Question                                                          Answer
 Line Item Notes - Accounts Payable (2011 - SEPTEMBER)        Please provide explanations for any amounts that have             Tax refunds decrease due to the economy. Accounts payables spread
                                                              changed by 10% or more and or greater than 500,000 between        across and immaterial to the Department's financial statements.
                                                              the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                    - 43 -
                                                                                                                                                                                                    11/15/2011 11:32:59

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 09            Accounts Payable                                                                                                   Fiscal Year: 2011                Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                         Agency Notes:      Note 19

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                   I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Interest                                                      No Data Flag: YES            Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                            Decimal: Zero
Line Status Line Description          NB        2011 - SEPTEMBER             2010 - SEPTEMBER C                 Previously Rptd C     Line Item Changes D
                                                               C
 1              Interest accrued      N/A
                and owed to others




Tab: Text Data
 Line                Question                                                                                             Answer
 1                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly       Refunds payable arise in the normal course of tax administration when it is determined
                     the significant accounting policies pertaining to this note.                                         that taxpayers have paid more than the actual taxes that they owe. Amounts that the
                                                                                                                          Department has concluded to be valid refunds owed to taxpayers are recorded as a
                                                                                                                          liability entitled ¿Refunds Payable¿ on the Consolidated Balance Sheets, with a
                                                                                                                          corresponding receivable from the General Fund. This receivable is included on the
                                                                                                                          Consolidated Balance Sheets within the line entitled ¿Due from the General Fund.¿




                                                                                                             - 44 -
                                                                                                                                                                                                  11/15/2011 11:32:59

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

      Note: 10A         Federal Debt Securities Held by the Public                                                                       Fiscal Year: 2011                 Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                       Agency Notes:        16

  Status: Complete                           The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                              NB    Account    2011 - SEPTEMBER         2010 - SEPTEMBER
                                                                                      Type
Federal Debt Securities Held by the Public                                    C         L               10,148,963               9,035,929
                                                                                   Variance:                     0                       0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description            2011 - SEPTEMBER                 2010 - SEPTEMBER              Previously Rptd           Line Item Changes
 1            Marketable Securities                         1,475,557                  1,783,674                     1,783,674                            0
             - Treasury bills
 2            Marketable Securities                         6,406,983                  5,252,585                     5,252,585                            0
             - Treasury notes
 3            Marketable Securities                         1,016,407                    846,054                      846,054                             0
             - Treasury bonds
 4            Marketable Securities                           705,352                    593,615                      593,615                             0
             - Treasury inflation
             protected securities
 5            Non-marketable                                  522,732                    546,880                      546,880                             0
             securities
 6            Unamortized premium                              20,423                     13,998                       13,998                             0
             on Treasury securities
 7            Unamortized discount                            -49,961                    -47,868                      -47,868                             0
             on Treasury securities
 8           Accrued interest                                  51,470                     46,991                       46,991                             0
             payable on debt
             issued by Treasury
  9          Securities at par
 10           Unamortized premium
             on securities
 11           Unamortized discount
             on securities
 12           Accrued interest
             payable on agency
             securities
             Total                                          10,148,963                 9,035,929                     9,035,929                            0
Threshold

 Line Description                                                  Question                                                            Answer
 Line Item Notes - Marketable Securities - Treasury bills          Please provide explanations for any amounts that have              1. Treasury primarily used the existing suite of securities to meet the
 (2011 - SEPTEMBER)                                                changed by 10% or more and or greater than 500,000 between         borrowing needs of the Federal Government while increasing its offerings of
                                                                   the current fiscal year and prior fiscal year. (Unaudited)         longer term securities to extend the average length of maturity. As a result,
                                                                                                                                      Treasury bills decreased by $308 billion.




                                                                                                         - 45 -
                                                                                                                                                                                       11/15/2011 11:32:59

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

   Note: 10A          Federal Debt Securities Held by the Public                                                              Fiscal Year: 2011                 Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                              Agency Notes:      16

 Status: Complete                        The accompanying notes are an integral part of these financial statements.        I = Inactive Line



Threshold

Line Description                                              Question                                                      Answer
Line Item Notes - Marketable Securities - Treasury notes      Please provide explanations for any amounts that have        2. Treasury primarily used the existing suite of securities to meet the
(2011 - SEPTEMBER)                                            changed by 10% or more and or greater than 500,000 between   borrowing needs of the Federal Government while increasing its offerings of
                                                              the current fiscal year and prior fiscal year. (Unaudited)   longer term securities to extend the average length of maturity. As a result,
                                                                                                                           Treasury notes increased by $1,154 billion.
Line Item Notes - Marketable Securities - Treasury bonds      Please provide explanations for any amounts that have        3. Treasury primarily used the existing suite of securities to meet the
(2011 - SEPTEMBER)                                            changed by 10% or more and or greater than 500,000 between   borrowing needs of the Federal Government while increasing its offerings of
                                                              the current fiscal year and prior fiscal year. (Unaudited)   longer term securities to extend the average length of maturity. As a result,
                                                                                                                           Treasury bonds increased by $170 billion.




                                                                                                    - 46 -
                                                                                                                                                                                     11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 10A           Federal Debt Securities Held by the Public                                                                       Fiscal Year: 2011         Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                       Agency Notes:        16

  Status: Complete                             The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Federal Debt Held By the Public: Other Related                                           Line Attributes: Dollars
                                             Information                                                                            Rounding Method: Millions                Decimal: Zero
Line Status Line Description           NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd         Line Item Changes
 1             Debt subject to        Credit                  14,746,553                 13,510,840                 13,510,840                             0
               statutory limit
 2             Statutory debt limit   Credit                  15,194,000                 14,294,000                 14,294,000                             0
 3             Loss or gain for       Credit
               difference between
               the reacquisition
               price and the net
               carrying value of
               the extinguished
               debt
       Section: B              Section Name: Federal Debt Held By The Public: Average Interest                                        Line Attributes: Percent
                                             Rate
Line Status Line Description           NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd         Line Item Changes
 1             Marketable              N/A                         .1000                      .2000                         .2000                     .0000
               securities -
               Treasury bills
 2             Marketable              N/A                        2.3000                     2.6000                     2.6000                        .0000
               securities - Tresury
               notes
 3             Marketable              N/A                        5.8000                     6.1000                     6.1000                        .0000
               securities -
               Treasury bonds
 4             Marketable              N/A                        1.9000                     2.2000                     2.2000                        .0000
               securities -
               Treasury inflation
               protected securities
 5             Non-marketable          N/A                        2.8000                     2.8000                     2.8000                        .0000
               securities




                                                                                                         - 47 -
                                                                                                                                                                                                    11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 10A         Federal Debt Securities Held by the Public                                                                        Fiscal Year: 2011                   Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                       Agency Notes:       16

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Pursuant to Federal law, are old currencies issued by the Federal Government and not yet          BPD does not write off debt. The Matured Unredeemed (old) debt is recorded at par
                   redeemed or written off                                                                           value and is also fully amortized; therefore, yes, it is recorded at face value in the debt
                   identified as a Federal debt liabitlity at face value?                                            liability.
2                  Provide the losses or gains for the difference between the reacquistion price and the net         Currently, Marketable Treasury securities and most non-marketable Treasury
                   carrying value of the extinguished                                                                securities are not early redeemable; therefore, there are no gains or losses to record.
                   debt recognized currently in the period of the extinguishment for those securities that are       These securities are redeemed at par value.
                   retired before the maturity date
                   because of a call feature of the security, or because they are eligible for redemption by the     The only Treasury securities that are early redeemable are Government Account Series
                   holder on demand.                                                                                 securities (GAS), which are non-marketable. However, the intent of the GAS program
                                                                                                                     is to hold to maturity, and because of this intent and the information found in SFFAS 1
                                                                                                                     and 5, BPD records these securities at amortized cost not the market value. Gains and
                                                                                                                     losses are not broken out and reported separately because they are not material;
                                                                                                                     therefore they are captured in interest expense.
3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly    Debt and associated interest are reported on the accrual basis of accounting. Interest
                   the significant accounting policies pertaining to this note.                                      costs are recorded as expenses when incurred, instead of when paid. Certain Treasury
                                                                                                                     securities are issued at a discount or premium. These discounts and premiums are
                                                                                                                     amortized over the term of the security using an interest method for all long-term
                                                                                                                     securities and the straight-line method for short-term securities. The Department also
                                                                                                                     issues Treasury Inflation-Protected Securities (TIPS). The principal for TIPS is
                                                                                                                     adjusted daily over the life of the security based on the Consumer Price Index for all
                                                                                                                     Urban Consumers.




                                                                                                            - 48 -
                                                                                                                                                                                           11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                              Fiscal Year: 2011                  Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                  Agency Notes:          27 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Investments in Federal Debt securities                                              Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                            Decimal: Zero
Line Status Line Description         NB        CY Par value of the                 CY Unamortized CY Unamortized premium        CY Net Investment                PY Par Value of the PY Unamortized discount
                                                   investment D                       Discount C                       D                                             investment D                         C
19             Department of         N/A                       22,721                                                                          22,721                       20,436
               Treasury,
               Exchange
               Stabilization Fund
23             Hope Bond             N/A                           493                                                                               493                         493
24                                   N/A
25                                   N/A
26             All other programs    N/A                         7,340                          111                     240                     7,469                        7,332                          1
               and funds
27             Total                 N/A                       30,554                          -111                     240                    30,683                       28,261                         -1

Line Status Line Description         NB            PY Unamortized             PY Net Investment
                                                      premium D
19             Department of         N/A                                                     20,436
               Treasury,
               Exchange
               Stabilization Fund
23             Hope Bond             N/A                                                        493
24                                   N/A
25                                   N/A
26             All other programs    N/A                           176                        7,507
               and funds
27             Total                 N/A                           176                       28,436
       Section: B             Section Name: Fiduciary Funds - Tresury Securities Held by Deposit                                Line Attributes: Dollars
                                            Funds (or Held by Non-Federal Custodians) with                                    Rounding Method: Millions                            Decimal: Zero
                                            Fiduciary Activity
Line Status Line Description         NB        CY Par value of the       CY Unamortized discount CY Unamortized premium         CY Net Investment                PY Par value of the PY Unamortized discount
                                                   investment D                               C                       D                                              investment D                         C
 1             Fiduciary             N/A                            75                            0                       2                           77                          97                        1
               Investments
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A



                                                                                                         - 49 -
                                                                                                                                                                                      11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                            Fiscal Year: 2011                 Period: SEPTEMBER
     Entity: 2000      Department of the Treasury                                                                                Agency Notes:         27 and BPD Schedule

  Status: Complete                        The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: B            Section Name: Fiduciary Funds - Tresury Securities Held by Deposit                              Line Attributes: Dollars
                                           Funds (or Held by Non-Federal Custodians) with                                  Rounding Method: Millions                          Decimal: Zero
                                           Fiduciary Activity
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium       CY Net Investment               PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                           investment D                         C
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
16             Total                N/A                            75                            0                     2                          77                         97                       -1

Line Status Line Description        NB            PY Unamortized             PY Net Investment
                                                     premium D
 1             Fiduciary            N/A                                                         96
               Investments
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
16             Total                N/A                                                         96




                                                                                                        - 50 -
                                                                                                                                                                                  11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2011            Period: SEPTEMBER
     Entity: 2000      Department of the Treasury                                                                                 Agency Notes:    27 and BPD Schedule

  Status: Complete                        The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C           Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES     Line Attributes: Dollars
                                          Other Agency Funds with Fiduciary Activity                                        Rounding Method: Millions                    Decimal: Zero
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment          PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                       investment D                         C
 1                                 N/A
 2                                 N/A
 3                                 N/A
 4                                 N/A
 5                                 N/A
 6                                 N/A
 7                                 N/A
 8                                 N/A
 9                                 N/A
10                                 N/A
11                                 N/A
12                                 N/A
13                                 N/A
14                                 N/A
15                                 N/A
16             Total               N/A




                                                                                                          - 51 -
                                                                                                                                                                                   11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2011            Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                 Agency Notes:    27 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C            Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES     Line Attributes: Dollars
                                           Other Agency Funds with Fiduciary Activity                                        Rounding Method: Millions                    Decimal: Zero
Line Status Line Description         NB            PY Unamortized             PY Net Investment
                                                      premium C
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A
 8                                   N/A
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
13                                   N/A
14                                   N/A
15                                   N/A
16             Total                 N/A
       Section: D            Section Name: Tresury Secrities Held be Governmnet Trust Funds,             No Data Flag: YES     Line Attributes: Dollars
                                           Revolving Funds, and Special Funds (to be                                         Rounding Method: User-Defined                Decimal: User-Defined
                                           completed only by Treasury)
Line Status Line Description         NB        CY Par value of the                 CY Unamortized CY Unamortized premium     CY Net Investment D          PY Par Value of the PY Unamortized Discount
                                                   investment D                       Discount C                       D                                      investment D                         C
 1        I    Social Security       N/A
               Administration,
               Federal Old-Age
               and Survivors
               Insurance
 2        I    Office of Personnel   N/A
               Management, Civil
               Service Retirement
               and Disability
 3        I    Office of Personnel   N/A
               Management,
               Employees¿ Health
               Benefits
 4        I    Department of         N/A


                                                                                                           - 52 -
                                                                                                                                                                                  11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                            Fiscal Year: 2011            Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                Agency Notes:    27 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: D            Section Name: Tresury Secrities Held be Governmnet Trust Funds,             No Data Flag: YES     Line Attributes: Dollars
                                           Revolving Funds, and Special Funds (to be                                         Rounding Method: User-Defined               Decimal: User-Defined
                                           completed only by Treasury)
Line Status Line Description         NB        CY Par value of the                 CY Unamortized CY Unamortized premium     CY Net Investment D         PY Par Value of the PY Unamortized Discount
                                                   investment D                       Discount C                       D                                     investment D                         C
               Health and Human
               Services, Federal
               Hospital Insurance
 5        I    Department of         N/A
               Defense, Military
               Retirement Fund
 6        I    Department of         N/A
               Defense,
               Medicare-Eligible
               Retiree Health
               Care Fund
 7        I    Social Security       N/A
               Administration,
               Federal Disability
               Insurance
 8        I    Department of         N/A
               Labor,
               Unemployment
 9        I    Federal Deposit       N/A
               Insurance
               Corporation Funds
10        I    Office of Personnel   N/A
               Management,
               Employees¿ Life
               Insurance
11        I    Department of         N/A
               Energy, Nuclear
               Waste Disposal
12        I    Department of         N/A
               Health and Human
               Services, Federal
               Supplementary
               Medical Insurance
13        I    Housing and Urban     N/A
               Development,
               Federal Housing
               Administration
14        I    Department of         N/A
               Veterans Affairs,


                                                                                                           - 53 -
                                                                                                                                                                                11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 10B        Treasury securities held by the Government trust, revolving, and special funds                            Fiscal Year: 2011            Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                                Agency Notes:    27 and BPD Schedule

  Status: Complete                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line


      Section: D           Section Name: Tresury Secrities Held be Governmnet Trust Funds,             No Data Flag: YES     Line Attributes: Dollars
                                         Revolving Funds, and Special Funds (to be                                         Rounding Method: User-Defined               Decimal: User-Defined
                                         completed only by Treasury)
Line Status Line Description       NB        CY Par value of the                 CY Unamortized CY Unamortized premium     CY Net Investment D         PY Par Value of the PY Unamortized Discount
                                                 investment D                       Discount C                       D                                     investment D                         C
             National Service
             Life Insurance
             Fund
15      I    Department of         N/A
             Transportation,
             Highway Trust
             Fund
16      I    Department of         N/A
             Transportation,
             Airport and Airway
             Trust Fund
17      I    Pension Benefit       N/A
             Guaranty
             Corporation Fund
18      I    Department of         N/A
             State, Foreign
             Services
             Retirement and
             Disability Fund
19      I    Department of the     N/A
             Treasury,
             Exchange
             Stabilization Fund
20      I    Railroad              N/A
             Retirement Board
21      I    Office of Personnel   N/A
             Management,
             Postal Service
             Retiree Health
             Benefits Fund
22      I    Housing and Urban     N/A
             Development,
             Ginnie Mae
23      I                          N/A
24      I                          N/A
25      I    All other programs    N/A
             and funds
26      I    Total                 N/A



                                                                                                         - 54 -
                                                                                                                                                                                  11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                            Fiscal Year: 2011            Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                Agency Notes:    27 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: D         Section Name: Tresury Secrities Held be Governmnet Trust Funds,                No Data Flag: YES     Line Attributes: Dollars
                                        Revolving Funds, and Special Funds (to be                                            Rounding Method: User-Defined               Decimal: User-Defined
                                        completed only by Treasury)
Line Status Line Description     NB         PY Unamortized           PY Net Investment D
                                                premium D
 1        I    Social Security       N/A
               Administration,
               Federal Old-Age
               and Survivors
               Insurance
 2        I    Office of Personnel   N/A
               Management, Civil
               Service Retirement
               and Disability
 3        I    Office of Personnel   N/A
               Management,
               Employees¿ Health
               Benefits
 4        I    Department of         N/A
               Health and Human
               Services, Federal
               Hospital Insurance
 5        I    Department of         N/A
               Defense, Military
               Retirement Fund
 6        I    Department of         N/A
               Defense,
               Medicare-Eligible
               Retiree Health
               Care Fund
 7        I    Social Security       N/A
               Administration,
               Federal Disability
               Insurance
 8        I    Department of         N/A
               Labor,
               Unemployment
 9        I    Federal Deposit       N/A
               Insurance
               Corporation Funds
10        I    Office of Personnel   N/A
               Management,
               Employees¿ Life
               Insurance



                                                                                                           - 55 -
                                                                                                                                                                               11/15/2011 11:32:59

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 10B       Treasury securities held by the Government trust, revolving, and special funds                            Fiscal Year: 2011            Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                               Agency Notes:    27 and BPD Schedule

  Status: Complete                      The accompanying notes are an integral part of these financial statements.          I = Inactive Line


      Section: D          Section Name: Tresury Secrities Held be Governmnet Trust Funds,             No Data Flag: YES     Line Attributes: Dollars
                                        Revolving Funds, and Special Funds (to be                                         Rounding Method: User-Defined               Decimal: User-Defined
                                        completed only by Treasury)
Line Status Line Description     NB         PY Unamortized           PY Net Investment D
                                                premium D
11      I    Department of        N/A
             Energy, Nuclear
             Waste Disposal
12      I    Department of        N/A
             Health and Human
             Services, Federal
             Supplementary
             Medical Insurance
13      I    Housing and Urban    N/A
             Development,
             Federal Housing
             Administration
14      I    Department of        N/A
             Veterans Affairs,
             National Service
             Life Insurance
             Fund
15      I    Department of        N/A
             Transportation,
             Highway Trust
             Fund
16      I    Department of        N/A
             Transportation,
             Airport and Airway
             Trust Fund
17      I    Pension Benefit      N/A
             Guaranty
             Corporation Fund
18      I    Department of        N/A
             State, Foreign
             Services
             Retirement and
             Disability Fund
19      I    Department of the    N/A
             Treasury,
             Exchange
             Stabilization Fund
20      I    Railroad             N/A
             Retirement Board



                                                                                                        - 56 -
                                                                                                                                                                                            11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                                  Fiscal Year: 2011                Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                      Agency Notes:        27 and BPD Schedule

  Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: D         Section Name: Tresury Secrities Held be Governmnet Trust Funds,                No Data Flag: YES          Line Attributes: Dollars
                                        Revolving Funds, and Special Funds (to be                                                 Rounding Method: User-Defined                    Decimal: User-Defined
                                        completed only by Treasury)
Line Status Line Description     NB         PY Unamortized           PY Net Investment D
                                                premium D
21        I    Office of Personnel   N/A
               Management,
               Postal Service
               Retiree Health
               Benefits Fund
22        I    Housing and Urban     N/A
               Development,
               Ginnie Mae
23        I                          N/A
24        I                          N/A
25        I    All other programs    N/A
               and funds
26        I    Total                 N/A
       Section: E            Section Name: Programs and Funds (to be completed only by                                              Line Attributes: Dollars
                                           Treasury)                                                                              Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB       2011 - SEPTEMBER              2010 - SEPTEMBER                  Previously Rptd     Line Item Changes
 1             Social Security       Debit                   2,492,531                    2,399,111                   2,399,111                          0
               Administration,
               Federal Old-Age
               and Survivors
               Insurance
 2             Office of Personnel   Debit                     795,371                      770,126                     770,126                          0
               Management, Civil
               Service Retirement
               and Disability
 3             Office of Personnel   Debit                      19,191                       16,242                      16,242                          0
               Management,
               Employees¿ Health
               Benefits
 4             Department of         Debit                     245,939                      279,475                     279,475                          0
               Health and Human
               Services, Federal
               Hospital Insurance
 5             Department of         Debit                     326,040                      282,006                     282,006                          0
               Defense, Military
               Retirement Fund
 6             Department of         Debit                     161,741                      142,289                     142,289                          0


                                                                                                           - 57 -
                                                                                                                                                                                        11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                               Fiscal Year: 2011                Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                   Agency Notes:        27 and BPD Schedule

  Status: Complete                           The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: E            Section Name: Programs and Funds (to be completed only by                                           Line Attributes: Dollars
                                           Treasury)                                                                           Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB       2011 - SEPTEMBER              2010 - SEPTEMBER                Previously Rptd    Line Item Changes
               Defense,
               Medicare-Eligible
               Retiree Health
               Care Fund
 7             Social Security       Debit                     161,965                      187,222                  187,222                          0
               Administration,
               Federal Disability
               Insurance
 8             Department of         Debit                      16,030                       18,703                   18,703                          0
               Labor,
               Unemployment
 9             Federal Deposit       Debit                      34,926                       37,441                   37,441                          0
               Insurance
               Corporation Funds
10             Office of Personnel   Debit                      39,678                       37,605                   37,605                          0
               Management,
               Employees¿ Life
               Insurance
11             Department of         Debit                      48,611                       47,578                   47,578                          0
               Energy, Nuclear
               Waste Disposal
12             Department of         Debit                      70,446                       70,982                   70,982                          0
               Health and Human
               Services, Federal
               Supplementary
13             Housing and Urban     Debit
               Development,
               Federal Housing
               Administration
14             Department of         Debit
               Veterans Affairs,
               National Service
               Life Insurance
               Fund
15             Department of         Debit                      16,302                       24,455                   24,455                          0
               Transportation,
               Highway Trust
               Fund
16             Department of         Debit
               Transportation,



                                                                                                         - 58 -
                                                                                                                                                                                           11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 10B        Treasury securities held by the Government trust, revolving, and special funds                                  Fiscal Year: 2011                  Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                                      Agency Notes:          27 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.              I = Inactive Line


      Section: E           Section Name: Programs and Funds (to be completed only by                                              Line Attributes: Dollars
                                         Treasury)                                                                              Rounding Method: Millions                          Decimal: Zero
Line Status Line Description        NB       2011 - SEPTEMBER              2010 - SEPTEMBER                Previously Rptd       Line Item Changes
             Airport and Airway
             Trust Fund
17           Pension Benefit       Debit                      20,974                       19,888                   19,888                               0
             Guaranty
             Corporation Fund
18           Department of         Debit                      16,397                       15,862                   15,862                               0
             State, Foreign
             Services
             Retirement and
             Disability Fund
19           Department of the     Debit                      22,721                       20,436                   20,436                               0
             Treasury,
             Exchange
             Stabilization Fund
20           Railroad              Debit
             Retirement Board
21           Office of Personnel   Debit                      43,708                       42,115                   42,115                               0
             Management,
             Postal Service
             Retiree Health
22           Housing and Urban     Debit                                                                                4,194                    -4,194
             Development,
             Ginnie Mae
23           Federal Financing     Debit                         493                          493                                                      493
             Bank - Hope Bond
24           National Credit       Debit                      10,733                        9,279                                                 9,279
             Union Share
             Insurance Fund
25                                 Debit
26           All other programs    Debit                     110,577                      106,775                  112,353                       -5,578
             and funds
27           Subtotal              N/A                     4,654,374                    4,528,083                 4,528,083                              0
             Intragovernmental
             Debt Holdings
28           Total Net             Debit                      47,624                       38,404                   38,404                               0
             Unamortized
             Premiums/Discount
             s for
             Intragovernmental



                                                                                                       - 59 -
                                                                                                                                                                                                11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                                 Fiscal Year: 2011                 Period: SEPTEMBER
  Entity: 2000          Department of the Treasury                                                                                     Agency Notes:        27 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line


      Section: E             Section Name: Programs and Funds (to be completed only by                                             Line Attributes: Dollars
                                           Treasury)                                                                             Rounding Method: Millions                           Decimal: Zero
Line Status Line Description         NB       2011 - SEPTEMBER               2010 - SEPTEMBER                Previously Rptd      Line Item Changes
29            Total                  N/A                      4,701,998                   4,566,487                  4,566,487                          0
              Intragovernmental
              Debt Holdings
Threshold
 Line Description                                                Question                                                           Answer
 Other Notes Info - Office of Personnel Management,              Please provide explanations for any amounts that have              Direct further variance analysis back to the agency referenced in the line
 Employees¿ Health Benefits (2011 - SEPTEMBER)                   changed by 10% or more and or greater than $500,000                description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Health and Human               Please provide explanations for any amounts that have              Direct further variance analysis back to the agency referenced in the line
 Services, Federal Hospital Insurance (2011 - SEPTEMBER)         changed by 10% or more and or greater than $500,000                description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Defense, Military              Please provide explanations for any amounts that have              Direct further variance analysis back to the agency referenced in the line
 Retirement Fund (2011 - SEPTEMBER)                              changed by 10% or more and or greater than $500,000                description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Defense, Medicare-Eligible     Please provide explanations for any amounts that have              Direct further variance analysis back to the agency referenced in the line
 Retiree Health Care Fund (2011 - SEPTEMBER)                     changed by 10% or more and or greater than $500,000                description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Social Security Administration, Federal      Please provide explanations for any amounts that have              Direct further variance analysis back to the agency referenced in the line
 Disability Insurance (2011 - SEPTEMBER)                         changed by 10% or more and or greater than $500,000                description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Labor, Unemployment            Please provide explanations for any amounts that have              Direct further variance analysis back to the agency referenced in the line
 (2011 - SEPTEMBER)                                              changed by 10% or more and or greater than $500,000                description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Transportation, Highway        Please provide explanations for any amounts that have              Direct further variance analysis back to the agency referenced in the line
 Trust Fund (2011 - SEPTEMBER)                                   changed by 10% or more and or greater than $500,000                description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Total Net Unamortized                        Please provide explanations for any amounts that have              Variance is spread throughout variance agency activity. Direct further
 Premiums/Discounts for Intragovernmental (2011 -                changed by 10% or more and or greater than $500,000                variance analysis back to the agency referenced in the line descriptions
 SEPTEMBER)                                                      between the current fiscal year and prior fiscal year              above.
                                                                 (unaudited).




                                                                                                         - 60 -
                                                                                                                                                                                        11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 10B        Treasury securities held by the Government trust, revolving, and special funds                                  Fiscal Year: 2011              Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                     Agency Notes:     27 and BPD Schedule

 Status: Complete                       The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line             Question                                                                                         Answer
1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly   For further information please see GAO report GAO-12-164 Schedules of Federal
                 the significant accounting policies pertaining to this note.                                     Debt.

                                                                                                                  No significant accounting policy.




                                                                                                         - 61 -
                                                                                                                                                                                           11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 11            Federal Employee and Veteran Benefits Payable                                                                  Fiscal Year: 2011                 Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                     Agency Notes:        Notes 1 and 19

  Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2011 - SEPTEMBER          2010 - SEPTEMBER
                                                                                   Type
Federal Employee and Veteran Benefits Payable                               C        L                           641                 601
                                                                                Variance:                          0                   0            Rounding Method: Millions          Decimal: Zero
Line Status Line Description              2011 - SEPTEMBER            2010 - SEPTEMBER                Previously Rptd           Line Item Changes
 1            Pension and accrued
              benefits
 2            Post-retirement health
              and accrued benefits
 3            Veteran's
              compensation and
              burial benefits
 4            Life Insurance and
              accrued benefits
 5            FECA Benefits                                    559                          552                           552                            0
 6            Liability for other                               82                           49                            49                            0
              retirement and
              postemployment
              benefits
              Total                                             641                         601                           601                            0
Threshold

 Line Description                                                Question                                                            Answer
 Line Item Notes - Liability for other retirement and            Please provide explanations for any amounts thathave changed        moved OTS/OCC retirement and life insurance from Insurance programs to
 postemployment benefits (2011 - SEPTEMBER)                      by 10% or more and or greater than 500,000 between the              Federal Employee and Veteran Benefits Payabe
                                                                 current fiscal year and prior fiscal year (unaudited).




                                                                                                        - 62 -
                                                                                                                                                                                      11/15/2011 11:32:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                   Agency Notes:    Notes 1 and 19

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Pension and Accrued Benefits Liability-To be                No Data Flag: YES         Line Attributes: Dollars
                                             completed for the amount entered for pension and                                    Rounding Method: Millions                    Decimal: Zero
                                             accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Pension and             Credit
                accrued benefits
                liability- beginning
                of period
 2              Prior-period            Credit
                adjustments(not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of
                a new plan) during
                the period
 4        I     Assumption              Credit
                Change Liability
 5              Normal Costs            Credit
                (SFFAS No. 5, par.
                72)
 6              Interest on pension     Credit
                liability during the
                period
 7              Prior (and past)        Credit
                service cost (from
                the initiation of a
                new plan)
 8              Actuarial               Credit
                (gains)/losses (from
                experience)
 9              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes)
10              Other                   Credit
11              Total pension            N/A
                expense (SFFAS
                No. 5, par.72)
12              Less Benefits Paid      Debit



                                                                                                           - 63 -
                                                                                                                                                                                      11/15/2011 11:32:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                   Agency Notes:    Notes 1 and 19

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: A               Section Name: Pension and Accrued Benefits Liability-To be               No Data Flag: YES         Line Attributes: Dollars
                                              completed for the amount entered for pension and                                   Rounding Method: Millions                    Decimal: Zero
                                              accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
13              Pension and              N/A
                Accrued Benefits
                Liability-end of
                period




       Section: B               Section Name: Pension Liability Long-Term Significant Assumptions        No Data Flag: YES         Line Attributes: Percent
                                              Used in 2011 and 2010 Valuation
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
                (except OPM)
 2              Rate of inflation        N/A
                (except OPM)
 3              Projected salary         N/A
                increases (except
                OPM)



       Section: C               Section Name: Postretirement Health and Accrued Benefits                 No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                    Decimal: Zero
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Postretirement          Credit
                health and accrued
                benefits liability-
                beginning of period
                (SFFAS No. 5,
                par.88)
 2              Prior-period            Credit
                adjustments (not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of



                                                                                                           - 64 -
                                                                                                                                                                                      11/15/2011 11:32:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11              Federal Employee and Veteran Benefits Payable                                                               Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                  Agency Notes:    Notes 1 and 19

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C                Section Name: Postretirement Health and Accrued Benefits                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                    Decimal: Zero
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
                a new plan) during
                the period
 4              Normal costs            Credit
 5              Interest on liability   Credit
 6              Change in medical       Credit
                cost trend rate
                assumption
                (gains)/losses
 7              Actuarial               Credit
                (gains)/losses (from
                experience)
 8              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes)
 9              Other                   Credit
10              Total                    N/A
                postretirement
                health benefits
                expense
11              Less claims paid        Debit
12              Postretirement           N/A
                health and accrued
                benefits liability-
                end of period
       Section: D                Section Name: Postretirement Health Liability Significant               No Data Flag: YES         Line Attributes: Percent
                                               Assumptions Used in Determining the 2011 and 2010
                                               Valuation
Line Status Line Description             NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
 2              Ultimate rate of         N/A
                health care cost
                trend
 3              Single equivalent        N/A
                rate of health care
                cost trend




                                                                                                           - 65 -
                                                                                                                                                                                    11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 11            Federal Employee and Veteran Benefits Payable                                                             Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                Agency Notes:     Notes 1 and 19

  Status: Complete                            The accompanying notes are an integral part of these financial statements.        I = Inactive Line


       Section: G             Section Name: Other                                                     No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: User-Defined                Decimal: User-Defined
Line Status Line Description           NB       2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Non-marketable        Debit
                Treasury securities
                held by Thrift
                Savings Plan (TSP)
                Fund
 2              Total assets of       Debit
                pension (SFFAS
                No.5, par. 68)
 3              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 2
 4              Total assets of       Debit
                other retirement
                benefit plans
                (SFFAS No. 5, par.
                85)
 5              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 4 (SFFAS
                no. 5, par.85)
       Section: L             Section Name: Workers' Compensation Benefits (to be completed by        No Data Flag: YES         Line Attributes: Percent
                                            DOL)
Line Status Line Description           NB                     COLA                          CPIM
 6              2015                  N/A
 7              2016+                 N/A




                                                                                                        - 66 -
                                                                                                                                                                                          11/15/2011 11:32:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                 Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                    Agency Notes:    Notes 1 and 19

  Status: Complete                               The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: O              Section Name: Veteran's Compensation and Burial Benefits (to be           No Data Flag: YES          Line Attributes: Dollars
                                             completed by the Department of Veterans Affairs)                                     Rounding Method: Millions                       Decimal: Zero
Line Status Line Description             NB          CY Compensation                      CY Burial                    CY Total     PY Compensation                       PY Burial               PY Total
 1              Veterans                Credit
                compensation and
                burial benefits
                liability - beginning
                of period
 2              Prior-period            Credit
                adjustments (not
                restated)
 3              Actuarial               Credit
                (gains)/losses (from
                experience)
 4              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes)
 5              Other                   Credit
 6              Veterans                 N/A
                compensation and
                burial benefits
                liability - end of
                period




                                                                                                           - 67 -
                                                                                                                                                                                                  11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                                    Fiscal Year: 2011                  Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                       Agency Notes:       Notes 1 and 19

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Provide the following information as it relates to the future policy benefits for noncancelable    N/A
                   and renewable life insurance (other than whole life) (SFFAS No. 5, par. 110, table 9): a
                   description of each component of the liability for future policy benefits, an explanation of its
                   projected use, and any other potential uses.
2                  For pension plans that differ from the Civil Service Retirement System (CSRS), the Federal         N/A
                   Employee Retirement System (FERS), and the Military Retirement System (MRS), describe
                   how and why the assumptions differ from one of those plans (SFFAS No. 5, par. 67).
3                  Provide the long-term projection of the significant economic assumptions used in                   N/A
                   determining pension liability and
                   the related expense (example of assumptions: actuarial, economic, interest rate, and trend).
4                  Provide a description of the changes in the significant assumptions used in determining            N/A
                   pension liability and the
                   related expense (SFFAS No. 33, par.19).
5                  Provide the long-term projection of the significant economic assumptions used in                   N/A
                   determining the postretirement
                   health benefits liability and the related expense (example of assumptions: actuarial,
                   economic, interest rate, and
                   trend).
6                  Provide a description of the changes in the significant assumptions used in determining the        N/A
                   postretirement health
                   benefits liability and the related expense (SFFAS No. 33, par. 19).
10                 Provide the source(s) of the information entered for Line Item Notes tab lines 4, 5, and 6.        bureau's trial balance
11                 Provide the source(s) for the components of pension expense entered in Section A.                  N/A
12                 Provide the source(s) for the interest rate entered in Section B.                                  N/A
13                 Provide the source(s) for the components of postretirement expense entered in Section C.           N/A
14                 Provide the source(s) for the interest rate entered in Section D.                                  N/A
17                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly     The Federal Employees¿ Compensation Act (FECA) provides income and medical cost
                   the significant                                                                                    protection to covered federal civilian employees injured on the job, and employees who
                   accounting policies pertaining to this note.                                                       have incurred a work-related injury or occupational disease. The FECA program is
                                                                                                                      administered by DOL which pays valid claims and subsequently seeks reimbursements
                                                                                                                      from the Department for these paid claims. Generally, the Department reimburses DOL
                                                                                                                      within two to three years once funds are appropriated. These future workers¿
                                                                                                                      compensation estimates are generated by applying actuarial procedures developed to
                                                                                                                      estimate the liability for FECA benefits. The actuarial liability estimates for FECA
                                                                                                                      benefits include the expected liability for death, disability, medical, and miscellaneous
                                                                                                                      costs for approved compensation cases.




                                                                                                             - 68 -
                                                                                                                                                                                  11/15/2011 11:32:59

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

      Note: 12          Environmental and Disposal Liabilities                                                                    Fiscal Year: 2011               Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                Agency Notes:      N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                                 Type
Environmental and Disposal Liabilities                                    C        L                          0                  0
                                                                              Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description             2011 - SEPTEMBER          2010 - SEPTEMBER                Previously Rptd        Line Item Changes
  9
 10
 11
 12
 13
 14          Other Environmental
             and Disposal Liabilities
             Total




                                                                                                     - 69 -
                                                                                                                                                                                      11/15/2011 11:32:59

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 12            Environmental and Disposal Liabilities                                                                          Fiscal Year: 2011          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                      Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                   No Data Flag: YES            Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2011 - SEPTEMBER               2010 - SEPTEMBER                   Previously Rptd     Line Item Changes
 1              Unrecognized         Debit
                portion of
                estimated total
                cleanup costs
                associated with
                general property,
                plant, and
                equipment


Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                              Answer
 1                   List the applicable laws and regulations covering cleanup requirements
 2                   Provide a description of the type of environmental and disposal liabilties identified.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.




                                                                                                            - 70 -
                                                                                                                                                                                          11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 13          Benefits Due and Payable                                                                                           Fiscal Year: 2011               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                         Agency Notes:      N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2011 - SEPTEMBER          2010 - SEPTEMBER
                                                                                   Type
Benefits Due and Payable                                                   C         L                             0                     0
                                                                                Variance:                          0                     0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2011 - SEPTEMBER              2010 - SEPTEMBER                   Previously Rptd            Line Item Changes
 9          Other Entitlement
            BenefitsDue and
            Payable
            Total

Tab: Text Data                       No Data Flag: YES
 Line             Question                                                                                               Answer
 1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                  the significant accounting policies pertaining to this note.




                                                                                                         - 71 -
                                                                                                                                                                                              11/15/2011 11:32:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 14            Insurance and Guarantee Program Liabilities                                                                          Fiscal Year: 2011               Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                          Agency Notes:        N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account      2011 - SEPTEMBER         2010 - SEPTEMBER
                                                                                       Type
Insurance and Guarantee Program Liabilities                                     C        L                             0                    25
                                                                                    Variance:                          0                     0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description              2011 - SEPTEMBER               2010 - SEPTEMBER                  Previously Rptd            Line Item Changes
 6              Other Insurance                                     0                            25                           25                               0
                Programs
 7
 8
              Total                                                  0                            25                          25                               0

Tab: Text Data                           No Data Flag: YES
 Line                 Question                                                                                               Answer
 1                    Provide a description for the type of insurance or guarantee programs identified in the "Line
                      Item Notes" tab.
 2                    Provide the name, description, and the related amounts of the insurance or guarantee
                      programs entered on the line titled, "Other insurance programs" in the "Line Item Notes" tab.
 3                    Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                      the significant
                      accounting policies pertaining to this note.




                                                                                                              - 72 -
                                                                                                                                                                                                    11/15/2011 11:32:59

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

      Note: 15              Other Liabilities                                                                                                Fiscal Year: 2011                      Period: SEPTEMBER
   Entity: 2000             Department of the Treasury                                                                                       Agency Notes:        1, 6, 7, 18, 19

  Status: Complete                                The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                                NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                                        Type
Other Liabilities                                                                C        L                    83,835                   83,569
                                                                                     Variance:                      0                        0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description                    2011 - SEPTEMBER           2010 - SEPTEMBER               Previously Rptd            Line Item Changes
 1               Deferred revenue                                   290                          257                           257                            0
 2               Accrued wages and                                  558                          533                           533                            0
                 benefits
 3               Gold certificates                               11,037                      11,037                      11,037                               0
 4               Other debt
 5               Exchange Stabilization                          55,150                      54,958                      54,958                               0
                 Fund
 6               Legal and other
                 contingencies
 7               Grant payments due to
                 State and local
                 governments and
                 others
 8               Other employee and
                 actuarial liabilities
 10              D.C. pension liability                            9,671                      9,743                       9,743                               0
 11              Custodial liabilities
 12              Accrued annual leave                               593                          606                           606                            0
 14              Advances and                                        19                           54                            54                            0
                 prepayments
 15              Farm and other
                 subsidies
 16              Deposit funds                                      861                          724                           724                            0
 17              Bonneville Power
                 Administration Non-
                 Federal power projects
                 and capital lease
                 liabilities and disposal
                 liabilities
 18
 19              Ceritificates Issued to                           5,200                      5,200                       5,200                               0
                 FRB - ESF
 20
 21           Other Liabilities                                     456                        457                         457                                0
              Total                                               83,835                     83,569                      83,569                               0


                                                                                                            - 73 -
                                                                                                                                                                                        11/15/2011 11:32:59

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

   Note: 15           Other Liabilities                                                                                         Fiscal Year: 2011                    Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                                Agency Notes:      1, 6, 7, 18, 19

 Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line



Threshold

Line Description                                              Question                                                       Answer
Line Item Notes - Deferred revenue (2011 - SEPTEMBER)         Please provide explanations for any amounts that have          The variance is not material to the Department's financial statement
                                                              changed by 10% or more and or greater than 500,000 between
                                                              the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Advances and prepayments (2011 -            Please provide explanations for any amounts that have          The variance is not material to the Department's financial statements
SEPTEMBER)                                                    changed by 10% or more and or greater than 500,000 between
                                                              the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Deposit funds (2011 - SEPTEMBER)            Please provide explanations for any amounts that have          The variance is not material to the Department's financial statements.
                                                              changed by 10% or more and or greater than 500,000 between
                                                              the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Other Liabilities (2011 - SEPTEMBER)        Please enter a description for any amounts over $50 million.   The variance is not material to the Department's financial statements.




                                                                                                        - 74 -
                                                                                                                                                                                                   11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 15          Other Liabilities                                                                                                Fiscal Year: 2011                      Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                      Agency Notes:        1, 6, 7, 18, 19

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Provide more details on the liabilities reported on the "Line Item Notes" tab for each line 1    Line 3 ¿ Note 6, Line 5 ¿ Note 5, Line 10 ¿ Note 18 and Line 19 ¿Note 5 of the
                   through 21 by including a description of the significant related amounts and providing the       Department¿s AFR
                   page number of the agency's financial report where the amount is identified.
2                  Provide a description and related amounts for balances that exceed $50 million on the Line       Associated with liabilities without related budgetary obligations with the majority tied to
                   Item Notes tab, line 21, "Other liabilities," and provide the page number of the agency's        seized cash. - Note 19
                   financial report where the amount is identified.
3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   Annual and compensatory leave earned by the Department¿s employees, but not yet
                   the significant                                                                                  used, is reported as an accrued liability. The accrued balance is adjusted annually to
                   accounting policies pertaining to this note.                                                     reflect current pay rates. Any portion of the accrued leave for which funding is not
                                                                                                                    available is recorded as an unfunded liability. Sick and other leave are expensed as
                                                                                                                    taken.

                                                                                                                    When the IMF allocates SDRs to its members, SDR holdings are recorded as assets of
                                                                                                                    the members and SDR allocations are recorded as liabilities. SDR holdings increase
                                                                                                                    primarily as a result of IMF SDR allocations. Other transactions reported in this account
                                                                                                                    are recorded as incurred. They include acquisitions and sales of SDRs, interest
                                                                                                                    received on SDR holdings, interest charges on SDRs allocations, and valuation
                                                                                                                    adjustments. The U.S. Government receives remuneration in SDRs from the IMF and
                                                                                                                    is based on claims on the IMF, represented by the U.S. Reserve Position. The SDR
                                                                                                                    amount is credited to the ESF, which transfers to the Treasury General Account an
                                                                                                                    equivalent amount of dollars plus nominal interest. The allocations and holdings are
                                                                                                                    revalued monthly based on the SDR valuation rate as calculated by the IMF. The
                                                                                                                    liabilities represent the amount that is payable in the event of liquidation of, or U.S.
                                                                                                                    withdrawal from, the SDR Department of the IMF or cancellation of the SDRs.

                                                                                                                    The SDR is an international reserve asset created by the International Monetary Fund
                                                                                                                    (IMF) to supplement its member countries¿ official reserves. Under its Articles of
                                                                                                                    Agreement, the IMF may allocate SDRs to member countries in proportion to their IMF
                                                                                                                    quotas. Pursuant to the Special Drawing Rights Act of 1968, as amended, the ESF
                                                                                                                    holds all SDRs allocated to or otherwise acquired by the United States.

                                                                                                                    The Special Drawing Rights Act of 1968 authorizes the Secretary to issue certificates,
                                                                                                                    not to exceed the value of SDR holdings, to the FRB in return for dollar amounts equal
                                                                                                                    to the face value of certificates issued. The certificates may be issued to finance the
                                                                                                                    acquisition of SDRs from other countries or to provide U.S. dollar resources financing
                                                                                                                    other ESF operations. Certificates issued are to be redeemed by the Department at
                                                                                                                    such times and in such amounts as the Secretary may determine, and do not bear
                                                                                                                    interest. Certificates issued to FRB are reported at their face value. It is not practical to
                                                                                                                    estimate the fair value of certificates issued to FRB, since these certificates contain no
                                                                                                                    specific terms of repayment.




                                                                                                           - 75 -
                                                                                                                                                                                             11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 16              Collections and Refunds of Federal Revenue                                                                     Fiscal Year: 2011                 Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                     Agency Notes:          1 and 23

  Status: Complete                             The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Collections of Federal Revenue                                                           Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                        Decimal: Zero
Line Status Line Description           NB                       2011                         2010                       2009                 Prior Years
 1              Individual income     Credit                   1,357,129                    703,856                     18,980                       22,065
                and tax
                withholdings
 2              Corporation income    Credit                     165,768                     62,650                         1,855                    12,575
                taxes
 3              Unemployment          Credit                       4,806                      1,961                           39                            87
                taxes
 4              Excise taxes          Credit                      53,429                     19,023                           87                           255
 5              Estate and gift       Credit                            23                    6,367                          691                      1,998
                taxes
 6              Railroad retirement   Credit                       3,523                      1,164                            1                             4
                taxes
 7        I     Federal Reserve       Credit
                earnings
 8              Fines, penalties,     Credit                           284                          9
                interest, and other
                revenue
 9              Custom duties         Credit
10              Subtotal               N/A                    -1,584,962                  -795,030                     -21,653                     -36,984
11        I     Amounts collected     Debit
                for Non-Federal
                entities
12              Amounts collected     Credit                       -462
                for Non-Federal
                entities
13              Total                  N/A                    -1,584,500                  -795,030                     -21,653                     -36,984




                                                                                                         - 76 -
                                                                                                                                                                                             11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 16              Collections and Refunds of Federal Revenue                                                                     Fiscal Year: 2011                 Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                     Agency Notes:          1 and 23

  Status: Complete                             The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: B              Section Name: PP Collections of Federal Revenue                                                        Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                        Decimal: Zero
Line Status Line Description           NB                       2010                         2009                       2008                 Prior Years
 1              Individual income     Credit                   1,315,876                    635,920                     20,182                       16,782
                and tax
                withholdings
 2              Corporation income    Credit                     188,527                     75,459                         1,612                    12,339
                taxes
 3              Unemployment          Credit                       4,697                      1,726                           37                            83
                taxes
 4              Excise taxes          Credit                      52,112                     18,583                           98                           153
 5              Estate and gift       Credit                             4                    7,841                          881                     11,025
                taxes
 6              Railroad retirement   Credit                       3,547                      1,099                            1                             1
                taxes
 7        I     Federal Reserve       Credit
                earnings
 8              Fines, penalties,     Credit                           244                          1
                interest, and other
                revenue
 9              Customs duties        Credit
10              Subtotal               N/A                    -1,565,007                  -740,629                     -22,811                     -40,383
11        I     Amounts collected     Debit
                for non-Federal
                entities
12              Amounts collected     Credit                       -387
                for non-Federal
                entities
13              Total                  N/A                    -1,564,620                  -740,629                     -22,811                     -40,383




                                                                                                         - 77 -
                                                                                                                                                                                            11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 16            Collections and Refunds of Federal Revenue                                                                      Fiscal Year: 2011                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                      Agency Notes:          1 and 23

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: C             Section Name: Federal Tax Refunds Disbursed                                                            Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                        Decimal: Zero
Line Status Line Description           NB                      2011                         2010                       2009                 Prior Years
 1              Individual income     Debit                       1,140                    302,832                     26,455                       13,957
                and tax
                withholdings
 2              Corporation income    Debit                       6,342                     16,623                         6,451                    38,361
                taxes
 3              Unemployment          Debit                             3                       54                           15                            18
                taxes
 4              Excise taxes          Debit                           799                    1,047                          159                           184
 5              Estate and gift       Debit                                                     11                          401                      1,366
                taxes
 6              Railroad retirement   Debit                                                        2                                                        1
                taxes
 7        I     Federal Reserve       Debit
                earnings
 8              Fines, penalties,     Debit
                interest, and other
                revenue
 9              Customs Duties        Debit
10              Total                 N/A                         8,284                    320,569                     33,481                       53,887
       Section: D             Section Name: PP Fed Tax Refunds Disbursed for the FY                                                  Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                        Decimal: Zero
Line Status Line Description           NB                      2010                         2009                       2008                 Prior Years
 1              Individual income     Debit                       1,343                    316,596                     36,144                       17,223
                and tax
                withholdings
 2              Corporation income    Debit                       2,630                     15,913                     16,414                       61,229
                taxes
 3              Unemployment          Debit                             1                       56                           13                            23
                taxes
 4              Excise taxes          Debit                           429                      611                          171                           215
 5              Estate and gift       Debit                                                    209                          439                           277
                taxes
 6              Railroad retirement   Debit                                                        1
                taxes
 7        I     Federal Reserve       Debit
                earnings



                                                                                                        - 78 -
                                                                                                                                                                                       11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 16             Collections and Refunds of Federal Revenue                                                                  Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                  Agency Notes:       1 and 23

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: D              Section Name: PP Fed Tax Refunds Disbursed for the FY                                              Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                     Decimal: Zero
Line Status Line Description           NB                      2010                         2009                       2008              Prior Years
 8              Fines, penalties,     Debit
                interest, and other
                revenue
 9              Customs duties        Debit
10              Total                 N/A                         4,403                    333,386                     53,181                    78,967




       Section: E              Section Name: Miscellaneous                                            No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB       2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              Portion due from      Debit
                identified non-
                compliance
                assessments
 2              Portion due from      Debit
                pre-assessment
                work in process



       Section: F              Section Name: Tax Gap                                                                              Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                     Decimal: Zero
Line Status Line Description           NB      CY Low end of range          CY High end of range        PY Low end of range     PY High end of range
 1              Tax gap estimate      Debit                            0                   345,000                                             345,000




                                                                                                        - 79 -
                                                                                                                                                                                              11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 16          Collections and Refunds of Federal Revenue                                                                      Fiscal Year: 2011                Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                      Agency Notes:      1 and 23

 Status: Complete                        The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Disclose the basis of accounting related to Collections and Disbursements of Non-Federal         Non-entity revenue reported on the Department¿s Statements of Custodial Activity
                   Revenue.                                                                                         includes cash collected by the Department, primarily from taxes. It does not include
                                                                                                                    revenue collected by other federal agencies, such as user fees and other receipts,
                                                                                                                    which are remitted for general operating purposes of the U.S. Government or are
                                                                                                                    earmarked for certain trust funds. The Statements of Custodial Activity are presented
                                                                                                                    on the ¿modified accrual basis.¿ Revenues are recognized as cash is collected, as
                                                                                                                    well as for non-cash market valuation changes related to the U.S. Government¿s
                                                                                                                    holdings in American International Group, Inc. The ¿accrual adjustment¿ is the net
                                                                                                                    increase or decrease during the reporting period in net revenue related¿assets and
                                                                                                                    liabilities, mainly taxes receivable. The Consolidated Balance Sheets include estimated
                                                                                                                    amounts for taxes receivable and payable to the General Fund at September 30, 2011
                                                                                                                    and 2010.
2                  Are all trust fund revenues recorded in accordance with applicable law (SFFAS No. 7, par.        Trust fund revenues are recorded in accordance with applicable law.
                   66). If "no", provide the reasons.

3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   Non-entity revenue reported on the Department¿s Statements of Custodial Activity
                   the significant accounting policies pertaining to this note.                                     includes cash collected by the Department, primarily from taxes. It does not include
                                                                                                                    revenue collected by other federal agencies, such as user fees and other receipts,
                                                                                                                    which are remitted for general operating purposes of the U.S. Government or are
                                                                                                                    earmarked for certain trust funds. The Statements of Custodial Activity are presented
                                                                                                                    on the ¿modified accrual basis.¿ Revenues are recognized as cash is collected, as
                                                                                                                    well as for non-cash market valuation changes related to the U.S. Government¿s
                                                                                                                    holdings in American International Group, Inc. The ¿accrual adjustment¿ is the net
                                                                                                                    increase or decrease during the reporting period in net revenue related¿assets and
                                                                                                                    liabilities, mainly taxes receivable. The Consolidated Balance Sheets include estimated
                                                                                                                    amounts for taxes receivable and payable to the General Fund at September 30, 2011
                                                                                                                    and 2010.




                                                                                                          - 80 -
                                                                                                                                                                     11/15/2011 11:32:59

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                           Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Non-Federal Prior-Period Adjustments - Restated        No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: B            Section Name: Federal Prior-Period Adjustments - Restated            No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 81 -
                                                                                                                                                                     11/15/2011 11:32:59

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                           Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: C            Section Name: Non-Federal Correction of Errors- Years Preceding      No Data Flag: YES      Line Attributes: Dollars
                                           2010                                                                        Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: D            Section Name: Federal Correction of Errors - Years Preceding 2010    No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 82 -
                                                                                                                                                                     11/15/2011 11:32:59

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                           Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: E            Section Name: Non-Federal Immaterial Errors                          No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: F            Section Name: Federal Immaterial Errors                              No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 83 -
                                                                                                                                                                               11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 17          Prior-Period Adjustments                                                                                        Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                     Agency Notes:    N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: G            Section Name: Closing Package Adjustments                                  No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description         NB                  Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11          Total                   N/A
Tab: Text Data                        No Data Flag: YES
 Line               Question                                                                                            Answer
 1                  Describe the restatements to the prior year that resulted from correcting errors that occurred
                    in the prior year (data reported in Sections A and B).
 2                  Describe any errors that occurred in years preceding the prior year that adjusted the prior-
                    year beginning net position (data reported in Sections C and D).
 3                  Describe any immaterial errors that occurred in the prior period(s) that were corrected
                    against the current-year operations (data reported in Sections E and F).
 4                  Describe any adjustments of the previous year (2010) reclassification in this year¿s (2011)
                    Closing Package prior-year (2010) reporting (data reported in Section G), excluding
                    amounts reported as restatements in Section A and B.
 5                  Describe the adjustments to the current-year or prior-year beginning net position that
                    resulted from changes in accounting principles as reported on the Reclassified Statement of
                    Changes in Net Position, line 2.1 and/or line 3.1.
 6                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                           - 84 -
                                                                                                                                                                                        11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                        Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                 Agency Notes:    28

  Status: Complete                             The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Insurance Contingencies (Reasonably Possible Only)        No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description           NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd      Line Item Changes
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8                                   Credit
 9              Other insurance      Credit
                contingencies
10              Total                  N/A
       Section: B              Section Name: Insurance in force (Sum of Policy Face Value and          No Data Flag: YES          Line Attributes: Dollars
                                             Dividends Paid)                                                                    Rounding Method: Millions                      Decimal: Zero
Line Status Line Description           NB        2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd      Line Item Changes
 3                                   Credit
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8              Other insurance in   Credit
                force
 9              Total                  N/A
       Section: C              Section Name: Civil Litigation, Claims and Assessments                  No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description           NB        CYAccrued/Estimated      CY Estimated Range(Low           CY Estimated Range CY Claim amount(Unable          PYAccrued/Estimated PY Estimated Range(Low
                                                           amount                          end)                   (High end)      to determine loss)         amount rued/Estimated                 end)
                                                                                                                                                                         amount
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB         PY Estimated Range        PY Claim amunt (unable
                                                          (High end)                to determine)
 1              Probable              Credit
 2              Reasonably            Credit
                Possible


                                                                                                         - 85 -
                                                                                                                                                                                         11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                         Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                  Agency Notes:     28

  Status: Complete                             The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: D              Section Name: Environmental Litigation, Claims, and Assessments         No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                 Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description           NB        CYAccrued/Estimated           CY Estimated Range          CY Estimated Range   CY Claim amunt(unable         PY Accrued/Estimated     PY Estimated Range
                                                           amount                      (Low end)                  (High end)            to determine)                    amount                (Low end)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB         PY Estimated Range      PY Claim amount (unable
                                                       (High Range)                 to determine)
 1              Probable              Credit
 2              Reasonably            Credit
                Possible
       Section: E              Section Name: Other Contingencies                                       No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                 Rounding Method: User-Defined                  Decimal: User-Defined
Line Status Line Description           NB               CY Probable        CY Reasonably Possible                 PY Probable   PY Reasonably Possible

 3                                   Credit
 4                                   Credit
 5                                   Credit




                                                                                                         - 86 -
                                                                                                                                                                                                     11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                                Fiscal Year: 2011                   Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                        Agency Notes:       28

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Describe the risk insurance programs that are in force.                                            The Terrorism Risk Insurance Act (TRIA) was signed into law on November 26, 2002.
                                                                                                                      This law was enacted to address market disruptions resulting from terrorist attacks on
                                                                                                                      September 11, 2001. TRIA helps to ensure available and affordable commercial
                                                                                                                      property and casualty insurance for terrorism risk, and simultaneously allows private
                                                                                                                      markets to stabilize. The Terrorism Risk Insurance Program (TRIA Program) is
                                                                                                                      activated upon the certification of an "act of terrorism" by the Secretary in concurrence
                                                                                                                      with the Secretary of State and the Attorney General. If a certified act of terrorism
                                                                                                                      occurs, insurers may be eligible to receive reimbursement from the U.S. Government
                                                                                                                      for insured losses above a designated deductible amount. Insured losses above this
                                                                                                                      amount will be shared between insurance companies and the U.S. Government. TRIA
                                                                                                                      also gives the Department authority to recoup federal payments made under the TRIA
                                                                                                                      Program through policyholder surcharges under certain circumstances, and contains
                                                                                                                      provisions designed to manage litigation arising from or relating to a certified act of
                                                                                                                      terrorism. There were no claims under TRIA as of September 30, 2011 or 2010.
2                  Provide the nature of the isurance contingencies.                                                  See Text Data Line 1 above.

3                  Provide the nature of the litigation contingencies, including the range of loss for probable       The Department is a party in various administrative proceedings, legal actions, and
                   liabilities.                                                                                       claims, including equal opportunity matters which may ultimately result in settlements or
                                                                                                                      decisions adverse to the U.S. Government. These contingent liabilities arise in the
                                                                                                                      normal course of operations and their ultimate disposition is unknown. The Department
                                                                                                                      has disclosed contingent liabilities where the conditions for liability recognition have not
                                                                                                                      been met and the likelihood of unfavorable outcome is more than remote. The
                                                                                                                      Department does not accrue for possible losses related to cases where the potential
                                                                                                                      loss cannot be estimated or the likelihood of an unfavorable outcome is less than
                                                                                                                      probable.

                                                                                                                      In some cases, a portion of any loss that may occur may be paid by the Department's
                                                                                                                      Judgment Fund, which is separate from the operating resources of the Department.
                                                                                                                      For cases related to the Contract Disputes Act of 1978 and awards under federal anti-
                                                                                                                      discrimination and whistle-blower protection acts, the Department must reimburse the
                                                                                                                      Judgment Fund from future appropriations.

                                                                                                                      The Department had two contingent liabilities in fiscal year 2011 related to legal action
                                                                                                                      taken in the cases of American Council of the Blind v. Geithner and Cobell v. Salazar
                                                                                                                      where losses are determined to be probable. An amount of loss cannot be estimated
                                                                                                                      for the American Council of the Blind case. In Cobell v. Salazar, the parties agreed to a
                                                                                                                      total settlement of $3.4 billion. Specific details of these two litigation cases are provided
                                                                                                                      below.

                                                                                                                      In the opinion of the Department's management and legal counsel, based on
                                                                                                                      information currently available, the expected outcome of other legal actions, individually
                                                                                                                      or in the aggregate, will not have a materially adverse effect on the Department's
                                                                                                                      consolidated financial statements, except for the pending legal actions described below
                                                                                                                      which may have a materially adverse impact on the consolidated financial statements
                                                                                                                      depending on the outcomes of the cases.


                                                                                                             - 87 -
                                                                                                                                                                                                   11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                               Fiscal Year: 2011                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                        Agency Notes:       28

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
                                                                                                                     * American Council of the Blind, et. al. v. Geithner: Plaintiffs have filed suit against the
                                                                                                                     Department under Section 504 of the Rehabilitation Act seeking the redesign of U.S.
                                                                                                                     currency. In 2007, a U.S. District Court judge ruled that the current U.S. currency
                                                                                                                     design violates this Act; this ruling was subsequently appealed. In 2008, the U.S. Court
                                                                                                                     of Appeals for the District of Columbia Circuit affirmed the District Court¿s ruling. No
                                                                                                                     monetary damages were awarded by the court, but the Department was ordered to
                                                                                                                     provide meaningful access to U.S. currency for blind and other visually impaired
                                                                                                                     persons. This may require changes to U.S. currency (excluding the one-dollar note).
                                                                                                                     The court ordered such changes to be completed in connection with each denomination
                                                                                                                     of currency, not later than the date when a redesign is next approved by the Secretary
                                                                                                                     of the Treasury. Because the cost of implementing these changes will be incorporated
                                                                                                                     into future currency redesign costs, and cannot be estimated at this time, no redesign
                                                                                                                     costs have been accrued in the accompanying financial statements as of September
                                                                                                                     30, 2011 and 2010 (See Department of the Treasury AFR for additional information).

                                                                                                                     * Cobell et al. v. Salazar et al. (formerly Cobell v. Kempthorne): Native Americans
                                                                                                                     allege that the Department of Interior and the Department of the Treasury have
                                                                                                                     breached trust obligations with respect to the management of the plaintiffs' individual
                                                                                                                     Indian monies. On August 7, 2008, the Federal District Court issued an opinion
                                                                                                                     awarding $455 million to the plaintiffs. This decision was overturned in July 2009. The
                                                                                                                     Appellate Court found that the U.S. Government owes a cost-effective accounting, in
                                                                                                                     scale with available funds (See Department of the Treasury AFR for additional
                                                                                                                     information).
4                  Provide the nature of the litigation contingencies including the range of loss for reasonably     There is no range of losses to report due to there are no litigation contingencies that are
                   possible contingencies.                                                                           reasonably possible.
5                  Provide the total claim amount for cases assessed as "unable to determine" if significant.        * Amidax Trading Group v. S.W.I.F.T.: Plaintiffs allege that the Department's Terrorist
                   Also, provide a statement on whether this materiality affects the financial statements.           Finance Tracking Program has involved unlawful disclosure of information by the
                                                                                                                     Society for Worldwide Interbank Financial Telecommunications (S.W.I.F.T.).
                                                                                                                     Defendants include the Department of the Treasury as well as several Treasury
                                                                                                                     officials. The case was dismissed by the District Court on February 13, 2009, and the
                                                                                                                     plaintiff has subsequently appealed that ruling to the Court of Appeals for the Second
                                                                                                                     Circuit. The parties have completed the appellate briefing, and the oral argument
                                                                                                                     occurred on July 14, 2010. The parties are awaiting the Second Circuit's decision. The
                                                                                                                     Department is unable to determine the likelihood of an unfavorable outcome or an
                                                                                                                     estimate of potential loss at this time.

                                                                                                                     * James X. Bormes v. United States of America: The complaint alleges that the
                                                                                                                     government willfully violated certain provisions of the Fair and Accurate Credit
                                                                                                                     Transaction Act (FACTA) P.L. 108-159 in that the transaction confirmation received by
                                                                                                                     the complainant from Pay.gov improperly included the expiration date of the credit card
                                                                                                                     used for that transaction. The complaint does not state the amount of damages sought
                                                                                                                     on behalf of the class beyond asserting that each class member would be entitled to
                                                                                                                     $100 to $1,000 in statutory damages. In a letter sent to the Department of Justice, the
                                                                                                                     plaintiff proposed a fund of $30 million for just the Illinois class members.
                                                                                                                     On July 24, 2009, the U.S. District Court for the Northern District of Illinois granted the


                                                                                                            - 88 -
                                                                                                                                                                                               11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                             Fiscal Year: 2011                  Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                      Agency Notes:       28

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
                                                                                                                    U.S. Government's motion to dismiss this case for lack of an unequivocal waiver of
                                                                                                                    sovereign immunity. On November 16, 2010, the U.S. Court of Appeals for the Federal
                                                                                                                    Circuit reversed the District Court's decision and directed that the case be remanded
                                                                                                                    back to the District Court for further proceedings. The U.S. Government's petition for a
                                                                                                                    rehearing of that decision was denied by the Federal Circuit on March 15, 2011. On
                                                                                                                    August 12, 2011, the U.S. Government filed a petition for a writ of certiorari concerning
                                                                                                                    this decision with the U.S. Supreme Court; a decision by the Supreme Court is pending.

6                  Describe the other claims that may derive from treaties or international agreements.             The Department does not have any treaties or international agreements to report for
                                                                                                                    fiscal year 2011.
7                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   N/A
                   the significant accounting policies pertaining to this note.




                                                                                                           - 89 -
                                                                                                                                                                                                  11/15/2011 11:32:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 19              Commitments                                                                                                   Fiscal Year: 2011                 Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                    Agency Notes:        19, 28, 22

  Status: Complete                              The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Capital leases-Asset                                                                   Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB                CY Federal               CY Non-Federal                     PY Federal       PY Non-Federal
 1              Building               Debit
 2              Land                   Debit
 3              Equipment              Debit                                                         7                                                    4
 4              Software license       Debit                                                                                                              2
 5              Other                  Debit
 6              Accumulated            Credit                                                                                                             2
                depreciation/amorti
                zation
 7              Net assets under        N/A                                                          7                                                    4
                capital leases
Threshold
 Line Description                                                   Question                                                          Answer
 Other Notes Info - Equipment (CY Non-Federal)                      Please provide explanations for any amounts that have             This variance is not material to the Department's financial statements.
                                                                    changed by 10 percent or more between the
                                                                    current fiscal year and prior fiscal year. (unaudited)
 Other Notes Info - Net assets under capital leases (CY             Please provide explanations for any amounts that have             The variance is not material to the Department's financial statements.
 Non-Federal)                                                       changed by 10 percent or more between the
                                                                    current fiscal year and prior fiscal year. (unaudited)
       Section: B               Section Name: Capital leases - Liability                                                             Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB                 CY Federal              CY Non-Federal                     PY Federal       PY Non-Federal
 1              Future minimum         Credit                                                        1
                lease programs
 2              Imputed interest       Debit
 3              Executory costs        Debit
                including any profit
 4              Total capital lease     N/A                                                        -1
                liability




                                                                                                             - 90 -
                                                                                                                                                                                                 11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 19            Commitments                                                                                                    Fiscal Year: 2011                   Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                     Agency Notes:          19, 28, 22

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: C             Section Name: Commitments: Operating leases and undelivered                                           Line Attributes: Dollars
                                            orders                                                                                Rounding Method: Millions                           Decimal: Zero
Line Status Line Description         NB               CY Federal               CY Non-Federal                     PY Federal         PY Non-Federal
 1              Operating leases   Credit                          247                        714                          279                           263
 2            Undelivered orders Credit                         1,739                     207,129                        24,501                  144,804
Threshold
 Line Description                                               Question                                                             Answer
 Other Notes Info - Operating leases (CY Federal)               Please provide explanations for any amounts that have                Variance presented is not material to the Department's consolidated
                                                                changed by 10% or more and or greater than $500,000                  financial statements.
                                                                between the current fiscal year and prior fiscal year.
                                                                (unaudited)
 Other Notes Info - Operating leases (CY Non-Federal)           Please provide explanations for any amounts that have                Reduction of government space to commercial space due to increase in
                                                                changed by 10% or more and or greater than $500,000                  staff for new programs.
                                                                between the current fiscal year and prior fiscal year.
                                                                (unaudited)
 Other Notes Info - Undelivered orders (CY Federal)             Please provide explanations for any amounts that have                decrease in OFS was due to the fact that the TARP authority ended on
                                                                changed by 10% or more and or greater than $500,000                  October 3, 2010, and thus, the TARP programs could only incur new
                                                                between the current fiscal year and prior fiscal year.               obligations for FY11 for reestimates, BPD interest expense, modifications,
                                                                (unaudited)                                                          and administrative expenses necessary to manage the program. The most
                                                                                                                                     significant driver is the decrease in the reestimates executed between the
                                                                                                                                     periods.
 Other Notes Info - Undelivered orders (CY Non-Federal)         Please provide explanations for any amounts that have                Decrease in OFS was due to the fact that the TARP authority ended on
                                                                changed by 10% or more and or greater than $500,000                  October 3, 2010, and thus, the TARP programs could only incur new
                                                                between the current fiscal year and prior fiscal year.               obligations for FY11 for reestimates, BPD interest expense, modifications,
                                                                (unaudited)                                                          and administrative expenses necessary to manage the program. The most
                                                                                                                                     significant driver is the decrease in the reestimates executed between the
                                                                                                                                     periods.

                                                                                                                                     Decrease in the GSE entity is due to several factors. (i) a $45.3 billion
                                                                                                                                     decrease in disbursements for GSE MBS direct loan and HFA purchases
                                                                                                                                     due to the expiration of the HERA; and an additional $9.0 billion net
                                                                                                                                     decrease in transfers to the general fund related to the programs' subsidies,
                                                                                                                                     (ii) a $31.8 billion decrease in GSE SPSA program disbursements during
                                                                                                                                     FY11, (iii) the remaining $600 million net decrease is primarily related to
                                                                                                                                     increased obligations and subsidy transfer in GSE related credit programs.




                                                                                                         - 91 -
                                                                                                                                                                                                       11/15/2011 11:32:59

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 19            Commitments                                                                                                         Fiscal Year: 2011                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                          Agency Notes:       19, 28, 22

  Status: Complete                            The accompanying notes are an integral part of these financial statements.                  I = Inactive Line


       Section: D             Section Name: Other Commitments                                                                           Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                             Decimal: Zero
Line Status Line Description          NB                 CY Federal               CY Non-Federal                      PY Federal          PY Non-Federal
 1              Callable capital  Credit                                                       72,038                                                   63,864
                subscriptions for
                multilateral
                development banks
 8              Senior GSE        Credit
                Preferred Stock
                Purchase
                Agreement
 9                                Credit
10                                   Credit
11                                   Credit
12                                   Credit
13                                   Credit
 14            Total                  N/A                                                     -72,038                                                 -63,864
Threshold
 Line Description                                                 Question                                                                Answer
 Other Notes Info - Callable capital subscriptions for            Please provide explanations for any amounts that have                   The Callable Capital disclosure with respect to IBRD is understated by the
 multilateral development banks (CY Non-Federal)                  changed by 10% or more and or greater than $500,000                     difference between the amount which UST has committed via agreements
                                                                  between the current fiscal year and prior fiscal year.                  with the IBRD, and has related authority for, versus the amount which is
                                                                  (unaudited)                                                             appropriated. The U.S. share of callable capital in the IBRD is
                                                                                                                                          approximately $30 billion, however only $24.3 billion has been provided for
                                                                                                                                          through direct appropriations or authorization to make such subscriptions
                                                                                                                                          subject to provision of such authority in appropriations acts, understating the
                                                                                                                                          disclosure by $5.7 billion.
Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Describe the lessee's leasing arrangements including the basis on which contingent rental             The Department's leases are operating leases with GSA for ofice space which can be
                     payments are determined, the existence and terms of renewal or purchase options,                      cancelled upon notice.
                     escalation clauses and restrictions imposed by lease agreements.
 2                   Explain any amounts listed in Section D in detail and reference the note, and/or location, in         Note 28
                     the agency¿s Performance and Accountability Report (PAR).                                             The Department on behalf of the United States has subscribed to capital for certain
                                                                                                                           multilateral development banks (MDBs), portions of which are callable under certain
                                                                                                                           limited circumstances to meet the obligations of the respective MDB. There has never
                                                                                                                           been, nor is there anticipated, a call on the U.S. commitment for these subscriptions.


 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly        N/A
                     the significant accounting policies pertaining to this note.



                                                                                                             - 92 -
                                                                                                                                                                                                11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

      Note: 20             Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                    Fiscal Year: 2011                   Period: SEPTEMBER
   Entity: 2000            Department of the Treasury                                                                                  Agency Notes:        1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account     2011 - SEPTEMBER      2010 - SEPTEMBER
                                                                                    Type
TARP Direct Loans and Equity Investments                                     D        A                   80,104                144,692
                                                                                 Variance:                     0                      0          Rounding Method: Millions                 Decimal: Zero
Line Status Line Description                 CY Direct Loans and              CY Subsidy Cost CY Net Dir Loans & Equity          PY Direct Loans and                  PY Subsidy Cost PY Net Dir Loans & Equity
                                          Equity Investments                   Allowance                      Invs            Equity Investments                       Allowance                      Invs
 1               Capital Purchase                          17,299                        4,857                   12,442                        49,779                            1,546                   48,233
                 Program
 2               American International                      51,087                      20,717                    30,370                       47,543                         21,405                        26,138
                 Group, Inc.,
                 Investment Program
 3               Targeted Investment                              0                           0                          0                              0                          -1                               1
                 Program
 4               Automotive Industry                         37,278                      19,440                    17,838                       67,238                         14,529                        52,709
                 Financing Program
 5               Consumer and                                   798                        -279                     1,077                          908                            -58                           966
                 Business Lending
                 Initiative
 6               Public-private                              15,943                      -2,434                    18,377                       13,729                           -676                        14,405
                 investment Program
 7               Asset Guarantee                                  0                           0                          0                       2,240                              0                         2,240
                 Program
  8
  9
 10          All other TARP
             programs
             Total                                          122,405                      42,301                     80,104                     181,437                          36,745                      144,692
Threshold

 Line Description                                                Question                                                           Answer
 Line Item Notes - Capital Purchase Program (CY Direct           Please provide explanations for any amounts that have              The variance is primary due to repayments and sales of investments of
 Loans and Equity Investments)                                   changed by 10% or more and or greater than 500,000 between         $30.2 billion.
                                                                 the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Capital Purchase Program (CY Subsidy          Please provide explanations for any amounts that have              The variance is primary due to net proceeds from sales and repurchases of
 Cost Allowance)                                                 changed by 10% or more and or greater than 500,000 between         assets in excess of cost of $4.5 billion offset by the downward reestimate of
                                                                 the current fiscal year and prior fiscal year. (Unaudited)         $816 million.




                                                                                                       - 93 -
                                                                                                                                                                                       11/15/2011 11:32:59

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

   Note: 20           Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                              Fiscal Year: 2011                  Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                            Agency Notes:       1 and 7

 Status: Complete                       The accompanying notes are an integral part of these financial statements.       I = Inactive Line



Threshold

Line Description                                            Question                                                      Answer
Line Item Notes - Automotive Industry Financing Program     Please provide explanations for any amounts that have        General Motors Company (New GM) and General Motors Corporation (Old
(CY Direct Loans and Equity Investments)                    changed by 10% or more and or greater than 500,000 between   GM)
                                                            the current fiscal year and prior fiscal year. (Unaudited)   During fiscal year 2011, pursuant to a letter agreement, New GM
                                                                                                                         repurchased its preferred stock for 102.0 percent of its liquidation amount, or
                                                                                                                         $2.1 billion. As part of an initial public offering by New GM at fiscal year
                                                                                                                         2011, the Department sold approximately 412 million shares of its common
                                                                                                                         stock for $13.5 billion, at an average price of $32.75 per share (net of fees).
                                                                                                                         The sale resulted in net proceeds less than cost of $4.4 billion. At
                                                                                                                         September 30, 2011, the Department held 500 million shares of the
                                                                                                                         common stock of New GM, which represents approximately 32.0 percent of
                                                                                                                         the common stock of the New GM outstanding. The common stock price of
                                                                                                                         New GM has declined $7.0 billion since its IPO. Market value of the shares
                                                                                                                         as of September 30, 2011, was $10.1 billion.

                                                                                                                         On March 31, 2011, the Plan of Liquidation for Old GM became effective
                                                                                                                         and the Department's $986 million loan was converted to an administrative
                                                                                                                         claim. The Department retains the right to recover additional proceeds but
                                                                                                                         recoveries are dependent on actual liquidation proceeds and pending
                                                                                                                         litigation. The Department recovered $111 million in fiscal year 2011 on the
                                                                                                                         administrative claim. The Department does not expect to recover any
                                                                                                                         significant additional proceeds from this claim.

                                                                                                                         Chrysler Group LLC and Chrysler Holding LLC
                                                                                                                         In May 2011, New Chrysler repaid both Tranche B and C principal balances
                                                                                                                         of $5.1 billion, the additional notes totaling $384 million and all interest due.
                                                                                                                         New Chrysler's ability to draw the remaining $2.1 billion loan commitment
                                                                                                                         was terminated. In July 2011, Fiat SpA paid the Department $560 million for
                                                                                                                         its remaining interest in New Chrysler and the Departments' rights under an
                                                                                                                         agreement the UAW retiree healthcare trust pertaining to the trust's shares
                                                                                                                         in new Chrysler.

                                                                                                                         Ally Financial Inc. (formerly known as GMAC Inc.)
                                                                                                                         In March 2011, the Department sold its TRuPS for its cost of $2.7 billion,
                                                                                                                         resulting in proceeds in excess of cost of $127 million. On March 31, 2011,
                                                                                                                         the Department announced that it had agreed to be named as a selling
                                                                                                                         shareholder of common stock in Ally's registration statement filed with the
                                                                                                                         Securities and Exchange Commission (SEC) for a proposed initial public
                                                                                                                         offering. Since March 31, 2011, Ally has filed four amendments in response
                                                                                                                         to SEC comments; there has been no public offering.




                                                                                                  - 94 -
                                                                                                                                                                                      11/15/2011 11:32:59

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

   Note: 20           Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                               Fiscal Year: 2011                 Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                             Agency Notes:      1 and 7

 Status: Complete                        The accompanying notes are an integral part of these financial statements.       I = Inactive Line



Threshold

Line Description                                             Question                                                     Answer
Line Item Notes - Automotive Industry Financing Program      Please provide explanations for any amounts that have        The variance is primary due to net proceeds from sales and repurchases of
(CY Subsidy Cost Allowance)                                  changed by 10% or more and or greater than 500,000 between   assets being less than cost of $5.2 billion offset by a upward reestimate of
                                                             the current fiscal year and prior fiscal year. (Unaudited)   $9.9 billion mainly related to a $7 billion decline in the common stock price
                                                                                                                          of New GM since its IPO.
Line Item Notes - Consumer and Business Lending Initiative   Please provide explanations for any amounts that have        Variance presented is not material to the Department's consolidated
(CY Direct Loans and Equity Investments)                     changed by 10% or more and or greater than 500,000 between   financial statements.
                                                             the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Public-private investment Program (CY      Please provide explanations for any amounts that have        During fiscal year 2011, the Department disbursed $1.1 billion as equity
Direct Loans and Equity Investments)                         changed by 10% or more and or greater than 500,000 between   investment and $2.3 billion as loans to PPIFs. In addition, the Department
                                                             the current fiscal year and prior fiscal year. (Unaudited)   received $868 million in loan principal repayments in fiscal year 2011. Also,
                                                                                                                          during fiscal year 2011, the Department received $735 million in equity
                                                                                                                          distributions, comprised of $306 million of dividend income, $91 million of
                                                                                                                          proceeds in excess of cost, and a $338 million reduction of the gross
                                                                                                                          investment outstanding.




                                                                                                   - 95 -
                                                                                                                                                                                         11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                        Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                      Agency Notes:        1 and 7

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Subsidy Expense/(Income)                                                              Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                     Decimal: Zero
Line Status Line Description           NB       2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd         Line Item Changes
 1              Capital Purchase      Debit                      -1,826                      3,861                         3,861                          0
                Program
 2              American              Debit                       1,553                     -7,668                     -7,668                             0
                International
                Group, Inc.,
                Investment
                Program
 3              Targeted              Debit                       -192                      -1,879                     -1,879                             0
                Investment
                Program
 4              Automotive            Debit                       9,741                    -16,614                    -16,614                             0
                Industry Financing
                Program
 5              Consumer and          Debit                       -209                         306                          306                           0
                Business Lending
                Initiative
 6              Public-private        Debit                      -1,859                      -704                          -704                           0
                investment
                Program
 7              Asset Guarantee       Debit                          30                     -1,505                     -1,505                             0
                Program
 8                                    Debit
 9                                    Debit
10              All other TARP        Debit
                programs
11              Total                  N/A                        7,238                    -24,203                    -24,203                             0




                                                                                                        - 96 -
                                                                                                                                                                                11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                   Fiscal Year: 2011          Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                Agency Notes:    1 and 7

  Status: Complete                           The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: B              Section Name: Interests for TARP Programs                                                        Line Attributes: Percent


Line Status Line Description           NB      2011 - SEPTEMBER             2010 - SEPTEMBER               Previously Rptd
 1              Senior preferred       N/A                      5.0000                     5.0000
                stock stated
                dividend rate- CPP
 2              Increasing senior      N/A                      9.0000                     9.0000
                preferred stock
                stated dividend rate
                through 5 years -
                CPP
 3              Subordinate            N/A                      7.7000                     7.7000
                debentures interest
                rate of 30 years
                (first 5 years) -
                CPP
 4               Subordinate           N/A                    13.8000                     13.8000
                debentures interest
                rate after 30 years
                (after 5 years) -
                CPP
 5              Dividend rate          N/A                       .0000                      .0000
                compounded
                annually - AIGs
                Series D
 6              Rate of Series E       N/A                       .0000                    10.0000
                stock - AIG
 7              Dividend rate          N/A
                funded - TIP
                program
       Section: C              Section Name: Repayments, Dividends, and Interest Collections                                    Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                 Decimal: Zero
Line Status Line Description           NB       2011 - SEPTEMBER          2010 - SEPTEMBER D              Previously Rptd D
                                                               D
 1              Repayments -           N/A                      30,200                     81,500
                CPP
 2              Dividend payments      N/A                         246                          0
                - AIG
 3              Repayments - AIG       N/A




                                                                                                       - 97 -
                                                                                                                                                                               11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                  Fiscal Year: 2011          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                Agency Notes:    1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: D             Section Name: Investments                                                                        Line Attributes: Dollars
                                                                                                                             Rounding Method: Millions                 Decimal: Zero
Line Status Line Description          NB       2011 - SEPTEMBER          2010 - SEPTEMBER D              Previously Rptd D
                                                              D
 1              Amount of             N/A                           0                          0
                investment- AIGs
                Series D perpetual
                cumulative
                preferred stock
 2              Amount of AIGs        N/A                           0                          0
                exchange of Series
                D to Series E
 3              Agreed amount         N/A                           0                     22,300
                made available for
                capital facility of
                AIGs Series F
 4              Amount funded to      N/A                      27,800                      7,500
                AIG for additional
                capital facility
 5              Amount invested -     N/A
                TIP program for
                preferred stock
 6              Amount for            N/A                           0                          0
                Treasury, FDIC
                and FRBNY asset
                pool for AGP
 7              Amount for            N/A                           0                          0
                Treasury's
                guarantee limit
                under AGP
 8              Amount of             N/A                      45,600                     45,600
                commitment under
                the Housing
                Program
 9              Amount of             N/A                       1,900                        543
                disbursement
                under the Housing
                Program




                                                                                                      - 98 -
                                                                                                                                                                                      11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                   Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                 Agency Notes:     1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: E               Section Name: Components of TARP Net Direct Loans and Equity        No Data Flag: YES           Line Attributes: Dollars
                                              Investments - Current Year                                                      Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB          Capital Purchase          AIG, Inc., Investment       Targeted Investment     Automotive Industry     Consumer and Business             Public-Private
                                                       Program D                      Program D                 Program D     Financing Program D          Lending Initiative D   Investment Program D
 1              Loans and equity      N/A
                investments
                receivable, net -
                beginning of the
                year
 2              Disbursements         N/A
                (loans
                made/securities
                purchased)
 3              Collections (loan     N/A
                principal and
                interest
                repayments,
                penalties and fines
                collected,
                sale/maturity of
                securities)
 4                                    N/A
 5                                    N/A
 6                                    N/A
 7                                    N/A
 8              Interest accrued on   N/A
                loans
 9              Allowance for loss    N/A
10              Allowance for         N/A
                subsidy
11                                    N/A
12                                    N/A
13                                    N/A
14                                    N/A
15              Loans and equity      N/A
                investments
                receivable, net -
                end of the year




                                                                                                      - 99 -
                                                                                                                                                                           11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                              Fiscal Year: 2011          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                            Agency Notes:    1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: E              Section Name: Components of TARP Net Direct Loans and Equity         No Data Flag: YES      Line Attributes: Dollars
                                             Investments - Current Year                                                  Rounding Method: Millions                 Decimal: Zero
Line Status Line Description          NB              All other TARP                    Total D
                                                       programs D
 1              Loans and equity      N/A
                investments
                receivable, net -
                beginning of the
                year
 2              Disbursements         N/A
                (loans
                made/securities
                purchased)
 3              Collections (loan     N/A
                principal and
                interest
                repayments,
                penalties and fines
                collected,
                sale/maturity of
                securities)
 4                                    N/A
 5                                    N/A
 6                                    N/A
 7                                    N/A
 8              Interest accrued on   N/A
                loans
 9              Allowance for loss    N/A
10              Allowance for         N/A
                subsidy
11                                    N/A
12                                    N/A
13                                    N/A
14                                    N/A
15              Loans and equity      N/A
                investments
                receivable, net -
                end of the year




                                                                                                      - 100 -
                                                                                                                                                                                      11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                   Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                 Agency Notes:     1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: F               Section Name: Components of TARP Net Direct Loans and Equity        No Data Flag: YES           Line Attributes: Dollars
                                              Investments - Prior Year                                                        Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB          Capital Purchase      AIG, Investment Program         Targeted Investment     Automotive Industry     Consumer and Business             Public-Private
                                                       Program D                              D                 Program D     Financing Program D          Lending Initiative D   Investment Program D
 1              Loans and equity      N/A
                investments
                receivable, net -
                beginning of the
                year
 2              Disbursements         N/A
                (loans
                made/securities
                purchased)
 3              Collections (loan     N/A
                principal and
                interest
                repayments,
                penalties and fines
                collected,
                sale/maturity of
                securities)
 4                                    N/A
 5                                    N/A
 6                                    N/A
 7                                    N/A
 8              Interest accrued on   N/A
                loans
 9              Allowance for loss    N/A
10              Allowance for         N/A
                subsidy
11                                    N/A
12                                    N/A
13                                    N/A
14                                    N/A
15              Loans and equity      N/A
                investments
                receivable, net -
                end of the year




                                                                                                      - 101 -
                                                                                                                                                                           11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                              Fiscal Year: 2011          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                            Agency Notes:    1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: F              Section Name: Components of TARP Net Direct Loans and Equity         No Data Flag: YES      Line Attributes: Dollars
                                             Investments - Prior Year                                                    Rounding Method: Millions                 Decimal: Zero
Line Status Line Description          NB              All other TARP                    Total D
                                                       programs D
 1              Loans and equity      N/A
                investments
                receivable, net -
                beginning of the
                year
 2              Disbursements         N/A
                (loans
                made/securities
                purchased)
 3              Collections (loan     N/A
                principal and
                interest
                repayments,
                penalties and fines
                collected,
                sale/maturity of
                securities)
 4                                    N/A
 5                                    N/A
 6                                    N/A
 7                                    N/A
 8              Interest accrued on   N/A
                loans
 9              Allowance for loss    N/A
10              Allowance for         N/A
                subsidy
11                                    N/A
12                                    N/A
13                                    N/A
14                                    N/A
15              Loans and equity      N/A
                investments
                receivable, net -
                end of the year




                                                                                                      - 102 -
                                                                                                                                                                                              11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 20         Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                        Fiscal Year: 2011                  Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                     Agency Notes:       1 and 7

 Status: Complete                       The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line             Question                                                                                         Answer
1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly   The Department accounts for all of its TARP credit program receivables, including
                 the significant accounting policies pertaining to this note.                                     investments in common and preferred stock and warrants of public companies, loans,
                                                                                                                  and loan guarantees or guaranty-like insurance activities, under the provisions of credit
                                                                                                                  reform accounting.

                                                                                                                  To account for the Department's TARP and other credit program receivables, the
                                                                                                                  Department applies the accounting provisions of SFFAS No. 2, Accounting for Direct
                                                                                                                  Loans and Loan Guarantees, as amended. SFFAS No. 2, as amended, requires
                                                                                                                  measurement of the asset or liability at the net present value of the estimated future
                                                                                                                  cash flows. The cash flow estimates for each credit program transaction reflect the
                                                                                                                  actual structure of the instruments. For each of these instruments, the Department
                                                                                                                  estimates cash inflows and outflows related to the program over the estimated term of
                                                                                                                  the instrument.

                                                                                                                  Further, each cash-flow estimate reflects the specific terms and conditions of the
                                                                                                                  program, technical assumptions regarding the underlying assets, risk of default or other
                                                                                                                  losses, and other factors as appropriate. The measurement of assets within these
                                                                                                                  programs is primarily derived from inputs which generally represent market data and,
                                                                                                                  when such data is not available, management's best estimate of how a market
                                                                                                                  participant would assess the risk inherent in the asset.

                                                                                                                  SFFAS No. 2, as amended, was promulgated as a result of the FCRA. The primary
                                                                                                                  purpose of the Federal Credit Reform Accounting (FCRA) is to more accurately
                                                                                                                  measure the cost of federal credit programs and to place the cost of such credit
                                                                                                                  programs on a basis equivalent with other federal spending. The FCRA requires that
                                                                                                                  the ultimate costs of a credit program be calculated and the budgetary resources
                                                                                                                  obtained before the direct loan obligations are incurred. To accomplish this, the
                                                                                                                  Department first predicts or estimates the future performance of direct and guaranteed
                                                                                                                  loans when preparing its annual budget. The data used for these budgetary estimates
                                                                                                                  are reestimated after the fiscal year-end to reflect changes in actual loan performance
                                                                                                                  and actual interest rates in effect when the loans were issued. The reestimated data
                                                                                                                  reflect adjustments for market risks, asset performance, and other key variables and
                                                                                                                  economic factors. The reestimated data are then used to report the cost of the loans
                                                                                                                  disbursed under the direct or guaranteed loan program as a "Program Cost" in the
                                                                                                                  Department's Consolidated Statements of Net Cost.

                                                                                                                  Cash flows associated with the Department's credit programs generally include
                                                                                                                  disbursements, repayments, repurchases, fees, recoveries, interest, dividends,
                                                                                                                  proceeds from sales of instruments, borrowings from Treasury, negative subsidy, and
                                                                                                                  the subsidy cost received from the program accounts. Security-level data and
                                                                                                                  assumptions used as the basis for cash flow model forecasts and program performance
                                                                                                                  are drawn from widely available market sources, as well as information published by
                                                                                                                  investees. Key inputs to the cash flow forecasts include:

                                                                                                                  * Security characteristics such as unpaid principal balance, coupon rate, weighted-



                                                                                                        - 103 -
                                                                                                                                                                                            11/15/2011 11:32:59

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

    Note: 20          Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                     Fiscal Year: 2011                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                   Agency Notes:       1 and 7

 Status: Complete                       The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line               Question                                                                                      Answer
                                                                                                                 average loan age, issued bond balance, credit rating, maturity date, principal and
                                                                                                                 interest payment schedules, priority of payments, and performance of underlying
                                                                                                                 collateral
                                                                                                                 * Department actions as well as changes in legislation
                                                                                                                 * Forecast prepayment rates and default rates
                                                                                                                 * Forecast dividend payments
                                                                                                                 * Expected escrow conversion and return rates
                                                                                                                 * Default and recovery reports published by Moody's and Standard and Poor's
                                                                                                                 * Other third-party market sources

                                                                                                                 The recorded subsidy cost associated with each of the Department's credit programs is
                                                                                                                 based on the calculated net present value of expected future cash flows. The
                                                                                                                 Department's actions, as well as changes in legislation, may impact estimated future
                                                                                                                 cash flows and related subsidy costs.
2                  Provide details regarding programs reported in Sections E and F that comprise amounts         Sections B-F not completed, as information is not directly derived from AFR or
                   reported in the "all other TARP Programs" column.                                             otherwise readily available in total for each section.




                                                                                                      - 104 -
                                                                                                                                                                                                11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 21            Beneficial Interest in Trust                                                                                 Fiscal Year: 2011                 Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                  Agency Notes:        1 and 26

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2011 - SEPTEMBER       2010 - SEPTEMBER
                                                                                   Type
Beneficial Interest in Trust                                                D        A                    10,862                 20,805
                                                                                Variance:                      0                      0           Rounding Method: Millions                Decimal: Zero
Line Status Line Description              2011 - SEPTEMBER            2010 - SEPTEMBER               Previously Rptd          Line Item Changes
 1            Beneficial Interest in                        10,862                      20,805                      20,805                             0
              Trust
              Total                                          10,862                     20,805                      20,805                             0
Threshold

 Line Description                                                Question                                                          Answer
 Line Item Notes - Beneficial Interest in Trust (2011 -          Please provide explanations for any amounts that have             On May 27, 2011, the Department sold in the open market 200 million
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between        shares of AIG common shares held by the General Fund and TARP (68
                                                                 the current fiscal year and prior fiscal year. (Unaudited)        million and 132 million shares, respectively).

                                                                                                                                   After taking into consideration the May 2011 sale of AIG common stock, the
                                                                                                                                   carrying value of the non-entity investment in AIG was $10.9 billion as of
                                                                                                                                   September 30, 2011, which represented the fair value as of that date of the
                                                                                                                                   remaining AIG common stock held by the General Fund. As of September
                                                                                                                                   30, 2010, the carrying value of the non-entity investment in AIG was $20.8
                                                                                                                                   billion, which represented the fair value, as of that date, of the General
                                                                                                                                   Fund's sole beneficiary interest in a Trust comprised of AIG convertible
                                                                                                                                   prefered stock. The fair value of the non-entity assets recorded as of
                                                                                                                                   September 30, 2011 and 2010 were based on the market value of AIG's
                                                                                                                                   common stock which is actively traded on the NYSE. During fiscal year
                                                                                                                                   2011, the Department's AIG investments held on behalf of the General Fund
                                                                                                                                   experienced a net fair value decline of $9.9 billion. Accordingly, the carrying
                                                                                                                                   value of the AIG common stock investment was decreased by this amount,
                                                                                                                                   and a corresponding amount was reported as custodial expense on the
                                                                                                                                   Statement of Custodial Activity.

                                                                                                                                   See below for a more detailed discussionof these transactions.




                                                                                                       - 105 -
                                                                                                                                                                           11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 21             Beneficial Interest in Trust                                                                        Fiscal Year: 2011            Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                          Agency Notes:     1 and 26

  Status: Complete                            The accompanying notes are an integral part of these financial statements.   I = Inactive Line


       Section: A               Section Name: Beneficial Interest in Trust                            No Data Flag: YES    Line Attributes: Percent


Line Status Line Description            NB      2011 - SEPTEMBER
 1        I     Percent of equity      N/A
                interest in AIG
                under initial terms
 2        I     Percent of equity      N/A
                interest in AIG
                subsequent




                                                                                                        - 106 -
                                                                                                                                                                                                11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 21         Beneficial Interest in Trust                                                                                     Fiscal Year: 2011                   Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                      Agency Notes:       1 and 26

 Status: Complete                       The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line             Question                                                                                         Answer
1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly   Non-TARP Investment in American International Group, Inc.
                 the significant accounting policies pertaining to this note.
                                                                                                                  The Department holds American International Group, Inc. (AIG) common stock on
                                                                                                                  behalf of the General Fund which are considered "available-for-sale" securities and
                                                                                                                  recorded at fair value. Changes in the valuation of these investments held are non-
                                                                                                                  entity, non-exchange transactions reported on the Statements of Custodial Activity.
                                                                                                                  The revenue or loss associated with sales of these investments are non-entity,
                                                                                                                  exchange transactions reported on the Statements of Custodial Activity.

                                                                                                                  Under the initial terms of a capital facility agreement between the Federal Reserve
                                                                                                                  Bank of New York (FRBNY) and AIG, an equity interest in AIG (in the form of Series C
                                                                                                                  Convertible Participating Serial Preferred Stock convertible into approximately 79.8
                                                                                                                  percent of the issued and outstanding shares of AIG common stock) was issued to a
                                                                                                                  trust (Trust) established by the FRBNY. The General Fund of the U.S. Government
                                                                                                                  was the sole beneficiary of the Trust. In connection with the establishment of the Trust,
                                                                                                                  the Department, as custodian of the General Fund, recorded a non-entity asset of
                                                                                                                  $23.5 billion as of September 30, 2009, along with a corresponding entry to custodial
                                                                                                                  revenue for the same amount, to reflect the value of the General Fund's beneficiary
                                                                                                                  interest holding in the Trust. As of September 30, 2010, the value of the Trust had
                                                                                                                  declined by $2.7 billion, reducing the carrying value of this non-entity asset to $20.8
                                                                                                                  billion. Both the initial recording of the non-entity Trust asset of $23.5 billion in fiscal
                                                                                                                  year 2009, along with the subsequent $2.7 billion decline in value in fiscal year 2010,
                                                                                                                  were reported on the Consolidated Statements of Custodial Activity.

                                                                                                                  On September 30, 2010, the Department, the FRBNY, and AIG entered into an AIG
                                                                                                                  Recapitalization Agreement for the purpose of restructuring the U.S. Government's
                                                                                                                  holdings in AIG. This restructuring was executed on January 14, 2011, converted the
                                                                                                                  Trust's AIG preferred stock was converted into 562.9 million shares of AIG common
                                                                                                                  stock, and the Trust was dissolved. The Department intends to sell both its General
                                                                                                                  Fund and TARP holdings in AIG common stock together, on a pro rata basis, in the
                                                                                                                  open market over time. The General Fund will be the ultimate recipient of any future
                                                                                                                  dividends earned and proceeds realized from the liquidation of the AIG common stock.
                                                                                                                  Accordingly, such dividends and proceeds will be deposited into the accounts of the
                                                                                                                  General Fund. The conversion of the Trust's preferred stock into AIG common stock
                                                                                                                  reduced the non-entity portion of the outstanding common stock ownership in AIG from
                                                                                                                  79.8 percent to approximately 31 percent. In connection with the January 14, 2011
                                                                                                                  restructuring, the Department recorded a non-entity asset of $25.5 billion to reflect the
                                                                                                                  value of the General Fund's 31 percent ownership in AIG's common stock. This
                                                                                                                  transaction also included removing the previous asset which represented the General
                                                                                                                  Fund's sole beneficiary interest in the Trust, which was dissolved as part of the
                                                                                                                  recapitalization.

                                                                                                                  The Department will re-value its non-entity AIG common stock holdings at least
                                                                                                                  annually until all of these common shares are liquidated. Like any asset, future events
                                                                                                                  may increase or decrease the value of the General Fund's interest in the AIG common



                                                                                                        - 107 -
                                                                                                                                                                         11/15/2011 11:32:59

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

   Note: 21         Beneficial Interest in Trust                                                                             Fiscal Year: 2011           Period: SEPTEMBER
  Entity: 2000      Department of the Treasury                                                                               Agency Notes:    1 and 26

 Status: Complete                       The accompanying notes are an integral part of these financial statements.        I = Inactive Line

Tab: Text Data
Line             Question                                                                                        Answer
                                                                                                                 stock.




                                                                                                  - 108 -
                                                                                                                                                                                       11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                               Fiscal Year: 2011              Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                    Agency Notes:          1, 24

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

      Section: A               Section Name: Assets - Current Year                                                                 Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                     Decimal: Zero
Line Status Line Description          NB           Cash and other             Fund balance with           Inv in U. S. Treas.    Interest Receivable D Other Federal assets (with     Other Federal assets
                                                monetary assets D                  Treasury D       Sec.(net of prem. & disc)                               earmarked funds) D       (with non-earmarked
                                                                                                                           D                                                                    funds) D
13              Exchange              N/A                      66,678                                                22,721                             105
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                          21                      1,623                         6,787                           35                                            12
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                      66,699                      1,623                     29,508                             140                                            12

Line Status Line Description          NB         Other non-Federal                 Total assets
                                                         assets D
13              Exchange              N/A                      15,671                    105,175
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                       1,523                     10,001
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                      17,194                    115,176




                                                                                                      - 109 -
                                                                                                                                                                                       11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                               Fiscal Year: 2011              Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                    Agency Notes:          1, 24

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line


      Section: B               Section Name: Assets - Prior Year                                                                   Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                     Decimal: Zero
Line Status Line Description          NB           Cash and other             Fund balance with       Inv. in U.S. Treas. Sec.   Interest Receivable D Other Federal assets (with     Other Federal assets
                                                monetary assets D                  Treasury D       (net of prem. & disc.) D                                earmarked funds) D       (with non-earmarked
                                                                                                                                                                                                funds) D
13              Exchange              N/A                      70,878                                                 20,436                            111
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                          12                        859                         6,727                           36                                            10
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                      70,890                        859                      27,163                            147                                            10

Line Status Line Description          NB         Other non-Federal                 Total assets
                                                         assets D
13              Exchange              N/A                      12,505                    103,930
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                       1,415                      9,059
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                      13,920                    112,989




                                                                                                      - 110 -
                                                                                                                                                                                                  11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                  Fiscal Year: 2011              Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                       Agency Notes:       1, 24

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line


      Section: C               Section Name: Liabilities and Net Position - Current Year                                              Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                             Decimal: Zero
Line Status Line Description          NB           Benefits due and        Other Federal liabilities Other Fed. liabilities (with      Other non-Federal              Total liabilities        Ending net position C
                                                        payable C          (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                   C
13              Exchange              N/A                                                                                                            60,385                    -60,385                        44,790
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                                                        4                          414                      10,561                    -10,979                         -978
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                                                       -4                         -414                    -70,946                     -71,364                      -43,812

Line Status Line Description          NB     Total liabilities and net
                                                            position
13              Exchange              N/A                     -105,175
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                      -10,001
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                     -115,176




                                                                                                         - 111 -
                                                                                                                                                                                                   11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                   Fiscal Year: 2011              Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                        Agency Notes:       1, 24

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                  I = Inactive Line


      Section: D               Section Name: Liabilities and Net Position - Prior Year                                                 Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                             Decimal: Zero
Line Status Line Description          NB           Benefits due and         Other Federal liabilities Other Fed. liabilities (with      Other non-Federal              Total liabilities        Ending net position C
                                                        payable C           (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                    C
13              Exchange              N/A                                                                                                             60,185                    -60,185                        43,745
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                                                         5                          294                      10,879                    -11,178                        -2,119
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                                                        -5                         -294                    -71,064                     -71,363                      -41,626

Line Status Line Description          NB     Total liabilities and net
                                                            position
13              Exchange              N/A                     -103,930
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                       -9,059
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                     -112,989




                                                                                                          - 112 -
                                                                                                                                                                                            11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                               Fiscal Year: 2011                 Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                    Agency Notes:          1, 24

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line


      Section: E               Section Name: Revenue, Financing, Expenses, and Other - Current                                     Line Attributes: Dollars
                                             Year                                                                                Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB              Net position,     Prior-period adjustment    Investment revenue from      Individual income taxes Unemployment and excise        Other taxes and receipts
                                             beginning of period C                            C      Treasury Securities C      and payroll tax withhold               taxes C                               C
                                                                                                                                                      C
13              Exchange              N/A                      43,745                                                      14
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                      -2,119                                                     141                                                                            1,517
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                     -41,626                                                    -155                                                                           -1,517

Line Status Line Description          NB        Royalties and other           All other financing Program net cost - public          Program net cost -         Non-program expenses       Net position, end of
                                                special revenue C                    sources C                            D       Intragovernmental D                              D                   period
13              Exchange              N/A                                                                            -1,032                                                                            -44,791
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                                                    177                          267                           429                                                980
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                                                   -177                         -765                           429                                            -43,811




                                                                                                      - 113 -
                                                                                                                                                                                             11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                Fiscal Year: 2011                 Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                     Agency Notes:          1, 24

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


      Section: F               Section Name: Revenue, Financing, Expenses, and Other - Prior                                        Line Attributes: Dollars
                                             Year                                                                                 Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB              Net position,     Prior-period adjustment      Investment revenue from     Individual income taxes Unemployment and excise        Other taxes and receipts
                                             beginning of period C                            C        Treasury Securities C     and payroll tax withhold               taxes C                               C
                                                                                                                                                       C
13              Exchange              N/A                      43,847                                                      19                                                                               -19
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                      -1,994                                                     154                                                                             1,091
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                     -41,853                                                    -173                                                                            -1,072

Line Status Line Description          NB        Royalties and other           All other financing Program net cost - public           Program net cost -         Non-program expenses       Net position, end of
                                                special revenue C                    sources C                            D        Intragovernmental D                              D                   period
13              Exchange              N/A                                                       18                        101                             19                                            -43,745
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                                                      -97                       1,010                           263                                              2,119
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                                                       79                       1,111                           282                                            -41,626




                                                                                                       - 114 -
                                                                                                                                                                            11/15/2011 11:32:59

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 22           Earmarked Funds                                                                                         Fiscal Year: 2011           Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                              Agency Notes:       1, 24

  Status: Complete                        The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: G            Section Name: Number of Agency Earmarked Funds                                                 Line Attributes: Units


Line Status Line Description        NB      2011 - SEPTEMBER             2010 - SEPTEMBER                Previously Rptd    Line Item Changes
 1              Total number of     N/A                    29.0000                     29.0000                    29.0000                   .0000
                earmarked funds




                                                                                                    - 115 -
                                                                                                                                                                                               11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 22          Earmarked Funds                                                                                                  Fiscal Year: 2011                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                       Agency Notes:      1, 24

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Provide a general description of the individual earmarked funds reported in the Other Notes       Exchange Stabilization Fund (ESF)
                   Info tab (SFFAS No. 27, par. 33). Also describe how the entity accounts for and reports the       20X4444 Exchange Stabilization Fund
                   fund (SFFAS No. 27, par. 23.1).
                                                                                                                     D.C. Pensions
                                                                                                                     DCP 20X1713 Federal payment - D.C. Judicial retirement
                                                                                                                     DCP 20X1714 Federal payment - D.C. Federal Pension Fund
                                                                                                                     DCP 20X5511 D.C. Federal Pension Fund
                                                                                                                     DCP 20X8212 D.C. Judicial Retirement and Survivor's Annuity Fund

                                                                                                                     Public Enterprise Revolving Funds
                                                                                                                     BEP 20X4502 Bureau of Engraving and Printing Fund
                                                                                                                     MNT 20X4159 Public Enterprise Fund
                                                                                                                     OCC 20X8413 Assessment Funds
                                                                                                                     OCC 20X4264 Assessment Funds
                                                                                                                     OTS 20X4108 Public Enterprise Revolving Fund
                                                                                                                     IRS 20X4413 Federal Tax Lien Revolving Fund

                                                                                                                     Other Earmarked Funds
                                                                                                                     BPD 20X5080 Gifts to Reduce Public Debt
                                                                                                                     DO 20X5816 Confiscated and Vested Iraqi Property and Assets
                                                                                                                     DO 20X8790 Gifts and Bequests Trust Fund
                                                                                                                     FMD 20X5081 Presidential Election Campaign
                                                                                                                     FMD 20X8902 Esther Cattell Schmitt Gift Fund
                                                                                                                     FMD 9515585 Travel Promotion Fund, Corp for Travel Promotion
                                                                                                                     FMD 95X5585 Travel Promotion Fund, Corp for Travel Promotion
                                                                                                                     FMS 205/65445 Debt Collection Special Fund
                                                                                                                     FMS 206/75445 Debt Collection Special Fund
                                                                                                                     FMS 207/85445 Debt Collection Special Fund
                                                                                                                     FMS 208/95445 Debt Collection Special Fund
                                                                                                                     FMS 209/05445 Debt Collection Special Fund
                                                                                                                     FMS 200/15445 Debt Collection Special Fund
                                                                                                                     FMS 201/25445 Debt Collection Special Fund
                                                                                                                     IRS 20X5510 Private Collection Agency Program
                                                                                                                     IRS 20X5433 Informant Reimbursement
                                                                                                                     OFR 20X5590 Financial Research Fund
                                                                                                                     TFF 20X5697 Treasury Forfeiture

2                  State the legal authority for the administrative entity of each fund to use the revenues and      Pursuant to the legal authority found in section 10 of the Gold Reserve Act of 1934, as
                   other financing sources based on SFFAS No. 27, par. 23.1                                          amended, the ESF may purchase or sell foreign currencies, holds U.S. foreign
                                                                                                                     exchange and SDR assets, and may provide financing to foreign governments and
                                                                                                                     foreign entities. The ESF accounts for and reports its holdings to FMS on the Standard
                                                                                                                     Form 224, "Statement of Transactions," and provides other reports to Congress.
                                                                                                                     Interest on SDRs in the IMF, Investments in U.S. Securities (BPD), and Investments in
                                                                                                                     Foreign Currency Assets are its primary sources of revenue. The ESF's earnings and
                                                                                                                     realized gains on foreign currency assets represent inflows of resources to the


                                                                                                           - 116 -
                                                                                                                                                                                                 11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 22          Earmarked Funds                                                                                                   Fiscal Year: 2011                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                        Agency Notes:      1, 24

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
                                                                                                                      government, and the interest revenues earned from U.S. Securities are the result of
                                                                                                                      intra-Departmental flows.
                                                                                                                      D.C. Pension Funds provide annuity payments for retired D.C. teachers, police officers,
                                                                                                                      judges, and firefighters. The sources of revenues are through annual appropriations,
                                                                                                                      employees' contributions, and interest earnings from investments. All proceeds are
                                                                                                                      earmarked. Note 18 provides detailed information on various funds managed by DCP.
                                                                                                                      The Department's three non-appropriated bureaus as of September 30, 2011 - BEP,
                                                                                                                      Mint, and OCC - operate "public enterprise/revolving funds" to account for their
                                                                                                                      respective revenues and expenses. 31 USC § 5142 established the revolving fund for
                                                                                                                      BEP to account for revenue and expenses related to the currency printing activities.
                                                                                                                      P.L. 104-52 (31 USC § 5136) established the Public Enterprise Fund for the Mint to
                                                                                                                      account for all revenue and expenses related to the production and sale of numismatic
                                                                                                                      products and circulating coinage. Revenues and other financing sources at the Mint
                                                                                                                      are mainly from the sale of numismatic and bullion products, and the sale of circulating
                                                                                                                      coins to the FRB system. 12 USC § 481 established the Assessment Funds for OCC
                                                                                                                      and 12 USC § 1467 governs the collection and use of assessments and other funds by
                                                                                                                      OTS (merged with OCC on July 21, 2011). Revenue and financing sources are from
                                                                                                                      the bank examinations and assessments for the oversight of the national banks,
                                                                                                                      savings associations, and savings and loan holding companies. These non-
                                                                                                                      appropriated funds do not directly contribute to the inflows of resources to the
                                                                                                                      government. There are minimal transactions with other government agencies.
                                                                                                                      There are other earmarked funds at several Treasury bureaus, such as donations to the
                                                                                                                      Presidential Election Campaign Fund, funds related to the debt collection program, gifts
                                                                                                                      to reduce the public debt, and other enforcement related activities. Public laws, the
                                                                                                                      U.S. Code, and the Debt Collection Improvement Act established and authorized the
                                                                                                                      use of these funds. Sources of revenues and other financing sources include
                                                                                                                      contributions, cash and property forfeited in enforcement activities, public donations,
                                                                                                                      and debt collection.

3                  Explain any change in legislation during or subsequent to the reporting period and before the      N/A
                   issuance of the financial statements that significantly change the purpose of the fund or that
                   redirects a material portion of the accumulated balance (SFFAS No. 27, par. 23.3).
4                  Provide the sources of revenue and other financing for amounts reported in columns 3               see 2 above
                   through 8 of Sections E and F in the Other Notes Info tab (SFFAS No. 27, par. 23.2).
5                  Provide any other relevant information pertaining to this note, including explanation for prior-   The Department has accounted for revenues and other financing sources for
                   period adjustments, if any. At a minimum, describe briefly the significant accounting policies     earmarked funds separately from other funds. Earmarked funds are financed by
                   pertaining to this note.                                                                           specifically identified revenues, often supplemented by other financing sources, which
                                                                                                                      remain available over time. These specifically identified revenues and other financing
                                                                                                                      sources are required by statute to be used for designated activities or purposes.
                                                                                                                      SFFAS No. 27, Identifying and Reporting Earmarked Funds (SFFAS No. 27), defines
                                                                                                                      the following three criteria for determining an earmarked fund: (1) a statute committing
                                                                                                                      the U.S. Government to use specifically identified revenues and other financing sources
                                                                                                                      not used in the current period for future use to finance the designated activities,
                                                                                                                      benefits, or purposes; (2) explicit authority for the earmarked fund to retain revenues
                                                                                                                      and other financing sources not used in the current period for future use to finance the


                                                                                                            - 117 -
                                                                                                                                                                                          11/15/2011 11:32:59

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                 GF006 - FR Notes Report

   Note: 22         Earmarked Funds                                                                                              Fiscal Year: 2011                 Period: SEPTEMBER
  Entity: 2000      Department of the Treasury                                                                                   Agency Notes:       1, 24

 Status: Complete                     The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line             Question                                                                                      Answer
                                                                                                               designated activities, benefits, or purposes; and (3) a requirement to account for and
                                                                                                               report on the receipt, use, and retention of the revenues and other financing sources
                                                                                                               that distinguished the earmarked fund from the U.S. Government's general revenues.




                                                                                                - 118 -
                                                                                                                                                                            11/15/2011 11:32:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

    Note: 23           Statement of Social Insurance (a Principal Financial Statement)                                               Fiscal Year: 2011      Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                    Agency Notes:    N/A

 Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Text Data                         No Data Flag: YES
Line               Question                                                                                              Answer
7                  Provide relevant information (per SFFAS No. 17, par. 26) about any policy changes enacted
                   after the valuation date, but prior to the end of the fiscal year, that could materially affect the
                   basic statement.
8                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant accounting policies pertaining to this note.




                                                                                                              - 119 -
                                                                                                                                                             11/15/2011 11:32:59

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                 GF006 - FR Notes Report

 Note: 24          Social Insurance                                                                                   Fiscal Year: 2011      Period: SEPTEMBER
Entity: 2000       Department of the Treasury                                                                         Agency Notes:    N/A

Status: Complete                      The accompanying notes are an integral part of these financial statements.   I = Inactive Line




                                                                                                - 120 -
                                                                                                                                                                                  11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 25            Stewardship Land                                                                                          Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                Agency Notes:     N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: A             Section Name: Stewardship Land (SFFAS No. 29, par. 40d)               No Data Flag: YES           Line Attributes: Units


Line Status Line Description         NB       2011 - SEPTEMBER             2010 - SEPTEMBER                Previously Rptd     Line Item Changes
 1              Public Land          N/A
 2              National Forest      N/A
                System
 3              National Wildlife    N/A
                Refuge System
 4              National Park        N/A
                System
 5              Withdrawn public     N/A
                land
 6              Mission Land         N/A
 7              Water, power,and     N/A
                recreation
 8              Geographic           N/A
                management areas
 9              National fish        N/A
                hatcheries
10              Conservation areas   N/A
11              National marine      N/A
                monuments
12              All other            N/A
       Section: B             Section Name: Stewardship Land (SFFAS No. 29, par. 40d)-              No Data Flag: YES           Line Attributes: Units
                                            Unaudited
Line Status Line Description         NB      CY Beginning Balance                 CY Acquired                   CY Withdrawn   CY Ending Balance         PY Beginning Balance         PY Acquired

 1        I     Public Land          N/A
 2        I     National Forest      N/A
                System
 3        I     National Wildlife    N/A
                Refuge System
 4        I     National Park        N/A
                System
 5        I     Withdrawn Public     N/A
                Land
 6        I     Mission Land         N/A
 7        I     Water, Power, and    N/A
                Recreation



                                                                                                      - 121 -
                                                                                                                                                                                 11/15/2011 11:32:59

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 25           Stewardship Land                                                                                          Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                Agency Notes:     N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: B           Section Name: Stewardship Land (SFFAS No. 29, par. 40d)-               No Data Flag: YES           Line Attributes: Units
                                          Unaudited
Line Status Line Description        NB      CY Beginning Balance                 CY Acquired                   CY Withdrawn   CY Ending Balance         PY Beginning Balance         PY Acquired

 8        I     Geographic          N/A
                Management Areas
 9        I     National Fish       N/A
                Hatcheries
10        I     Conservation        N/A
                Areas
11        I     National Marine     N/A
                Monuments
12        I     All other           N/A

Line Status Line Description        NB               PY Withdrawn          PY Ending Balance
 1        I     Public Land         N/A
 2        I     National Forest     N/A
                System
 3        I     National Wildlife   N/A
                Refuge System
 4        I     National Park       N/A
                System
 5        I     Withdrawn Public    N/A
                Land
 6        I     Mission Land        N/A
 7        I     Water, Power, and   N/A
                Recreation
 8        I     Geographic          N/A
                Management Areas
 9        I     National Fish       N/A
                Hatcheries
10        I     Conservation        N/A
                Areas
11        I     National Marine     N/A
                Monuments
12        I     All other           N/A




                                                                                                     - 122 -
                                                                                                                                                                     11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

    Note: 25          Stewardship Land                                                                                        Fiscal Year: 2011      Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                              Agency Notes:    N/A

 Status: Complete                        The accompanying notes are an integral part of these financial statements.        I = Inactive Line

Tab: Text Data                       No Data Flag: YES
Line               Question                                                                                       Answer
1                  Describe the predominant uses of the stewardship land (SFFAS 29, par. 40c).
2                  Provide the condition of the stewardship land (SFFAS 29, par. 41).
3                  Provide a brief statement explainng how the stewardship land relates to the mission of the
                   agency (SFFAS No. 29, par. 40a).
4                  Provide a brief description of the agency's stewardship policies for stewardsip land (SFFAS
                   No. 29, par. 40b).
5                  Provide any other information relevant information pertaining to this note. At a minimum,
                   describe briefly the significant accounting policies pertaining to this note.




                                                                                                        - 123 -
                                                                                                                                                                                       11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 26               Heritage Assets                                                                                          Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 2000           Department of the Treasury                                                                               Agency Notes:     1 and 14

  Status: Complete                            The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: A               Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.      No Data Flag: YES          Line Attributes: Units
                                              25d)
Line Status Line Description            NB        Physical units at the    Physical units at the end
                                                 end of the fiscal year     of the fiscal year 2010
                                                                2011
 1                                      N/A
 2                                      N/A
 3                                      N/A
 4                                      N/A
 5                                      N/A


       Section: B               Section Name: Non-Collection Type Heritage Assets (SFFAS No.                                      Line Attributes: Units
                                              29, par. 25d)
Line Status Line Description            NB        Physical units at the    Physical units at the end
                                                 end of the fiscal year     of the fiscal year 2010
                                                                2011
 1              Buildings               N/A                       6.0000                    5.0000
 2                                      N/A
 3                                      N/A
 4                                      N/A
 5                                      N/A


       Section: C               Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.      No Data Flag: YES          Line Attributes: Units
                                              25d) - Unaudited
Line Status Line Description            NB     CY Physical units as of     CY Physical units added            CY Physical units   CY Physical units-           PY Physical units   PY Physical units added
                                                 the beginning of the                                             withdrawn        ending balance            beginning balance
                                                               year
 1        I                             N/A
 2        I                             N/A
 3        I                             N/A
 4        I                             N/A
 5        I                             N/A




                                                                                                         - 124 -
                                                                                                                                                                               11/15/2011 11:32:59

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                  GF006 - FR Notes Report

     Note: 26        Heritage Assets                                                                                         Fiscal Year: 2011             Period: SEPTEMBER
     Entity: 2000    Department of the Treasury                                                                              Agency Notes:     1 and 14

  Status: Complete                     The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C        Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.     No Data Flag: YES          Line Attributes: Units
                                       25d) - Unaudited
Line Status Line Description     NB          PY Physical units    PY Physical units-ending
                                                 withdrawn                       balance
 1        I                      N/A
 2        I                      N/A
 3        I                      N/A
 4        I                      N/A
 5        I                      N/A



       Section: D        Section Name: Non-Collection Type Heritage Assets (SFFAS No.          No Data Flag: YES          Line Attributes: Units
                                       29, par. 25d) - Unaudited
Line Status Line Description     NB         CY Physical units      CY Physical units added            CY Physical units   CY Physical units-           PY Physical units   PY Physical units added
                                          beginning balance                                               withdrawn        ending balance            beginning balance
 1        I                      N/A
 2        I                      N/A
 3        I                      N/A
 4        I                      N/A
 5        I                      N/A

Line Status Line Description     NB          PY Physical units    PY Physical units-ending
                                                 withdrawn                       balance
 1        I                      N/A
 2        I                      N/A
 3        I                      N/A
 4        I                      N/A
 5        I                      N/A




                                                                                                 - 125 -
                                                                                                                                                                                             11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 26          Heritage Assets                                                                                                 Fiscal Year: 2011                 Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                     Agency Notes:      1 and 14

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Provide a brief statement explaining how heritage assets relate to the mission of the agency     The buildings are muti-use assets and house administrative staff.
                   (SFFAS No. 29, par. 25a).
2                  Provide a brief description of the agency's stewardship policies for each major category of      N/A
                   the heritage assets (SFFAS No. 29, par. 25b).
3                  Provide a brief description of the condition of each category of the heritage assets (SFFAS      Good
                   29, par. 26).
4                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   Heritage Assets
                   the significant accounting policies pertaining to this note.                                     The Department owns the Treasury Complex (Main Treasury and Treasury Annex) - a
                                                                                                                    multi-use heritage asset. The buildings housing the Mint facilities in Denver, San
                                                                                                                    Francisco, Fort Knox, and West Point, are also considered multi-use heritage assets.
                                                                                                                    Multi-use heritage assets are assets of historical significance for which the
                                                                                                                    predominant use is general government operations. All acquisition, reconstruction, and
                                                                                                                    betterment costs for the Treasury buildings are capitalized as general PP&E and
                                                                                                                    depreciated over their service life.

                                                                                                                    In fiscal year 2011, Treasury added the Fort Knox complex to the AFR disclosure of
                                                                                                                    heritage assets. No actual buildings have been added to Treasury¿s real property, only
                                                                                                                    the numbers of buildings included in the presentation disclosure Fort Knox has been
                                                                                                                    included in prior years and just not disclosed.




                                                                                                          - 126 -
                                                                                                                                                                                               11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 27           Fiduciary Activities                                                                                                Fiscal Year: 2011               Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                          Agency Notes:        1 and 27

  Status: Complete                             The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -                                          Line Attributes: Dollars
                                           Current Year                                                                              Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
 6              The Department of    N/A                                  0                     451                           0                              0                         0                        0
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All Other Funds      N/A                              77                        336                                                                                    0
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A

Line Status Line Description          NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                    to beneficiaries C
 6              The Department of    N/A                                  0                       0                         451
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All Other Funds      N/A                                                                                    413
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
       Section: B            Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -                                          Line Attributes: Dollars
                                           Prior Year                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
 6              The Department of    N/A                                                        420
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All Other Funds      N/A                              98                         39                                                                                   19
 9                                   N/A
10                                   N/A



                                                                                                          - 127 -
                                                                                                                                                                                               11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 27           Fiduciary Activities                                                                                                Fiscal Year: 2011               Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                          Agency Notes:        1 and 27

  Status: Complete                             The accompanying notes are an integral part of these financial statements.                I = Inactive Line


       Section: B            Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -                                          Line Attributes: Dollars
                                           Prior Year                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
11                                   N/A
12                                   N/A

Line Status Line Description          NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                    to beneficiaries C
 6              The Department of    N/A                                                                                    420
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All Other Funds      N/A                                                                                    156
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
       Section: C            Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES               Line Attributes: Dollars
                                           Funds- Current Year                                                                       Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A

Line Status Line Description          NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                    to beneficiaries C
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A




                                                                                                          - 128 -
                                                                                                                                                                                                 11/15/2011 11:32:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 27            Fiduciary Activities                                                                                                 Fiscal Year: 2011               Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                           Agency Notes:        1 and 27

  Status: Complete                              The accompanying notes are an integral part of these financial statements.                 I = Inactive Line


       Section: D             Section Name: Schedule of Fiduciary Net Assets - All Other Agency          No Data Flag: YES               Line Attributes: Dollars
                                            Funds - Prior Year                                                                         Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL          Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                  net of unam. prems &         account 1010 only) D        Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                               discs. D                                                                                       D
 3                                    N/A
 4                                    N/A
 5                                    N/A
 6                                    N/A
 7                                    N/A

Line Status Line Description           NB        Liability due & payable           Other liabilities C   Total fiduciary net assets
                                                     to beneficiaries C
 3                                    N/A
 4                                    N/A
 5                                    N/A
 6                                    N/A
 7                                    N/A
       Section: E             Section Name: Number of Agency Fiduciary Activities                                                         Line Attributes: Units


Line Status Line Description           NB           CY Total number of             PY Total number of
                                                    fiduciary funds- all    fiduciary funds- all funds
                                                                funds
 1              Number of             N/A                         24.0000                    25.0000
                Treasury Fiduciary
                Activities
 2                                    N/A
 3                                    N/A
 4                                    N/A




                                                                                                            - 129 -
                                                                                                                                                                                              11/15/2011 11:32:59

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

    Note: 27           Fiduciary Activities                                                                                              Fiscal Year: 2011               Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                        Agency Notes:     1 and 27

 Status: Complete                             The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line               Question                                                                                             Answer
1                  Describe the fiduciary relationship, for example, the applicable legal authority, the objectives     Bureau Fund Code Authority Fund Title/Description
                   of the fiduciary activity, and a general description of the beneficial owners or class of owners     BEP 20X6513.013 31 USC 5119 Mutilated Currency Claims Funds
                   of each fiduciary fund (SFFAS No. 31, par. 18(a)).                                                   BPD 20X6008 31 USC 3513 Payment Principal & Interest Govt. Agencies
                                                                                                                        FMD 20X6045 31 USC 3328 Proceeds, Payments of Unpaid Checks
                                                                                                                        FMD 20X6048 31 USC 3329, 3330 Proceeds of Withheld Foreign Checks
                                                                                                                        FMD 2015X6078 50 APP. USC 2012 War Claims Fund, Foreign Claims Settlement
                                                                                                                        Commission
                                                                                                                        FMD 20X6092 31 USC 1321 Debt Management Operations
                                                                                                                        FMD 20X6104 22 USC 1627 Albanian Claims Fund, Treasury
                                                                                                                        FMD 20X6133 31 USC 1322 Payment of Unclaimed Moneys
                                                                                                                        FMD 20X6309 22 USC 1627(a) Libyan Claims Settlement Fund
                                                                                                                        FMD 20X6310 22 USC 1627(a) Libyan Claims Settlement Fund
                                                                                                                        FMD 20X6311 98 Stat. 1876 Kennedy Center Revenue Bond
                                                                                                                        FMD 20X6312 22 USC 1627 Iranian Claims Settlement Fund
                                                                                                                        FMD 20X6314 22 USC 1644g German Democrat Settlement Fund
                                                                                                                        FMD 20X6315 22 USC 1645h Vietnam Claims Settlement Fund
                                                                                                                        FMD 20X6501.018 31 USC 3513 Small Escrow Amounts
                                                                                                                        FMD 20X6720 31 USC 3513 SM DIF Account for Dep. & Check Adj.
                                                                                                                        FMD 20X6830 104 Stat. 1061 Net Interest Payments to/from State
                                                                                                                        FMD 20X6999 31 USC 3513 Accounts Payable, Check Issue UNDDR
                                                                                                                        IRS 20X6737 90 Stat. 269-270 Internal Revenue Collections for Northern Mariana
                                                                                                                        Island
                                                                                                                        IRS 20X6738 31 USC 3513 Coverover Withholdings-U.S. Virgin Islands
                                                                                                                        IRS 20X6740 31 USC 3515 Coverover Withholdings-Guam
                                                                                                                        IRS 20X6741 31 USC 3513 Coverover Withholdings-American Samoa
                                                                                                                        OAS 20X6317.001 22 USC 2431 Belize Escrow, Debt Reduction
                                                                                                                        OAS 20X6501.018 31 USC 3513 Small Escrow Amounts

2                  Provide information on any significant changes in fiduciary net assets from the prior period         N/A
                   (SFFAS No. 31, par. 18(c)).
3                  Provide the TAS for all funds with fiduciary activities.                                             see #1
4                  For any cash included in the Schedules of Fiduciary Net Assets, indicate if the cash is              N/A
                   represented by balances on deposit with either the U.S. Treasury or with a commercial
                   banking institution (SSFAS No. 31, par. 12).
5                  Provide a description of any cash equivalents included in the Schedules of Fiduciary Net             N/A
                   Assets.
6                  If separate audited financial statements are issued for an individual fiduciary activity with a      N/A
                   fiscal yearend other than September 30, indicate the fiduciary activity's fiscal year (SFFAS
                   No. 31, par. 18(e)).
7                  If separate audited financial statements are issued for an individual fiduciary activity, disclose   N/A
                   the basis of accounting used and the auditor's opinion on the current or most recent financial
                   statements. If the auditor's opinion was not unqualified, disclose the reason(s) stated by the
                   auditors and refer the reader to the audit opinion for further information (SFFAS No. 31, par.
                   22(a)).


                                                                                                             - 130 -
                                                                                                                                                                                                  11/15/2011 11:32:59

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 27          Fiduciary Activities                                                                                              Fiscal Year: 2011                 Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                        Agency Notes:       1 and 27

 Status: Complete                             The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line               Question                                                                                            Answer
8                  If separate audited financial statements are issued for an individual fiduciary activity, provide   N/A
                   information on how the reader can obtain a copy of the financial statements and the audit
                   opinion thereon (SFFAS No. 31, par. 22(b)).
9                  If more than one agency is responsible for administering a fiduciary activity, and the separate     N/A
                   portions of the activity can be clearly identified with another responsible agency, identify the
                   other agency(ies) involved in managing the activity (SFFAS No.31.par.19).
10                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly      In accordance with SFFAS No. 31, Accounting for Fiduciary Activities, fiduciary type
                   the significant accounting policies pertaining to this note.                                        activities and related transactions will no longer be reported by the Department in its
                                                                                                                       proprietary financial statements. Fiduciary activities are the collection or receipt, and
                                                                                                                       the management, protection, accounting, investment, and disposition by the U.S.
                                                                                                                       Government of cash or other assets in which non-Federal individuals or entities have
                                                                                                                       an ownership interest that the U.S. Government must uphold. Fiduciary cash and other
                                                                                                                       assets are not assets of the U.S. Government. While these activities are not reported in
                                                                                                                       the Department's consolidated financial statements, they are required to be reported on
                                                                                                                       schedules in the notes to the financial statements (Note 27).




                                                                                                            - 131 -
                                                                                                                                                                                                  11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 28A         Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)                  Fiscal Year: 2011                Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                         Agency Notes:      1 and 8

  Status: Complete                        The accompanying notes are an integral part of these financial statements.                   I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account      2011 - SEPTEMBER          2010 - SEPTEMBER
                                                                                   Type
Investment in Government sponsored enterprises (GSEs)                      D         A                      133,043                 109,216
                                                                                Variance:                         0                       0         Rounding Method: Millions                Decimal: Zero
Line Status Line Description         CY Gross investment as of       CY Cumulative valuation           CY September 30 fair PY Gross investment as of        PY Cumulative valuation PY September 30 fair value
                                            September 30                    (gain/loss)                         value              September 30                     (gain/loss)
 1           Fannie Mae senior                        104,627                        -26,718                        77,909                    85,941                         -29,450                    56,491
             preferred stock
 2           Freddie Mac senior                            66,004                      -12,380                          53,624                     63,924                      -12,759                         51,165
             preferred stock
 3           Fannie Mae warrants                            3,104                        -2,137                            967                      3,104                        -2,097                         1,007
             common stock
 4           Freddie Mac warrants                           2,264                        -1,721                            543                      2,264                        -1,711                              553
             common stock
 5
 6
 7
 8           Total GSE investment
             Total                                         175,999                      -42,956                        133,043                    155,233                       -46,017                       109,216
Threshold

 Line Description                                              Question                                                                 Answer
 Line Item Notes - Fannie Mae senior preferred stock (CY       Please provide explanations for any amounts that have                   Most of the increase in fiscal year 2011 is due to investment in Fannie Mae
 Gross investment as of September 30)                          changed by 10% or more and or greater than $500,000                     in which there was an $18.7 billion increase in the liquidity preference in
                                                               between the current fiscal year and prior fiscal year (unaudited).      Fannie Mae's preferred stock due to payments made to this GSE, coupled
                                                                                                                                       with a $2.7 billion increase in valuation from September 2010 to 2011, due
                                                                                                                                       to lower early delinquencies on additions to their credit books in 2009
                                                                                                                                       through 2011. This favorable early delinquency experience is an
                                                                                                                                       improvement compared with the loans originated in 2005 through 2008.
 Line Item Notes - Fannie Mae senior preferred stock (CY       Please provide explanations for any amounts that have                   See explantion above for Fannie Mae.
 September 30 fair value)                                      changed by 10% or more and or greater than $500,000
                                                               between the current fiscal year and prior fiscal year (unaudited).




                                                                                                         - 132 -
                                                                                                                                                                                              11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28A          Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)             Fiscal Year: 2011                Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                    Agency Notes:        1 and 8

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Other Related Information                                                             Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                           Decimal: Zero
Line Status Line Description          NB        2011 - SEPTEMBER             2010 - SEPTEMBER                 Previously Rptd    Line Item Changes
 1             Revenue               Credit                      23,827                      44,536                                              44,536
               recognized from
               acquisition of
               preferred stocks
               and warrants and
               valuation
               (gain)/loss on GSE
               preferred stocks
 2             Revenue               Credit                      15,588                      12,142                                              12,142
               recognized from
               dividends and
               periodic
               commitment fees
 3             The dollar amount     Debit                            0                           0                                                    0
               of liquidation
               preference value
               per share of senior
               preferred stock
 4             Amount of agency      Debit                            0                           0                                                    0
               MBS purchase for
               Fannie Mae and
               Freddie Mac
 5             Amount of agency      Debit                            0                           0                                                    0
               debt purchased for
               Fannie Mae and
               Freddie Mac
Threshold
 Line Description                                                 Question                                                         Answer
 Other Notes Info - Revenue recognized from acquisition of        Please provide explanations for any amounts that have            In fiscal year 2011, there was a $31.8 billion decrease in actual payments
 preferred stocks and warrants and valuation (gain)/loss on       changed by 10% or more and or greater than $500,000              made to GSEs due to both GSEs reporting lower early delinquencies on
 GSE preferred stocks (2011 - SEPTEMBER)                          between the current fiscal year and prior fiscal year            additions to their credit books in 2009 through 2011. This favorable early
                                                                  (unaudited).                                                     delinquency experience is an improvement compared with loans originated
                                                                                                                                   in 2005 through 2008. Thus required draws to the GSEs to cover their
                                                                                                                                   deficits were reduced.

                                                                                                                                   In fiscal year 2011, with improved financial conditions of the GSEs there was
                                                                                                                                   a valuation gain $3.1 billion on the Departements investments in the GSEs
                                                                                                                                   preferred stock and warrants compared to an $8.1 billion valuation loss in
                                                                                                                                   fiscal year 2010.



                                                                                                         - 133 -
                                                                                                                                                                                             11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28A           Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)          Fiscal Year: 2011                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                 Agency Notes:      1 and 8

  Status: Complete                         The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: A             Section Name: Other Related Information                                                           Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                           Decimal: Zero
Threshold
 Line Description                                               Question                                                         Answer
 Other Notes Info - Revenue recognized from dividends and       Please provide explanations for any amounts that have            GSEs Preferred Stock Dividends increased by $3.4 billion due to the
 periodic commitment fees (2011 - SEPTEMBER)                    changed by 10% or more and or greater than $500,000              increase in gross investments in the GSEs. The senior preferred stock
                                                                between the current fiscal year and prior fiscal year            accrues dividends at 10.0 percent per year, payable quarterly. This rate will
                                                                (unaudited).                                                     increase to 12.0 percent if, in any quarter, the dividends are not paid in
                                                                                                                                 cash, until all accrued dividends have been paid.




       Section: B             Section Name: Other Related Information (in Percentages)                                          Line Attributes: Percent


Line Status Line Description         NB      2011 - SEPTEMBER              2010 - SEPTEMBER                 Previously Rptd    Line Item Changes
 1             Nominal cost          N/A                     79.9000                     79.9000                                             79.9000
               percentage of
               common stock on a
               fully diluted basis
 2             Rate of dividends     N/A                     10.0000                     10.0000                                             10.0000




       Section: C             Section Name: Other Related Information in Units                                                  Line Attributes: Units


Line Status Line Description         NB      2011 - SEPTEMBER              2010 - SEPTEMBER                 Previously Rptd    Line Item Changes
 1             Number of non-        N/A              2,000,000.0000              2,000,000.0000                                      2,000,000.0000
               voting senior
               preferred stock -
               shares




                                                                                                       - 134 -
                                                                                                                                                                                                11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 28A        Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)                Fiscal Year: 2011                   Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                      Agency Notes:       1 and 8

 Status: Complete                       The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line             Question                                                                                         Answer
1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly   FMS Services PLEASE record JV to eliminate amount reported in Other Notes Info -
                 the significant                                                                                  Section A, Line 1 of $23,827 million due to this is a net cost at the government-wide
                 accounting policies pertaining to this note.                                                     level.

                                                                                                                  Investments in Government Sponsored Enterprises (GSEs)
                                                                                                                  The Department holds the preferred stock of two stockholder-owned GSEs, the
                                                                                                                  Federal National Mortgage Association (Fannie Mae) and the Federal Home Loan
                                                                                                                  Mortgage Corporation (Freddie Mac). The senior preferred stock and associated
                                                                                                                  common stock warrants in the GSEs are presented at their fair value. Changes in the
                                                                                                                  valuation of these investments are recorded as non-entity exchange transactions on
                                                                                                                  the Department's Consolidated Statements of Net Cost. Dividends are also recorded
                                                                                                                  as non-entity exchange transactions and are accrued when declared; therefore, no
                                                                                                                  accrual is made for future dividends.

                                                                                                                  The GSE Senior Preferred Stock Purchase Agreements provide that the Department
                                                                                                                  will increase its investment in the GSEs' senior preferred stock if, at the end of any
                                                                                                                  quarter, the Federal Housing Finance Agency, acting as the conservator, determines
                                                                                                                  that the liabilities of either GSE, individually, exceed its respective assets. As the funds
                                                                                                                  used to pay these excess liabilities are appropriated directly to the Department, such
                                                                                                                  payments are treated as entity expenses and reflected as such on the Consolidated
                                                                                                                  Statements of Net Cost and Cumulative Results of Operations. These payments also
                                                                                                                  result in an increase to the non-entity investment in the GSEs' preferred stock, with a
                                                                                                                  corresponding increase in Due to the General Fund, as the Department holds the
                                                                                                                  investment on behalf of the General Fund.




                                                                                                        - 135 -
                                                                                                                                                                                                  11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28B           Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)             Fiscal Year: 2011                 Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                     Agency Notes:        1 and 8

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account      2011 - SEPTEMBER        2010 - SEPTEMBER
                                                                                    Type
Liabilities to Government Sponsored Enterprises                              C        L                     316,230              359,900
                                                                                 Variance:                        0                    0            Rounding Method: Millions               Decimal: Zero
Line Status Line Description             2011 - SEPTEMBER             2010 - SEPTEMBER                  Previously Rptd         Line Item Changes
 1            GSE accrued liability
 2            GSE contingent                               316,230                      359,900                       359,900                            0
              liability
 3            Private entities entered
              liability
 4
 5
 6
 7           All other liabilities
             Total                                         316,230                       359,900                      359,900                            0
Threshold

 Line Description                                                Question                                                             Answer
 Line Item Notes - GSE contingent liability (2011 -              Please provide explanations for any amounts that have               This accrued contingent liability is based on the projected draws under the
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between          Senior Preferred Stock Agreement with Fannie Mae and Freddie Mac. It is
                                                                 the current fiscal year and prior fiscal year. (Unaudited)          undiscounted and does not take into account any of the offsetting dividends
                                                                                                                                     which may be received as a result of those draws. The reduction in this
                                                                                                                                     liability is a result of payments made to the GSEs, coupled with the effect of
                                                                                                                                     annual valuations which reduced the projected contingent liability due to
                                                                                                                                     lower delinquencies reported by the GSEs on additions to their credit books
                                                                                                                                     in 2009 through 2011. This favorable early delinquency experience is an
                                                                                                                                     improvement compared with the loans originated in 2005 through 2008.

                                                                                                                                      Actual payments to the GSEs for fiscal years ended September 30, 2011
                                                                                                                                     and 2010 were $20.8 billion and $52.6 billion, respectively.




                                                                                                          - 136 -
                                                                                                                                                                                             11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 28B         Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)              Fiscal Year: 2011               Period: SEPTEMBER
     Entity: 2000      Department of the Treasury                                                                                      Agency Notes:        1 and 8

  Status: Complete                        The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A           Section Name: Other Related Information                                                                Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB       2011 - SEPTEMBER               2010 - SEPTEMBER                  Previously Rptd      Line Item Changes
 1             Actual payment     Debit                       20,766                       52,600                       52,600                          0
               made to the GSE
Threshold
 Line Description                                              Question                                                             Answer
 Other Notes Info - Actual payment made to the GSE (2011 -     Please provide explanations for any amounts that have                Both GSEs reported lower early delinquencies on additions to their credit
 SEPTEMBER)                                                    changed by 10% or more and or greater than 500,000                   books in 2009 through 2011. This favorable early delinquency experience is
                                                               between the current fiscal year and prior fiscal year.               an improvement compared with the loans originated in 2005 through 2008.
                                                               (Unaudited)




                                                                                                        - 137 -
                                                                                                                                                                                                 11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 28B        Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)                 Fiscal Year: 2011                  Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                        Agency Notes:       1 and 8

 Status: Complete                       The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Text Data
Line             Question                                                                                            Answer
1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly      The SPSPAs, which have no expiration date, provide for the Department to disburse
                 the significant accounting policies pertaining to this note.                                        funds to the GSEs if, at the end of any quarter, the FHFA determines that the liabilities
                                                                                                                     of either GSE exceed its assets. The maximum amount available to each GSE under
                                                                                                                     this agreement was originally $100.0 billion and, in May 2009, the maximum amount
                                                                                                                     was raised to $200.0 billion. In December 2009, the Department amended the SPSPAs
                                                                                                                     to replace the $200.0 billion per GSE funding commitment cap with a formulaic cap that
                                                                                                                     will allow continued draws for three years at amounts that will automatically adjust
                                                                                                                     upwards quarterly by the cumulative amount of any losses realized by either GSE and
                                                                                                                     downward by the cumulative amount of any gains, but not below $200.0 billion, and will
                                                                                                                     become fixed at the end of the three years. At the conclusion of the three-year period
                                                                                                                     ending December 2012, the remaining commitment will then be fully available to be
                                                                                                                     drawn per the terms of the agreements (referred to hereafter as the "Adjusted Caps").
                                                                                                                     Draws against the funding commitment of the SPSPAs do not result in the issuance of
                                                                                                                     additional shares of senior preferred stock; instead, the liquidation preference of the
                                                                                                                     initial 1,000,000 shares is increased by the amount of the draw.

                                                                                                                     The liabilities to the GSEs related to the Senior Preferred Stock Purchase Agreement
                                                                                                                     (SPSPA) is a contingent liquidity commitment, predicated on the future occurrence of
                                                                                                                     excess liabilities over the assets of either GSE at the end of any reporting quarter, and
                                                                                                                     are potential liabilities of the Department. The Department performs annual valuations,
                                                                                                                     as of September 30th, on the Department's GSE investments in an attempt to provide a
                                                                                                                     "sufficiently reliable" estimate of the outstanding commitments in order for the
                                                                                                                     Department to record the remaining liability in accordance with SFFAS No. 5,
                                                                                                                     Accounting for Liabilities of the U.S. Government.

                                                                                                                     The valuations incorporated various forecasts, projections and cash flow analyses to
                                                                                                                     develop an estimate of potential liability. Any changes in valuation, including
                                                                                                                     impairment, are recorded and disclosed in accordance with SFFAS No. 7, Accounting
                                                                                                                     for Revenue and Other Financing Sources. Since the valuation is an annual process,
                                                                                                                     the change in valuation of the Department's GSE investments are deemed usual and
                                                                                                                     recurring. The GSEs contingent liability is assessed annually and recorded at the gross
                                                                                                                     estimated amount, without considering the increase in preferred stock liquidity
                                                                                                                     preference, future dividend payments, or future commitment fees, due to the
                                                                                                                     uncertainties involved.

                                                                                                                     Estimation of such complex and long duration contingencies is subject to uncertainty,
                                                                                                                     and it is possible that new developments will adversely impact ultimate amounts
                                                                                                                     required to be funded by the Department under agreements between the Department
                                                                                                                     and each GSE. Specifically, the occurrence of future shareholder deficits, which
                                                                                                                     ultimately determines the Department's liabilities to the GSEs, is most sensitive to
                                                                                                                     future changes in the housing price index.




                                                                                                        - 138 -
                                                                                                                                                                                    11/15/2011 11:32:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 29A          Derivative Assets                                                                                           Fiscal Year: 2011               Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                  Agency Notes:      N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2011 - SEPTEMBER        2010 - SEPTEMBER
                                                                                  Type
Derivative Assets                                                          D        A                           0                  0
                                                                               Variance:                        0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description           2011 - SEPTEMBER             2010 - SEPTEMBER                Previously Rptd         Line Item Changes
 1           Interest rate contracts
 2           Foreign exchange
             contracts
 3           Equity contracts
 4           Commodity contracts
 5           Credit contracts
 6           All other contracts
             Total




                                                                                                      - 139 -
                                                                                                                                                                                     11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                         Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Hedge Derivative Assets                                  No Data Flag: YES         Line Attributes: Dollars
                                                                                                                             Rounding Method: Millions                       Decimal: Zero
Line Status Line Description          NB           CY Cost Basis D      CY Fair Value Adjustment      CY Fair Market Value       PY Cost Basis D       PY Fair Value Adjustment   PY Fair Market Value
                                                                                              D                                                                              D
 1             Interest rate          N/A
               contracts
 2             Foreign exchange       N/A
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A
 6             All other contracts    N/A
 7             Total hedge            N/A
               derivative contracts
       Section: B             Section Name: Non-Hedge Derivative Assets                              No Data Flag: YES         Line Attributes: Dollars
                                                                                                                             Rounding Method: Millions                       Decimal: Zero
Line Status Line Description          NB           CY Cost Basis D      CY Fair Value Adjustment      CY Fair Market Value       PY Cost Basis D       PY Fair Value Adjustment   PY Fair Market Value
                                                                                              D                                                                              D
 1             Interest rate          N/A
               contracts
 2             Foreign exchange       N/A
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A
 6             All other contracts    N/A
 7             Total non-hedge        N/A
               derivative contracts




                                                                                                       - 140 -
                                                                                                                                                                             11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                           Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                  Agency Notes:    N/A

  Status: Complete                            The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: C             Section Name: Gain/Loss on Derivative Assets Designated as              No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                Rounding Method: Millions             Decimal: Zero
Line Status Line Description           NB       2011 - SEPTEMBER             2010 - SEPTEMBER                Previously Rptd    Line Item Changes
 1             Interest rate          Debit
               contracts
 2             Foreign exchange       Debit
               contracts
 3             Equity contracts       Debit
 4             Commodity              Debit
               contracts
 5             Credit contracts       Debit
 6             All other contracts    Debit
 7             Total reclassified     N/A
               derivative gain/loss
       Section: D             Section Name: Gain/Loss on Derivative Assets Not Designated as          No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                Rounding Method: Millions             Decimal: Zero
Line Status Line Description           NB       2011 - SEPTEMBER             2010 - SEPTEMBER                Previously Rptd    Line Item Changes
 1             Interest rate          Debit
               contracts
 2             Foreign exchange       Debit
               contracts
 3             Equity contracts       Debit
 4             Commodity              Debit
               contracts
 5             Credit contracts       Debit
 6             All other contracts    Debit
 7             Total recognized       N/A
               derivative gain/loss




                                                                                                        - 141 -
                                                                                                                                                                         11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 29A         Derivative Assets                                                                                          Fiscal Year: 2011      Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                 Agency Notes:    N/A

 Status: Complete                          The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                           Answer
1                  Provide disclosures for the objectives for holding or issuing derivatives, the context needed
                   to
                   understand these objectives, as well as strategies for achieving these objectives (FASB ASC
                   815-
                   10-50-1A).
2                  Provide disclosures for the volume of derivative activity (FASB ASC 815-10-50-1B).
3                  Provide disclosures on the location of fair value amounts of derivate instruments (both
                   assets and
                   liabilities, respectively) on the Balance Sheet (FASB ASC 815-10-50-4A).
4                  Provide disclosures on the location of gains or losses recognized into earnings (FASB ASC
                   815-
                   10-50-4A)
5                  Provide of the effective portion of gains and losses, by contract type, on derivative
                   instruments classified as either cashflow or net investment hedges that are being reclassified
                   into earnings during the current period (FASB ASC 815-
                   10-50-4C).
6                  Provide the effective portion of gains and losses, by contract type, on derivative instruments
                   classified as either cashflow or net investment hedges that are recognized in other
                   comprehensive
                   income during the current period (FASB ASC 815-10-50-4C).
7                  Provide the portion of gains and losses, by contract type, on derivative instruments classified
                   as
                   either cashflow or net investment hedges that represent the amount of the hedges
                   ineffectiveness
                   or the amount, if any, excluded from the assessment of the hedge effectiveness (FASB ASC
                   815-
                   10-50-4C).
8                  Provide a description of the nature of trading activities for no-hedge designated derivative
                   instruments and related risks, including how the entity manages those risks. Explain the use
                   of
                   any alternative disclosures for trading activities, if applicable (FASB ASC 815-10-50-4F).
9                  Provide a description on the existence and nature of credit-risk related contingent features
                   and
                   the circumstances in which the features could be triggered in derivative instruments that are
                   in a
                   net liability position at the end of the reporting period. Include disclosures related to posted
                   collateral, as well as additional collateral required and fair value of assets needed to settle
                   the
                   instrument immediately if the credit-risk contingent features were triggered (FASB ASC
                   815-10-
                   50-4H).
10                 Provide disclosures of the entity's accounting policy to offset or not offset derivative asset
                   and



                                                                                                            - 142 -
                                                                                                                                                                       11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29A       Derivative Assets                                                                                          Fiscal Year: 2011      Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                 Agency Notes:    N/A

 Status: Complete                        The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Text Data
Line             Question                                                                                           Answer
                 liability positions on the Balance Sheet under a master netting agreement. Describe the
                 accounting
                 policy to offset cash collateral positions arising from derivative instrument(s) under a master
                 netting agreement against net derivative positions (FASB ASC 815-10-50-7).
11               Disclose amounts recognized for the right to reclaim cash collateral or the obligation to return
                 cash collateral under master netting arrangements (FASB ASC 815-10-50-8).
12               Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                 the significant accounting policies pertaining to this note.




                                                                                                         - 143 -
                                                                                                                                                                                      11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29B           Derivative Liabilities                                                                                       Fiscal Year: 2011               Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                   Agency Notes:      N/A

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account     2011 - SEPTEMBER        2010 - SEPTEMBER
                                                                                    Type
Derivative Liabilities                                                       C        L                           0                  0
                                                                                 Variance:                        0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description              2011 - SEPTEMBER            2010 - SEPTEMBER                Previously Rptd         Line Item Changes
 1            Interest rate contracts
 2            Foreign exchange
              contracts
 3            Equity contracts
 4            Commodity contracts
 5            Credit contracts
 6            All other contracts
              Total




                                                                                                        - 144 -
                                                                                                                                                                                      11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29B           Derivative Liabilities                                                                                     Fiscal Year: 2011              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                 Agency Notes:    N/A

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Hedge Derivative Liabilities                              No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                       Decimal: Zero
Line Status Line Description           NB           CY Cost Basis C      CY Fair Value Adjustment      CY Fair Market Value       PY Cost Basis C       PY Fair Value Adjustment          PY Fair Value
                                                                                               C                                                                              C
 1             Interest rate           N/A
               contracts
 2             Foreign exchange        N/A
               contracts
 3             Equity contracts        N/A
 4             Commodity               N/A
               contracts
 5             Credit contracts        N/A
 6             All other contracts     N/A
 7             Total hedge             N/A
               derivative amounts
       Section: B             Section Name: Non-Hedge Derivative Liabilities                          No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                       Decimal: Zero
Line Status Line Description           NB           CY Cost Basis C      CY Fair Value Adjustment      CY Fair Market Value       PY Cost Basis C       PY Fair Value Adjustment   PY Fair Market Value
                                                                                               C                                                                              C
 1             Interest rate           N/A
               contracts
 2             Foreign exchange        N/A
               contracts
 3             Equity contracts        N/A
 4             Commodity               N/A
               contracts
 5             Credit contracts        N/A
 6             All other contracts     N/A
 7             Total non-hedge         N/A
               derivative amounts




                                                                                                        - 145 -
                                                                                                                                                                              11/15/2011 11:32:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 29B           Derivative Liabilities                                                                                       Fiscal Year: 2011      Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                   Agency Notes:    N/A

  Status: Complete                             The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: C             Section Name: Gain/Loss on Derivative Liabilities Designated as          No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description           NB         2011 - SEPTEMBER            2010 - SEPTEMBER                Previously Rptd    Line Item Changes
 1             Interest rate          Credit
               contracts
 2             Foreign exchange       Credit
               contracts
 3             Equity contracts       Credit
 4             Commodity              Credit
               contracts
 5             Credit contracts       Credit
 6             All Other contracts    Credit
 7             Total reclassified      N/A
               derivativ gain/loss
       Section: D             Section Name: Gain/Loss on Derivative Liabilities Not Designated as      No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description           NB         2011 - SEPTEMBER            2010 - SEPTEMBER                Previously Rptd    Line Item Changes
 1             Interest rate          Credit
               contracts
 2             Foreign exchange       Credit
               contracts
 3             Equity contracts       Credit
 4             Commodity              Credit
               contracts
 5             Credit contracts       Credit
 6             All other contracts    Credit
 7             Total recognized        N/A
               derivative gain/loss




                                                                                                         - 146 -
                                                                                                                                                                        11/15/2011 11:32:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29B        Derivative Liabilities                                                                                     Fiscal Year: 2011      Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                Agency Notes:    N/A

 Status: Complete                          The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                          Answer
1                  Provide disclosures for the objectives for holding or issuing derivatives, the context needed
                   to
                   understand these objectives, as well as strategies for achieving these objectives (FASB ASC
                   815-
                   10-50-1A).
2                  Provide disclosures for the volume of derivative activity (FASB ASC 815-10-50-1B).
3                  Provide disclosures on the location of fair value amounts of derivate instruments (both
                   assets and
                   liabilities, respectively) on the Balance Sheet (FASB ASC Topic 815-10-50-4A).
4                  Provide disclosures on the location of gains or losses recognized into earnings (FASB ASC
                   Topic
                   815-10-50-4A).
5                  Provide the effective portion of gains and losses, by contract type, on derivative instruments
                   classified as either cashflow or net investment hedges that are being reclassified into
                   earnings
                   during the current period (FASB ASC 815-10-50-4C).
6                  Provide the effective portion of gains and losses, by contract type, on derivative instruments
                   classified as either cashflow or net investment hedges that are recognized in other
                   comprehensive
                   income during the current period (FASB ASC 815-10-50-4C).
7                  Provide the portion of gains and losses, by contract type, on derivative instruments classified
                   as
                   either cashflow or net investment hedges that represent the amount of the hedges'
                   ineffectiveness
                   or the amount, if any, excluded from the assessment of the hedge effectiveness (FASB ASC
                   815-
                   10-50-4C).
8                  Provide a description of the nature of trading activities for non-hedge designated derivative
                   instruments and related risks, including how the entity manages those risks. Explain the use
                   of
                   any alternative disclosures for trading activities, if applicable (FASB ASC 815-10-50-4F).
9                  Provide a description on the existence and nature of credit-risk related contingent features
                   and the
                   circumstances in which the features could be triggered in derivative instruments that are in a
                   net
                   liability position at the end of the reporting period. Include disclosures related to posted
                   collateral, as well as additional collateral required and fair value of assets needed to settle
                   the
                   instrument immediately if the credit-risk contingent features were triggered (FASB ASC
                   815-10-
                   50-4H)
10                 Provide disclosures of the entity's accounting policy to offset or not offset derivative asset
                   and



                                                                                                           - 147 -
                                                                                                                                                                       11/15/2011 11:32:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29B       Derivative Liabilities                                                                                     Fiscal Year: 2011      Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                 Agency Notes:    N/A

 Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Text Data
Line             Question                                                                                           Answer
                 liability positions on the Balance Sheet under a master netting agreement. Describe the
                 accounting
                 policy to offset cash collateral positions arising from derivative instrument(s) under a master
                 netting agreement against net derivative positions (FASB ASC 815-10-50-7).
11               Disclose amounts recognized for the right to reclaim cash collateral or the obligation to return
                 cash collateral under master netting arrangements (FASB ASC 815-10-50-8).
12               Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                 the
                 significant accounting policies pertaining to this note.




                                                                                                         - 148 -
NOTE 31 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
A – PART 1. BASIS OF PRESENTATION
The Government Management Reform Act of 1994 (GMRA) (Pub. L. No. 103-356), which requires the Secretary of
the Treasury (Secretary) to prepare and submit annual audited financial statement of the executive branch, amended
the Budget and Accounting Procedures Act of 1950, which allows the Secretary to stipulate the format and
requirements of executive agencies to furnish financial and operational information to the President and Congress.
The Secretary developed guidance in the U.S. Department of the Treasury’s Treasury Financial Manual (TFM)
Volume 1, Part 2, Chapter 4700 to provide agencies with instructions to meet the requirements of GMRA. The TFM
Chapter 4700 requires agencies to:

    1.   Reclassify all items and amounts on the audited consolidated, department-level balance sheet, statements of
         net cost, changes in net position/income statement, and the statement or note on custodial activity, if
         applicable to the special-purpose financial statements (SPFS).
    2.   Disclose SPFS line item amounts identified as Federal by trading partner and amount (amounts should be
         the net of intra-bureau and intra-departmental eliminations).
    3.   Disclose notes required by the SPFS line items and other notes required in the Financial Report of the U.S.
         Government (FR); and
    4.   Disclose other data not contained in the primary FR financial statements and notes required to meet
         requirements of the U.S. generally accepted accounting principles.

The TFM Chapter 4700 requires agencies to use the Governmentwide Financial Report System (GFRS) to input the
above information. For purposes of the SPFS, the Closing Package is comprised of the following GFRS Modules:

    1.   Closing Package Financial Statement Report (GF003F)
    2.   Trading Partner Summary Note Report (GF004F)
    3.   Closing Package Line Reclassification Summary Report (GF003G)
    4.   FR Notes Report (GF006)
    5.   Other Data Report (GF007)

The generic format for the SPFS is based on the U.S. Standard General Ledger (USSGL) crosswalk to the FR financial
statements and notes. In June 2011 and September 2011, Treasury issued TFM Transmittal Letter No. 663 (revised
by Bulletin 2011-08 in July 2011) and Transmittal Letter No. S2 11-02, respectively effective for fiscal year 2011, that
revised the mapping of certain USSGL accounts to the SPFS and resulted in Treasury reclassifying the accompanying
fiscal year 2010 SPFS to conform with the fiscal year 2011 presentation. Therefore, certain amounts in the fiscal year
2010 columns on the accompanying SPFS differ from the amounts in the columns labeled “previously reported”.

A – PART 2. REPORTING ENTITY
The accompanying financial statements include the operations of the United States (U.S.) Department of the Treasury
(Department), one of 24 CFO Act agencies of the Executive Branch of the United States Government, and certain
custodial activities managed on behalf of the entire U.S. Government.         The following paragraphs describe the
activities of the reporting entity.

The Department was created by an Act (1 Stat.65) on September 2, 1789. Many subsequent acts affected the
development of the Department, delegating new duties to its charge and establishing the numerous bureaus and
divisions that now comprise the Department. As a major policy advisor to the President, the Secretary of the Treasury
(Secretary) has primary responsibility for formulating and managing the domestic and international tax and financial
policies of the U.S. Government.

Further, the Secretary is responsible for recommending and implementing United States domestic and international
economic and fiscal policy; governing the fiscal operations of the government; maintaining foreign assets control;
managing the federal debt; collecting income and excise taxes; representing the United States on international
monetary, trade, and investment issues; overseeing Departmental overseas operations; and directing the manufacture
of coins, currency, and other products for customer agencies and the public.

The Department’s reporting entities include the Departmental Offices (DO) and eight operating bureaus.                 For
financial reporting purposes, DO is composed of: International Assistance Programs (IAP), Office of Inspector
General (OIG), the Special Office of Inspector General for the Troubled Asset Relief Program (SIGTARP), Treasury
Forfeiture Fund (TFF), Exchange Stabilization Fund (ESF), Community Development Financial Institutions (CDFI)
Fund, Office of D.C. Pensions (DCP), Treasury Inspector General for Tax Administration (TIGTA), Federal Financing
Bank (FFB), Office of Financial Stability (OFS), Government Sponsored Enterprise (GSE) Program, Small Business
Lending Fund (SBLF), Office of Financial Research (OFR), and the DO policy offices.

The eight operating bureaus are: Bureau of Engraving and Printing (BEP); Bureau of the Public Debt (BPD);
Financial Crimes Enforcement Network (FinCEN); Financial Management Service (FMS); Internal Revenue Service
(IRS); United States Mint (Mint); Office of the Comptroller of the Currency (OCC); and the Alcohol and Tobacco Tax
and Trade Bureau (TTB). On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and
Consumer Protection Act (the “Dodd-Frank Act”), which includes the Enhancing Financial Institution Safety and
Soundness Act of 2010. In accordance with the Dodd-Frank Act, on July 21, 2011 (the “transfer” date”), substantially
all of the operations of the Office of Thrift Supervision (OTS) were transferred to the OCC; certain other duties were
transferred to the Federal Reserve Board and Federal Deposit Insurance Corporation (FDIC). During fiscal year 2011,
OTS operated as a separate entity through July 20, 2011, and thus its operating results through July 20, 2011 are
presented separately in the disaggregate disclosures and the Required Supplemental Information (unaudited). On
July 21, 2011, all of OTS’s net assets, except for a reserve of $2 million for OTS wind-down activities, were transferred
to OCC.

The Department’s financial statements reflect the reporting of its own entity activities comprising both the
Department’s operating bureaus and DO that are consolidated with the Department, which include appropriations it
receives to conduct its operations and revenue generated from those operations. They also reflect the reporting of
certain non-entity (custodial) functions it performs on behalf of the U.S. Government and others.              Non-entity
activities include collecting federal revenue, servicing the federal debt, disbursing certain federal funds, and
maintaining certain assets and liabilities for the U.S. Government, as well as for other federal entities.            The
Department’s reporting entity does not include the General Fund of the U.S. Government (General Fund), which
maintains receipt, disbursement, and appropriation accounts for all federal agencies.

Transactions and balances among the Department’s entities have been eliminated from the Consolidated Balance
Sheets, the Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in Net Position.

Following Generally Accepted Accounting Principles (GAAP) for federal entities, the Department has not consolidated
into its financial statements the assets, liabilities, or results of operations of any financial organization or commercial
entity in which it holds either a direct, indirect or beneficial majority equity investment. Even though some of the
equity investments are significant, these entities meet the criteria of “bailed out” entities under paragraph 50 of the
Statement of Federal Financial Accounting Concepts (SFFAC) No. 2, Entity and Display (SFFAC No. 2) which directs
that such “bailout” investments should not be consolidated into the Financial Reports of the U.S. Government, either
in part or as a whole.

In addition, the Department has made loans and investments in certain Special Purpose Vehicles (SPV) under the
Consumer and Business Lending Initiative, Automotive Industry Financing Program, and the Public-Private
Investment Program. In fiscal year 2011, a portion of the Department’s investment in American International Group,
Inc. was exchanged for preferred interests in SPVs. SFFAC No. 2, paragraphs 43 and 44, reference indicative criteria
such as ownership and control over an SPV to carry out government powers and missions as criteria in the
determination about whether the SPV should be classified as a federal entity. The Department has concluded that the
lack of control over the SPVs is the primary basis for determining that none of the SPVs meet the criteria to be
classified as a federal entity. As a result, the assets, liabilities, and results of operations of the SPVs are not included
in the Department’s financial statements. The Department has recorded the loans and investments in private entities
and investments in SPVs in accordance with Credit Reform Accounting, as discussed below.

B. BASIS OF ACCOUNTING AND PRESENTATION
The financial statements have been prepared from the accounting records of the Department in conformity with
accounting principles generally accepted in the United States for federal entities, and the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements, as revised. Accounting principles generally
accepted for federal entities are the standards prescribed by the Federal Accounting Standards Advisory Board
(FASAB). FASAB is recognized by the American Institute of Certified Public Accountants as the official accounting
standards-setting body of the U.S. Government.

These financial statements are provided to meet the requirements of the Government Management Reform Act of
1994. They consist of the Consolidated Balance Sheets, the Consolidated Statements of Net Cost, the Consolidated
Statements of Changes in Net Position, the Combined Statements of Budgetary Resources, and the Statements of
Custodial Activity. The statements and the related notes are prepared in a comparative form to present both fiscal
year 2011 and fiscal year 2010 information.

While these financial statements have been prepared from the accounting records of the Department in accordance
with the formats prescribed by OMB, these financial statements are in addition to the financial reports used to
monitor and control budgetary resources which are prepared from the same accounting records.

Intra-governmental assets and liabilities are those due from or to other federal entities. Intra-governmental earned
revenues are collections or accruals of revenue from other federal entities, and intra-governmental costs are payments
or accruals of expenditures to other federal entities.

The financial statements should be read with the realization that they are for a component of a sovereign entity, that
liabilities not covered by budgetary resources cannot be liquidated without the enactment of an appropriation, and
that the payment of all liabilities other than for contracts can be abrogated by the sovereign entity. Liabilities
represent the probable and measurable future outflow or other sacrifice of resources as a result of past transactions or
events. Since the Department is a component of the U.S. Government, a sovereign entity, the Department’s liabilities
cannot be liquidated without legislation that provides resources or an appropriation.            Liabilities represent the
probable and measurable future outflow or other sacrifice of resources as a result of past transactions or events.
Liabilities covered by budgetary resources are those liabilities for which Congress has appropriated funds or funding
is otherwise available to pay amounts due. Liabilities not covered by budgetary or other resources represent amounts
owed in excess of available, congressionally appropriated funds or other amounts, and there is no certainty that the
appropriations will be enacted. The U.S. Government, acting in its sovereign capacity, can abrogate liabilities of the
Department arising from non-contractual activities.

Certain fiscal year 2010 balances on the Consolidated Balance Sheets and notes to the financial statements have been
reclassified to conform to the presentation in the current fiscal year. In fiscal year 2011, certain Balance Sheet line
items were aggregated with other line items. Corresponding balances for the prior fiscal year were reclassified to
conform to the current year presentation.

C. FUND BALANCE
The Fund Balance is the aggregate amount of the Department’s accounts with the U.S. Government’s central accounts
from which the Department is authorized to make expenditures and pay liabilities. It is an asset because it represents
the Department’s claim to the U.S. Government’s resources. Fund balance with Treasury is not equivalent to
unexpended appropriations because it also includes non-appropriated revolving and enterprise funds, suspense
accounts, and custodial funds such as deposit funds, special funds, and trust funds.

D. INVESTMENTS
Investments in GSEs

The Department holds preferred stock of two stockholder-owned GSEs, the Federal National Mortgage Association
(Fannie Mae) and the Federal Home Loan Mortgage Corporation (Freddie Mac). The senior preferred stock liquidity
preference (preferred stock) and associated common stock warrant (warrant(s)) in the GSEs are presented at their
fair value as permitted by OMB Circular No. A-136. This Circular includes language that generally requires agencies
to value non-federal investments at acquisition cost, but permits the use of other measurement basis, such as fair
value, in certain situations. Changes in the valuation of these investments are recorded as non-entity exchange
transactions on the Consolidated Statements of Net Cost. Dividends are also recorded as non-entity exchange
transactions and are accrued when declared; therefore, no accrual is made for future dividends.

The GSE Senior Preferred Stock Purchase Agreements (SPSPAs) provide that the Department will increase its
investment in the GSEs’ senior preferred stock if, at the end of any quarter, the Federal Housing Finance Agency
(FHFA), acting as the conservator, determines that the liabilities of either GSE, individually, exceed its respective
assets. As the funds used to pay these excess liabilities are appropriated directly to the Department such payments
are treated as entity expenses and reflected as such on the Consolidated Statements of Net Cost and Cumulative
Results of Operations. These payments also result in an increase to the non-entity investment in the GSEs’ preferred
stock, with a corresponding increase in Due to the General Fund, as the Department holds the investment on behalf of
the General Fund.

Investments in International Financial Institutions

The Department, on behalf of the United States, invests in Multilateral Development Banks (MDBs) to support
poverty reduction, private sector development, transitions to market economies and sustainable economic growth and
development, thereby advancing the United States’ economic, political, and commercial interests abroad. As a
participating member country, the Department, on behalf of the United States, provides a portion of the capital base
of the MDBs, through subscriptions to capital, which allows the MDBs to issue loans at market-based rates to middle
income developing countries. These paid-in capital investments are considered non-marketable equity investments
valued at cost on the Department’s Consolidated Balance Sheets.

In addition, the Department, on behalf of the United States, contributes funding to MDBs to finance grants and
extend credit to poor countries at below market-based interest rates. These U.S. contributions are reported as an
expense on the Department’s Consolidated Statements of Net Cost.

Other Investments and Related Interest

ESF holds most of the Department’s foreign currency investments. “Other Foreign Currency Denominated Assets”
and “Investment Securities” are considered “available-for-sale” securities and recorded at fair value. These holdings
are normally invested in interest-bearing securities issued or held through foreign governments or monetary
authorities.

Non-TARP Investment in American International Group, Inc.

The Department holds American International Group, Inc. (AIG) common stock on behalf of the General Fund which
are considered “available-for-sale” securities and recorded at fair value.       Changes in the valuation of these
investments held are non-entity, non-exchange transactions reported on the Statements of Custodial Activity. The
revenue or loss associated with sales of these investments are non-entity, exchange transactions reported on the
Statements of Custodial Activity.

E. TAXES, INTEREST, AND OTHER RECEIVABLES, NET
Federal taxes receivable, net, and the corresponding liability due to the Department, are not accrued until related tax
returns are filed or assessments are made by the IRS and agreed to by either the taxpayer or the court. Additionally,
the prepayments are netted against liabilities. Accruals are made to reflect penalties and interest on taxes receivable
through the balance sheet date.

Taxes receivable consist of unpaid assessments (taxes and associated penalties and interest) due from taxpayers. The
existence of a receivable is supported by a taxpayer agreement, such as filing of a tax return without sufficient
payment, or a court ruling in favor of the IRS. The allowance reflects an estimate of the portion of total taxes
receivable deemed to be uncollectible.

Compliance assessments are unpaid assessments which neither the taxpayer nor a court has affirmed the taxpayer
owes to the U.S. Government. Examples include assessments resulting from an IRS audit or examination in which
the taxpayer does not agree with the results. Write-offs consist of unpaid assessments for which the IRS does not
expect further collections due to factors such as taxpayers’ bankruptcy, insolvency, or death. Compliance assessment
and write-offs are not reported on the balance sheet. Statutory provisions require the accounts to be maintained until
the statute for collection expires.

F. LOANS AND INTEREST RECEIVABLE, INTRA-GOVERNMENTAL - ENTITY AND NON-ENTITY
Intra-Governmental entity Loans and Interest Receivable from other federal agencies represent loans and interest
receivable held by the Department. No credit reform subsidy costs were recorded for loans purchased from federal
agencies or for guaranteed loans made to non-federal borrowers because of outstanding balances guaranteed (interest
and principal) by those agencies.

Intra-Governmental non-entity Loans and Interest Receivable from other federal agencies represent loans issued by
the Department to federal agencies on behalf of the U.S. Government. The Department acts as an intermediary
issuing these loans, because the agencies receiving these loans will lend these funds to others to carry out various
programs of the U.S. Government.        Because of the Department’s intermediary role in issuing these loans, the
Department does not record an allowance related to these intra-governmental loans. Instead, loan loss allowances
and subsidy costs are recognized by the ultimate lender, the federal agency that issued the loans to the public.

G. ADVANCES TO THE UNEMPLOYMENT TRUST FUND
Advances have been issued to the Department of Labor’s (DOL) Unemployment Trust Fund from the General Fund
for states to pay unemployment benefits. BPD accounts for the advances on behalf of the General Fund. As outlined
in the United States Code (USC) 42 USC §1323, these repayable advances bear an interest rate that is computed as the
average interest rate as of the end of the calendar month preceding the issuance date of the advance for all interest
bearing obligations of the United States that form the public debt, to the nearest lower one-eighth of one percent.
Interest on the repayable advances is due on September 30th of each year. Advances will be repaid by transfers from
the Unemployment Trust Fund to the General Fund when the Secretary, in consultation with the Secretary of Labor,
has determined that the balance in the Unemployment Trust Fund is adequate to allow repayment.

H. INTEREST RECEIVABLE ON DEPOSITS OF EARNINGS, FEDERAL RESERVE SYSTEM
Federal Reserve Banks (FRBs) are required by the Board of Governors of the Federal Reserve System to transfer to
the U.S. Treasury excess earnings, after providing for the cost of operations, payment of dividends, and reservation of
an amount necessary to equate surplus with capital paid in. In the event of losses, or a substantial increase in capital,
an FRB will suspend its payments to the U.S. Treasury until such losses or increases in capital are recovered through
subsequent earnings. Weekly payments to the U.S. Treasury may vary significantly. The Interest Receivable on FRB
Deposits of Earnings, Federal Reserve System, is included within “Taxes, Interest and Other Receivables, Net” line
item of the Consolidated Balance Sheets, represents the earnings due to the U.S. Treasury as of September 30, but not
collected by the U.S. Treasury until after the end of the month.

I. PROPERTY, PLANT, AND EQUIPMENT, NET
General

Property, plant, and equipment (PP&E) is composed of capital assets used in providing goods or services. It also
includes assets acquired through capital leases, which are initially recorded at the amount recognized as a liability for
the capital lease at its inception. PP&E is stated at full cost, including costs related to acquisition, delivery, and
installation, less accumulated depreciation.     Major alterations and renovations, including leasehold and land
improvements, are capitalized, while maintenance and repair costs are charged to expenses as incurred.

Internal use software encompasses software design, development, and testing of projects adding significant new
functionality and long-term benefits.     Costs for developing internal use software are accumulated in work in
development until a project is placed into service, and testing and final acceptance are successfully completed. Once
completed, the costs are transferred to depreciable property.
Costs for construction projects are recorded as construction-in-progress until completed, and are valued at actual
(direct) cost, plus applied overhead and other indirect costs.

The Department leases land and buildings from the General Services Administration (GSA) to conduct most of its
operations. GSA charges a standard level user fee which approximates commercial rental rates for similar properties.
Therefore, GSA-owned properties are not included in the Department’s PP&E.

The Department’s bureaus are diverse both in size and in operating environment. Accordingly, the Department’s
capitalization policy provides minimum capitalization thresholds which range from $25,000 to $50,000 for all
property categories except for internal use software thresholds which range from $125,000 to $250,000. The
Department also uses a capitalization threshold range for bulk purchases:            $250,000 to $500,000 for non-
manufacturing bureaus and $25,000 to $50,000 for manufacturing bureaus. Bureaus determine the individual items
that comprise bulk purchases based on Departmental guidance. In addition, the Department’s bureaus may expense
bulk purchases if they conclude that total period costs would not be materially distorted and the cost of capitalization
is not economically feasible.

Depreciation is expensed on a straight-line basis over the estimated useful life of the asset with the exception of
leasehold improvements and capital leases. Leasehold improvements are depreciated over the term of the lease or the
useful life of the improvement, whichever is shorter. Capital leases are depreciated over the estimated life of the asset
or term of the lease, depending on the conditions met for capitalization. Service life ranges (2 to 50 years) are high
due to the Department’s diversity of PP&E. Land, construction in progress, and internal use software in development
are not depreciated.

Heritage Assets

The Department owns the Treasury Complex (Main Treasury and Treasury Annex) – a multi-use heritage asset. The
buildings housing the Mint facilities in Denver, San Francisco, Fort Knox, and West Point, are also considered multi-
use heritage assets. Multi-use heritage assets are assets of historical significance for which the predominant use is
general government operations. All acquisition, reconstruction, and betterment costs for the Treasury buildings are
capitalized as general PP&E and depreciated over their service life.

J. CASH, FOREIGN CURRENCY, AND OTHER MONETARY ASSETS
Substantially all of the Department’s operating cash is non-entity government-wide cash held in depositary
institutions and FRB accounts. Agencies can deposit funds that are submitted to them directly into either a Federal
Reserve Treasury General Account (TGA) or a local TGA depositary. The balances in these TGA accounts are
transferred to the Federal Reserve Bank of New York (FRBNY)’s TGA at the end of each day.

Operating cash of the U.S. Government represents balances from tax collections, customs duties, other revenue,
federal debt receipts, and other various receipts net of cash outflows for budget outlays and other payments held in
the FRBs, foreign and domestic financial institutions, and in Treasury Tax and Loan (TT&L) accounts. Outstanding
checks are netted against operating cash until they are cleared by the Federal Reserve System.

The TGA is maintained at the FRBNY and functions as the government’s checking account for deposits and
disbursements of public funds. The TT&L program includes about 9,000 depositories that accept tax payments and
remit them the day after receipt to FRBNY’s TGA. Certain TT&L depositories also hold non-entity government-wide
cash in interest bearing accounts. Cash in the TGA and the TT&L program is restricted for government-wide
operations.

The Supplementary Financing Program (SFP) Account is maintained at FRBNY. The SFP provides emergency cash
for Federal Reserve initiatives aimed at addressing the ongoing crisis in financial markets. This program consists of a
series of Treasury bills, apart from the Department’s current borrowing program.

The Department’s foreign currency investments having original maturities of three months or less are classified as
cash equivalents. Other foreign currency holdings having terms greater than three months but less than or equal to
one year are classified as “available-for-sale” investments. Special Drawing Rights (SDRs) holdings comprise most of
the other monetary assets (refer below to “Special Drawing Rights” accounting policy).

K. FEDERAL DEBT AND INTEREST PAYABLE
Debt and associated interest are reported on the accrual basis of accounting. Interest costs are recorded as expenses
when incurred, instead of when paid. Certain Treasury securities are issued at a discount or premium. These
discounts and premiums are amortized over the term of the security using an interest method for all long-term
securities and the straight-line method for short-term securities. The Department also issues Treasury Inflation-
Protected Securities (TIPS). The principal for TIPS is adjusted daily over the life of the security based on the
Consumer Price Index for all Urban Consumers.

L. LOAN COMMITMENTS
The Department, through FFB, makes loan commitments with federal agencies, or private sector borrowers whose
loans are guaranteed by federal agencies, to extend credit for their own use (refer to the accounting policy above
entitled “Loans and Interest Receivable, Intra-Governmental – Entity and Non-Entity.”)               The Department
establishes loan commitments when the Department and other parties fully execute promissory notes in which the
Department becomes obligated to issue such loans immediately or at some future date. The Department reduces loan
commitments when the Department issues the loans or when the commitments expire. Most obligations of the
Department give a borrower the contractual right to a loan or loans immediately or at some point in the future within
an agreed upon timeframe.

M. PENSION COSTS, OTHER RETIREMENT BENEFITS, AND OTHER POST-EMPLOYMENT BENEFITS
The Department recognizes the full costs of its employees’ pension benefits. However, the liabilities associated with
these costs are recognized by the Office of Personnel Management (OPM) rather than the Department.

Most employees of the Department hired prior to January 1, 1984, participate in the Civil Service Retirement System
(CSRS), to which the Department contributes 7 percent of pay.          On January 1, 1987, the Federal Employees’
Retirement System (FERS) went into effect pursuant to Public Law (P.L.) 99-335. Employees hired after December
31, 1983, are automatically covered by FERS and Social Security. A primary feature of FERS is that it offers a savings
plan to which the Department automatically contributes 1 percent of base pay and matches any employee
contributions up to an additional 4 percent of base pay. For most employees hired after December 31, 1983, the
Department also contributes the employer’s matching share for Social Security. For the FERS basic benefit, the
Department contributes 11.2 percent for regular FERS employees.

Similar to federal retirement plans, OPM, rather than the Department, reports the liability for future payments to
retired employees who participate in the Federal Employees Health Benefits Program (FEHBP) and Federal
Employees Group Life Insurance (FEGLI) Program.             The Department reports the full cost of providing other
retirement benefits (ORB). The Department also recognizes an expense and a liability for other post-employment
benefits (OPEB), which includes all types of benefits, provided to former or inactive (but not retired) employees, their
beneficiaries, and covered dependents. Additionally, one of the Department’s bureaus, OCC, separately sponsors a
defined life insurance benefit plan for current and retired employees. In connection with the July 21, 2011, merger of
OTS into OCC’s operations OCC became the administrator for OTS’s private defined benefit retirement plan (the
Pentegra Defined Benefit Plan (PDBP)), and assumed the liability associated with this plan. The PDBP covers certain
former OTS employees, and provides certain health and life insurance benefits for all retired OTS employees who
meet eligibility requirements.

N. SPECIAL DRAWING RIGHTS
The SDR is an international reserve asset created by the International Monetary Fund (IMF) to supplement its
member countries’ official reserves.      Under its Articles of Agreement, the IMF may allocate SDRs to member
countries in proportion to their IMF quotas. Pursuant to the Special Drawing Rights Act of 1968, as amended, the
ESF holds all SDRs allocated to or otherwise acquired by the United States.

Allocations and Holdings

When the IMF allocates SDRs to its members, SDR holdings are recorded as assets of the members and SDR
allocations are recorded as liabilities. SDR holdings increase primarily as a result of IMF SDR allocations. Other
transactions reported in this account are recorded as incurred. They include acquisitions and sales of SDRs, interest
received on SDR holdings, interest charges on SDRs allocations, and valuation adjustments. The U.S. Government
receives remuneration in SDRs from the IMF and is based on claims on the IMF, represented by the U.S. Reserve
Position. The SDR amount is credited to the ESF, which transfers to the Treasury General Account an equivalent
amount of dollars plus nominal interest. The allocations and holdings are revalued monthly based on the SDR
valuation rate as calculated by the IMF. The liabilities represent the amount that is payable in the event of liquidation
of, or U.S. withdrawal from, the SDR Department of the IMF or cancellation of the SDRs.

Certificates Issued to the Federal Reserve

The Special Drawing Rights Act of 1968 authorizes the Secretary to issue certificates, not to exceed the value of SDR
holdings, to the FRB in return for dollar amounts equal to the face value of certificates issued. The certificates may be
issued to finance the acquisition of SDRs from other countries or to provide U.S. dollar resources financing other ESF
operations. Certificates issued are to be redeemed by the Department at such times and in such amounts as the
Secretary may determine, and do not bear interest. Certificates issued to FRB are reported at their face value. It is
not practical to estimate the fair value of certificates issued to FRB, since these certificates contain no specific terms of
repayment.

O. FEDERAL EMPLOYEE BENEFITS PAYABLE – FECA ACTUARIAL LIABILITY
The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to covered federal
civilian employees injured on the job, and employees who have incurred a work-related injury or occupational
disease. The FECA program is administered by DOL which pays valid claims and subsequently seeks reimbursements
from the Department for these paid claims. Generally, the Department reimburses DOL within two to three years
once funds are appropriated. These future workers’ compensation estimates are generated by applying actuarial
procedures developed to estimate the liability for FECA benefits. The actuarial liability estimates for FECA benefits
include the expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases.

P. ANNUAL, SICK, AND OTHER LEAVE
Annual and compensatory leave earned by the Department’s employees, but not yet used, is reported as an accrued
liability. The accrued balance is adjusted annually to reflect current pay rates. Any portion of the accrued leave for
which funding is not available is recorded as an unfunded liability. Sick and other leave are expensed as taken.

Q. REVENUE AND FINANCING SOURCES
The Department’s activities are financed either through exchange revenue it receives from others or through non-
exchange revenue and financing sources (such as appropriations provided by the Congress and penalties, fines, and
certain user fees collected). User fees primarily include collections from the public for the IRS costs to process
installment agreements and accompanying photocopy and reproduction charges. Exchange revenues are recognized
when earned; i.e., goods have been delivered or services have been rendered. Revenue from reimbursable agreements
is recognized when the services are provided. Non-exchange revenues are recognized when received by the respective
collecting bureau. Appropriations used are recognized as financing sources when related expenses are incurred or
assets are purchased. The Department also incurs certain costs that are paid in total or in part by other federal
entities, such as pension costs, the FEHBP, and any un-reimbursed payments made from the Treasury Judgment
Fund on behalf of the Department. These subsidized costs are recognized on the Consolidated Statement of Net Cost,
and the imputed financing for these costs is recognized on the Consolidated Statement of Changes in Net Position. As
a result, there is no effect on net position. Other non-exchange financing sources such as donations and transfers of
assets without reimbursements are also recognized for the period in which they occurred on the Consolidated
Statements of Changes in Net Position.

The Department recognizes revenue it receives from disposition of forfeited property as non-exchange revenue on the
Consolidated Statements of Changes in Net Position. The costs related to the Forfeiture Fund program are reported
on the Consolidated Statements of Net Cost. The Treasury Forfeiture Fund is the special fund account for depositing
non-tax forfeiture proceeds received pursuant to laws enforced or administered by law enforcement bureaus that
participate in the Treasury Forfeiture Fund. Forfeited property balances are reported in “Other Assets” on the
Consolidated Balance Sheets.

R. CUSTODIAL REVENUES AND COLLECTIONS
Non-entity revenue reported on the Department’s Statements of Custodial Activity includes cash collected by the
Department, primarily from taxes. It does not include revenue collected by other federal agencies, such as user fees
and other receipts, which are remitted for general operating purposes of the U.S. Government or are earmarked for
certain trust funds. The Statements of Custodial Activity are presented on the “modified accrual basis.” Revenues are
recognized as cash is collected, as well as for non-cash market valuation changes related to the U.S. Government’s
holdings in American International Group, Inc. The “accrual adjustment” is the net increase or decrease during the
reporting period in net revenue related–assets and liabilities, mainly taxes receivable. The Consolidated Balance
Sheets include estimated amounts for taxes receivable and payable to the General Fund at September 30, 2011 and
2010.
S. REFUNDS PAYABLE
Refunds payable arise in the normal course of tax administration when it is determined that taxpayers have paid more
than the actual taxes that they owe. Amounts that the Department has concluded to be valid refunds owed to
taxpayers are recorded as a liability entitled “Refunds Payable” on the Consolidated Balance Sheets, with a
corresponding receivable from the General Fund. This receivable is included on the Consolidated Balance Sheets
within the line entitled “Due from the General Fund.”

T. PERMANENT AND INDEFINITE APPROPRIATIONS
Permanent and indefinite appropriations are used to disburse tax refunds, income tax credits, and child tax credits.
These appropriations are not subject to budgetary ceilings established by Congress. Therefore, refunds payable at
year end are not subject to funding restrictions. Refund payment funding is recognized as appropriations are used.
Permanent indefinite authority for refund activity is not stated as a specific amount and is available for an indefinite
period of time. Although funded through appropriations, refund activity, in most instances, is reported as a custodial
activity of the Department, since refunds are, in substance, a custodial revenue-related activity resulting from
taxpayer overpayments of their tax liabilities.

The Department also receives two permanent and indefinite appropriations related to debt activity. One is used to
pay interest on the public debt securities; the other is used to redeem securities that have matured, been called, or are
eligible for early redemption. These accounts are not annual appropriations and do not have refunds. Debt activity
appropriations are related to the Department’s liability and are reported on the Department’s Balance Sheet.
Permanent indefinite authority for debt activity is available for an indefinite period of time.

The Department receives permanent indefinite appropriations annually to fund increases in the projected subsidy
costs of credit programs as determined by the re-estimation process required by the FCRA. The Department’s
renewable energy and low income housing projects are also covered by permanent indefinite appropriations.

Additionally, the Department receives other permanent and indefinite appropriations to make certain payments on
behalf of the U.S. Government. These appropriations are provided to make payments to the FRB for fiscal services
provided and to the financial institutions for services provided as financial agents of the U.S. Government. They also
include appropriations provided to make other disbursements on behalf of the U.S. Government, including payments
made to various parties as the result of certain claims and judgments rendered against the United States.

U. INCOME TAXES
As an agency of the U.S. Government, the Department is exempt from all income taxes imposed by any governing
body, whether it is a federal, state, commonwealth, local, or foreign government.

V. USE OF ESTIMATES
The Department has made certain estimates and assumptions relating to the reporting of assets, liabilities, revenues,
expenses, and the disclosure of contingent liabilities to prepare its financial statements. Actual results could differ
from these estimates.    It is possible that the results of operations, cash flows or the financial position of the
Department could be materially affected in future periods by adverse changes in the outlook for the key assumptions
underlying management’s estimates. Significant transactions subject to estimates include loan and credit program
receivables; investments in GSEs and other non-federal securities and related impairment; tax receivables; loan
guarantees; depreciation; liability for liquidity commitment to GSEs; imputed costs; actuarial liabilities; cost and
earned revenue allocations; contingent legal liabilities; and credit reform subsidy costs.

The Department accounts for all of its TARP and non-TARP credit program receivables in accordance with credit
reform accounting. These receivables are derived using credit reform modeling which is subject to the use of
estimates. The Department recognizes the sensitivity of credit reform modeling to slight changes in some model
assumptions and uses regular review of model factors, statistical modeling, and annual reestimates to reflect the most
accurate cost of the credit programs to the U.S. Government. The purpose of reestimates is to update original
program subsidy cost estimates to reflect actual cash flow experience as well as changes in forecasts of future cash
flows.   Forecasts of future cash flows are updated based on actual program performance to date, additional
information about the portfolio, additional publicly available relevant historical market data on securities
performance, revised expectations for future economic conditions, and enhancements to cash flow projection
methods.

The forecasted cash flows used to determine these credit program amounts are sensitive to slight changes in model
assumptions, such as general economic conditions, specific stock price volatility of the entities in which the
Department has an equity interest, estimates of expected default, and prepayment rates. Forecasts of financial results
have inherent uncertainty. The TARP Credit Program Receivables, Net, line items is reflective of relatively illiquid,
troubled assets whose values are particularly sensitive to future economic conditions and other assumptions.
Additional discussion related to sensitivity analysis can be found in the Management’s Discussion and Analysis
section of this Agency Financial Report.

The liabilities to the GSEs related to the SPSPA is a contingent liquidity commitment, predicated on the future
occurrence of excess liabilities over the assets of either GSE at the end of any reporting quarter, and are potential
liabilities of the Department. The Department performs annual valuations, as of September 30th, on the preferred
stock and warrants in an attempt to provide a “sufficiently reliable” estimate of the outstanding commitments in
order for the Department to record the remaining liability in accordance with SFFAS No. 5, Accounting for Liabilities
of the U.S. Government.

The valuations incorporated various forecasts, projections and cash flow analyses to develop an estimate of potential
liability. Any changes in valuation, including impairment, are recorded and disclosed in accordance with SFFAS No.
7, Accounting for Revenue and Other Financing Sources. Since the valuation is an annual process, the change in
valuation of the preferred stock and warrants are deemed usual and recurring. The GSEs contingent liability is
assessed annually and recorded at the gross estimated amount, without considering the increase in preferred stock
liquidity preference, future dividend payments, or future commitment fees, due to the uncertainties involved.

Estimation of such complex and long duration contingencies is subject to uncertainty, and it is possible that new
developments will adversely impact ultimate amounts required to be funded by the Department under agreements
between the Department and each GSE. Specifically, the occurrence of future shareholder deficits, which ultimately
determines the Department’s liabilities to the GSEs, is most sensitive to future changes in the housing price index.

W. CREDIT RISK
Credit risk is the potential, no matter how remote, for financial loss from a failure of a borrower or counterparty to
perform in accordance with underlying contractual obligations. The Department takes on possible credit risk when it
makes direct loans or credits to foreign entities or becomes exposed to institutions which engage in financial
transactions with foreign countries. Given the history of the Department with respect to such exposure and the
financial policies in place in the U.S. Government and other institutions in which the United States participates, the
Department’s expectation of credit losses is nominal.

The Department also takes on credit risk related to the following: committed but undisbursed direct loans; its
liquidity commitment to the GSEs; its MBS portfolio; its GSE obligations obtained under the HFA Initiative (the
NIBP and TCLP); investments, loans, and other credit programs of the TARP; its programs including the CDFI fund,
SBLF, and certain portions of the Department’s participation in the IMF; and its Terrorism Risk Insurance Program.
Except for the Terrorism Risk Insurance Program, these activities focus on the underlying problems in the credit
markets, and the ongoing instability in those markets exposes the Department to potential costs and losses. The
extent of the risk assumed by the Department is described in more detail in the notes to the financial statements, and,
where applicable, is factored into credit reform models and reflected in fair value measurements.

In addition, for EESA programs, the statute requires that the budgetary costs of the troubled assets and guarantees of
troubled assets be calculated by adjusting the discount rate for market risks. Within the TARP programs, the
Department has invested in many assets that would traditionally be held by private investors and their valuation
would inherently include market risk. Accordingly, for all TARP direct loans, equity investments, and other credit
programs, the Department calculates a Market Risk Adjusted Discount Rate (MRADR). Therefore, the Department’s
cost estimates for the TARP programs are adjusted for unexpected loss and the estimated risk of expected cash flows.
Under SFFAS No. 2, including market risk in the cash flow estimates is consistent with the type of assets being valued.
The inclusion of the MRADR is the mechanism for deriving a fair value of the assets. As directed by Congress, a
MRADR is also used in the credit reform model for certain portions of the Department’s participation in the IMF.

X. EARMARKED FUNDS
The Department has accounted for revenues and other financing sources for earmarked funds separately from other
funds. Earmarked funds are financed by specifically identified revenues, often supplemented by other financing
sources, which remain available over time. These specifically identified revenues and other financing sources are
required by statute to be used for designated activities or purposes. SFFAS No. 27, Identifying and Reporting
Earmarked Funds (SFFAS No. 27), defines the following three criteria for determining an earmarked fund: (1) a
statute committing the U.S. Government to use specifically identified revenues and other financing sources not used
in the current period for future use to finance the designated activities, benefits, or purposes; (2) explicit authority for
the earmarked fund to retain revenues and other financing sources not used in the current period for future use to
finance the designated activities, benefits, or purposes; and (3) a requirement to account for and report on the receipt,
use, and retention of the revenues and other financing sources that distinguished the earmarked fund from the U.S.
Government’s general revenues.

Y. ALLOCATION TRANSFERS
The Department is a party to allocation transfers with other federal agencies as both a transferring (parent) entity
and/or a receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to
obligate budget authority and outlay funds to another department. A separate fund account (allocation account) is
created in the U.S. Treasury as a subset of the parent fund account for tracking and reporting purposes. All allocation
transfers of balances are credited to this account, and subsequent obligations and outlays incurred by the child entity
are charged to this allocation account as they execute the delegated activity on behalf of the parent. Parent federal
agencies report both the proprietary and budgetary activity and the child agency does not report any financial activity
related to budget authority allocated from the parent federal agency to the child federal agency.

The Department allocates funds, as the parent, to the Department of Energy. OMB allows certain exceptions to
allocation reporting for certain funds.    Accordingly, the Department has reported certain funds for which the
Department is the child in the allocation transfer, but in compliance with OMB guidance (Circular No. A-136, II.4.2,
question 5, for three exceptions), will report all activities relative to these allocation transfers in the Department’s
financial statements.    Also, the Department receives allocation transfers, as the child, from the Agency for
International Development, General Services Administration, and Department of Transportation.

Z. CREDIT PROGRAM RECEIVABLES
The Department accounts for all of its TARP credit program receivables, including investments in common and
preferred stock and warrants of public companies, loans, and loan guarantees or guaranty-like insurance activities,
under the provisions of credit reform accounting. In addition to its TARP programs, the Department accounts for all
other of its credit program receivables under the provisions of credit reform accounting, including the loans or equity
securities associated with the Department’s: GSE mortgage-backed securities (MBS) purchase program, state and
local Housing Finance Agency (HFA) Initiative program, SBLF program, CDFI program, and certain portions of the
Department’s participation in the IMF.

To account for the Department’s TARP and other credit program receivables, the Department applies the accounting
provisions of SFFAS No. 2, Accounting for Direct Loans and Loan Guarantees, as amended by SFFAS No. 18,
Amendments to Accounting Standards for Direct Loans and Loan Guarantees, and SFFAS No. 19, Technical
Amendments to Accounting Standards for Direct Loans and Loan Guarantees. SFFAS No. 2, as amended, requires
measurement of the asset or liability at the net present value of the estimated future cash flows. The cash flow
estimates for each credit program transaction reflect the actual structure of the instruments. For each of these
instruments, the Department estimates cash inflows and outflows related to the program over the estimated term of
the instrument. Further, each cash-flow estimate reflects the specific terms and conditions of the program, technical
assumptions regarding the underlying assets, risk of default or other losses, and other factors as appropriate. The
measurement of assets within these programs is primarily derived from inputs which generally represent market data
and, when such data is not available, management’s best estimate of how a market participant would assess the risk
inherent in the asset.

SFFAS No. 2, as amended, was promulgated as a result of the FCRA. The primary purpose of the FCRA is to more
accurately measure the cost of federal credit programs and to place the cost of such credit programs on a basis
equivalent with other federal spending. The FCRA requires that the ultimate costs of a credit program be calculated
and the budgetary resources obtained before the direct loan obligations are incurred. To accomplish this, the
Department first predicts or estimates the future performance of direct and guaranteed loans when preparing its
annual budget. The data used for these budgetary estimates are reestimated after the fiscal year-end to reflect
changes in actual loan performance and actual interest rates in effect when the loans were issued. The reestimated
data reflect adjustments for market risks, asset performance and other key variables and economic factors. The
reestimated data are then used to report the cost of the loans disbursed under the direct or guaranteed loan program
as a “Program Cost” in the Department’s Consolidated Statements of Net Cost.
Cash flows associated with the Department’s credit programs generally include disbursements, repayments,
repurchases, fees, recoveries, interest, dividends, proceeds from sales of instruments, borrowings from Treasury,
negative subsidy, and the subsidy cost received from the program accounts. Security-level data and assumptions used
as the basis for cash flow model forecasts and program performance are drawn from widely available market sources,
as well as information published by investees. Key inputs to the cash flow forecasts include:

•   Security characteristics such as unpaid principal balance, coupon rate, weighted-average loan age, issued bond
    balance, credit rating, maturity date, principal and interest payment schedules, priority of payments, and
    performance of underlying collateral
•   Department actions as well as changes in legislation
•   Forecast prepayment rates and default rates
•   Forecast dividend payments
•   Expected escrow conversion and return rates
•   Default and recovery reports published by Moody’s and Standard and Poor’s
•   Other third-party market sources

The recorded subsidy cost associated with each of the Department’s credit programs is based on the calculated net
present value of expected future cash flows. The Department’s actions, as well as changes in legislation, may impact
estimated future cash flows and related subsidy costs. The cost or cost savings of a modification is recognized in
subsidy costs when the terms of a program are modified. Subsidy costs are also impacted by reestimates which may
occur as a result of updates to the original program subsidy cost estimates to reflect actual cash flows experience, as
well as changes in forecasts of estimated future cash flows associated with the credit program.

AA. FIDUCIARY ACTIVITIES
In accordance with SFFAS No. 31, Accounting for Fiduciary Activities, fiduciary type activities and related
transactions will no longer be reported by the Department in its proprietary financial statements. Fiduciary activities
are the collection or receipt, and the management, protection, accounting, investment, and disposition by the U.S.
Government of cash or other assets in which non-Federal individuals or entities have an ownership interest that the
U.S. Government must uphold. Fiduciary cash and other assets are not assets of the U.S. Government. While these
activities are not reported in the Department’s consolidated financial statements, they are required to be reported on
schedules in the notes to the financial statements.

AB. RELATED PARTIES
The primary “related parties” with whom the Department conducts business are other federal agencies, mainly
through the normal lending activities of the BPD and the FFB. These activities are disclosed in these financial
statements. The Department utilizes the services of the FRB to execute a variety of transactions on behalf of the BPD
and the ESF. The FRB is serving as the Department’s fiscal agent in executing these transactions and receives fees for
its services. The Department also consults with the FRB on matters affecting the economy, such as the structuring of
bailout financing for the GSEs, AIG, and other companies affected by the current economic situation. Transactions
and balances arising from these transactions are accounted for and disclosed in the consolidated financial statements.

Finally, the Secretary serves on the FHFA Oversight Board, and consults with the Director of FHFA on matters
involving Fannie Mae and Freddie Mac.         This provides the Department a voice in the FHFA’s actions as the
conservator for Fannie Mae and Freddie Mac. The Department has no transactions with FHFA.
AC. IMMATERIAL CORRECTION OF ERROR IN PREVIOUSLY ISSUED FINANCIAL STATEMENTS
The Department’s previously issued fiscal year 2010 consolidated financial statements have been revised to correct
immaterial errors. Specifically, the amounts of custodial revenue collected by tax year associated with “Corporate
Income Taxes” were incorrectly reported. Additionally, the amounts of federal tax refunds paid by tax year associated
with “Individual Income and FICA Taxes” were incorrectly reported. However, the total amount of custodial revenue
collected and the total of Federal tax refunds paid for fiscal year 2010 were properly reported. Accordingly, these
errors had no impact on the Department’s consolidated financial results or financial position, nor did they impact the
Statements of Custodial Activity. Management of the Department believes these errors were immaterial to the fiscal
year 2010 amounts of the Department’s consolidated financial statements taken as a whole.
                                                             U.S.Department of the Treasury                              11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2011                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2011-SEPTEMBER        2010-SEPTEMBER
 BS              Accounts Receivable                              A                   D                        407                   361
                                                                                 Variance:                          0                     0

Trading          Name                           Status 2011-SEPTEMBER      2010-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     20                        12                   12                     0
 1300 Department of Commerce                                         0                         1                    1                     0
 1400 Department of the Interior                                    21                        18                   18                     0
 2800 Social Security Administration                                10                         7                    7                     0
 3600 DEPARTMENT OF VETERANS                                         9                         8                    8                     0
        AFFAIRS
 4700 General Services Administration                              170                       128                  128                     0
 4900 National Science Foundation                                    0                         1                    1                     0
 5100 Federal Deposit Insurance Corporation                          2                         0                    0                     0
 6900 Department of Transportation                                   3                         0                    0                     0
 7000 Department of Homeland Security                                2                         1                    1                     0
 7500 Department of Health and Human                                71                        52                   52                     0
        Services
 9500 Independent and Other Agencies                                 5                         1                    1                     0
 DE00 Department of Defense                                         94                       132                  132                     0
                                  Total                            407                       361                  361                     0




                                                                          -1-
                                                             U.S.Department of the Treasury                              11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2011                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2011-SEPTEMBER        2010-SEPTEMBER
 BS              Advances to Others and Prepayments               A                   D                         2                     3
                                                                                 Variance:                          0                     0

Trading        Name                             Status 2011-SEPTEMBER      2010-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1800 United States Postal Service                                   1                         1                    1                     0
 9500 Independent and Other Agencies                                 1                         1                    1                     0
 DE00 Department of Defense                                          0                         1                    1                     0
                                  Total                              2                         3                    3                     0

Agency FS Status CP Line Description                              Account Type        NB           2011-SEPTEMBER        2010-SEPTEMBER
 BS              Federal Investments                              A                   D                        739                   815
                                                                                 Variance:                          0                     0

Trading        Name                             Status 2011-SEPTEMBER      2010-SEPTEMBER          Previously Reported    Line item Changes
Partner
 5100 Federal Deposit Insurance Corporation                        739                       815                  815                     0
                                  Total                            739                       815                  815                     0




                                                                          -2-
                                                             U.S.Department of the Treasury                              11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2011                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2011-SEPTEMBER        2010-SEPTEMBER
 BS              Interest Receivable                              A                   D                        225                   413
                                                                                 Variance:                          0                     0

Trading        Name                             Status 2011-SEPTEMBER      2010-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     47                        53                   53                     0
 1400 Department of the Interior                                     0                       183                  183                     0
 1800 United States Postal Service                                  47                        41                   41                     0
 2500 National Credit Union Administration                           2                        15                   15                     0
 4700 General Services Administration                               33                        34                   34                     0
 6000 Railroad Retirement Board                                     52                        54                   54                     0
 6900 Department of Transportation                                   1                         0                    0                     0
 8900 Department of Energy                                          35                        25                   25                     0
 9100 Department of Education                                        5                         4                    4                     0
 9500 Independent and Other Agencies                                 3                         4                    4                     0
                                  Total                            225                       413                  413                     0




                                                                          -3-
                                                           U.S.Department of the Treasury                                  11-15-2011 11:33:58
                                                           Financial Management Service
                                                       Governmentwide Financial Report System

                                                  GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                         Fiscal Year: 2011                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                     Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                             Account Type        NB              2011-SEPTEMBER        2010-SEPTEMBER
 BS              Loans Receivable                                A                   D                         771,198               586,551
                                                                                Variance:                              0                    0

Trading          Name                         Status 2011-SEPTEMBER       2010-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                89,535                       87,862                87,862                    0
 1300 Department of Commerce                                      540                          518                   518                    0
 1400 Department of the Interior                                  278                          308                   308                    0
 1601 Department of Labor                                      48,936                       40,401                40,401                    0
 1800 United States Postal Service                             13,000                       12,000                12,000                    0
 1900 Department of State                                           3                            3                     3                    0
 2500 National Credit Union Administration                      3,500                       10,101                10,101                    0
 2700 Federal Communications Commission                            51                           88                    88                    0
 3600 DEPARTMENT OF VETERANS                                    1,680                        1,655                 1,655                    0
        AFFAIRS
 4700 General Services Administration                           1,898                        1,973                 1,973                    0
 6000 Railroad Retirement Board                                 3,484                        3,481                 3,481                    0
 6800 Environmental Protection Agency                               3                            5                     5                    0
 6900 Department of Transportation                              4,343                        3,078                 3,078                    0
 7000 Department of Homeland Security                          17,754                       18,504                18,504                    0
 7200 Agency for International Development                        478                          478                   478                    0
 7300 Small Business Administration                            11,190                       11,754                11,754                    0
 7500 Department of Health and Human                                1                            1                     1                    0
        Services
 8300 Export-Import Bank of the United States                   8,279                       7,254                  7,254                    0
 8600 Department of Housing and Urban                           6,090                       4,774                  4,774                    0
        Development

                                                                         -4-
                                                             U.S.Department of the Treasury                               11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2011                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2011-SEPTEMBER       2010-SEPTEMBER          Previously Reported    Line item Changes
Partner
 8900 Department of Energy                                      10,033                     5,532                 5,532                     0
 9100 Department of Education                                  547,103                   374,331               374,331                     0
 9500 Independent and Other Agencies                             2,236                     1,932                 1,932                     0
 DE00 Department of Defense                                        783                       518                   518                     0
                                  Total                        771,198                   586,551               586,551                     0


Agency FS Status CP Line Description                               Account Type        NB           2011-SEPTEMBER        2010-SEPTEMBER
 BS              Other Assets (without reciprocals)                A                   D                    14,902,717            13,655,637
                                                                                  Variance:                           0                    0

Trading        Name                             Status 2011-SEPTEMBER       2010-SEPTEMBER          Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                  14,902,717                13,655,637            13,655,637                    0
                                  Total                      14,902,717                13,655,637            13,655,637                    0




                                                                           -5-
                                                             U.S.Department of the Treasury                             11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2011                            Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB          2011-SEPTEMBER        2010-SEPTEMBER
 BS              Accounts Payable                                 L                   C                       159                   108
                                                                                 Variance:                         0                     0

Trading          Name                           Status 2011-SEPTEMBER      2010-SEPTEMBER         Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     21                       20                   20                     0
 1400 Department of the Interior                                     6                        5                    5                     0
 1500 Department of Justice                                          6                        5                    5                     0
 1601 Department of Labor                                           15                       14                   14                     0
 1800 United States Postal Service                                  13                       19                   19                     0
 1900 Department of State                                            1                        0                    0                     0
 2400 Office of Personnel Management                                12                        6                    6                     0
 2800 Social Security Administration                                 1                        0                    0                     0
 3600 DEPARTMENT OF VETERANS                                         4                        3                    3                     0
        AFFAIRS
 4700 General Services Administration                                6                        9                    9                     0
 6900 Department of Transportation                                   0                        1                    1                     0
 7000 Department of Homeland Security                                2                        1                    1                     0
 7300 Small Business Administration                                  2                        1                    1                     0
 7500 Department of Health and Human                                39                       10                   10                     0
        Services
 8900 Department of Energy                                           0                        1                    1                     0
 9100 Department of Education                                       14                        2                    2                     0
 9500 Independent and Other Agencies                                 4                        4                    4                     0
 9999 Unidentified                                                   6                        3                    3                     0
 DE00 Department of Defense                                          7                        4                    4                     0


                                                                          -6-
                                                             U.S.Department of the Treasury                                11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2011                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading           Name                          Status 2011-SEPTEMBER      2010-SEPTEMBER            Previously Reported    Line item Changes
Partner
                                  Total                           (159)                      (108)                 (108)                    0




Agency FS Status CP Line Description                              Account Type        NB             2011-SEPTEMBER        2010-SEPTEMBER
 BS              Advances from Others and Deferred Credits        L                   C                           56                    34
                                                                                 Variance:                            0                     0

Trading         Name                            Status 2011-SEPTEMBER      2010-SEPTEMBER            Previously Reported    Line item Changes
Partner
 1300 Department of Commerce                                         6                          0                     0                     0
 1500 Department of Justice                                          2                          3                     3                     0
 1601 Department of Labor                                           12                          0                     0                     0
 1900 Department of State                                           12                          8                     8                     0
 7000 Department of Homeland Security                                6                          8                     8                     0
 7200 Agency for International Development                          13                         11                    11                     0
 7300 Small Business Administration                                  1                          0                     0                     0
 8600 Department of Housing and Urban                                1                          1                     1                     0
        Development
 8900 Department of Energy                                           0                          3                     3                     0
 9500 Independent and Other Agencies                                 3                          0                     0                     0



                                                                          -7-
                                                             U.S.Department of the Treasury                                11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2011                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading           Name                          Status 2011-SEPTEMBER      2010-SEPTEMBER            Previously Reported    Line item Changes
Partner
                                  Total                            (56)                       (34)                  (34)                    0




Agency FS Status CP Line Description                              Account Type        NB             2011-SEPTEMBER        2010-SEPTEMBER
 BS              Benefit Program Contributions Payable            L                   C                          239                   226
                                                                                 Variance:                            0                     0

Trading         Name                            Status 2011-SEPTEMBER      2010-SEPTEMBER            Previously Reported    Line item Changes
Partner
 1601 Department of Labor                                          124                       123                    123                     0
 2400 Office of Personnel Management                                89                        78                     78                     0
 2800 Social Security Administration                                26                         0                      0                     0
 9900 Treasury General Fund                                          0                        25                     25                     0
                                  Total                           (239)                      (226)                 (226)                    0




                                                                          -8-
                                                             U.S.Department of the Treasury                                 11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2011                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB             2011-SEPTEMBER        2010-SEPTEMBER
 BS              Federal Debt                                     L                    C                       4,680,864             4,549,495
                                                                                 Variance:                             0                     0

Trading         Name                            Status 2011-SEPTEMBER      2010-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                    135                          151                   151                    0
 1400 Department of the Interior                                 6,722                        7,257                 7,257                    0
 1500 Department of Justice                                      2,891                        2,668                 2,668                    0
 1601 Department of Labor                                       16,093                       19,117                19,117                    0
 1602 PENSION BENEFIT GUARANTY                                  22,075                       20,956                20,956                    0
        CORPORATION
 1800 United States Postal Service                                1,815                    1,391                    1,391                    0
 1900 Department of State                                        16,433                   15,901                   15,901                    0
 2400 Office of Personnel Management                            906,607                  876,665                  876,665                    0
 2500 National Credit Union Administration                       15,326                   11,904                   11,904                    0
 2700 Federal Communications Commission                           5,816                    6,083                    6,083                    0
 2800 Social Security Administration                          2,654,497                2,586,332                2,586,332                    0
 3600 DEPARTMENT OF VETERANS                                      9,904                   10,569                   10,569                    0
        AFFAIRS
 5000 Securities and Exchange Commission                           451                            0                     0                    0
 5100 Federal Deposit Insurance Corporation                     46,089                       46,989                46,989                    0
 6000 Railroad Retirement Board                                  2,159                        2,375                 2,375                    0
 6400 Tennessee Valley Authority                                    25                          225                   225                    0
 6800 Environmental Protection Agency                            7,097                        7,218                 7,218                    0
 6900 Department of Transportation                              26,629                       33,008                33,008                    0
 7000 Department of Homeland Security                            4,148                        3,472                 3,472                    0


                                                                           -9-
                                                             U.S.Department of the Treasury                                    11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2011                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2011-SEPTEMBER       2010-SEPTEMBER              Previously Reported     Line item Changes
Partner
 7500 Department of Health and Human                           321,827                     355,803                 355,803                      0
        Services
 7802 Farm Credit System Insurance                                3,262                         3,113                 3,113                     0
        Corporation
 8000 National Aeronautics and Space                                 17                           17                     17                     0
        Administration
 8600 Department of Housing and Urban                             6,244                         7,678                 7,678                     0
        Development
 8900 Department of Energy                                      33,106                      31,215                  31,215                      0
 9500 Independent and Other Agencies                             7,515                       7,197                   7,197                      0
 DE00 Department of Defense                                    563,981                     492,191                 492,191                      0
                                  Total                      (4,680,864)                 (4,549,495)             (4,549,495)                    0

Agency FS Status CP Line Description                               Account Type          NB             2011-SEPTEMBER         2010-SEPTEMBER
 BS              Interest Payable                                  L                     C                        47,841                 48,665
                                                                                    Variance:                             0                     0

Trading         Name                            Status 2011-SEPTEMBER       2010-SEPTEMBER              Previously Reported     Line item Changes
Partner
 1200 Department of Agriculture                                      1                             1                     1                      0
 1400 Department of the Interior                                    20                            22                    22                      0
 1601 Department of Labor                                          121                           165                   165                      0
 1602 PENSION BENEFIT GUARANTY                                     182                           179                   179                      0
        CORPORATION
 1900 Department of State                                           181                           186                   186                     0
 2400 Office of Personnel Management                              9,593                         9,646                 9,646                     0

                                                                           - 10 -
                                                             U.S.Department of the Treasury                              11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2011                            Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2011-SEPTEMBER      2010-SEPTEMBER         Previously Reported     Line item Changes
Partner
 2500 National Credit Union Administration                          73                     68                      68                     0
 2700 Federal Communications Commission                              7                      5                       5                     0
 2800 Social Security Administration                            28,085                 28,894                  28,894                     0
 3600 DEPARTMENT OF VETERANS                                       128                    142                     142                     0
        AFFAIRS
 5000 Securities and Exchange Commission                             1                      0                       0                     0
 5100 Federal Deposit Insurance Corporation                        178                     16                      16                     0
 6000 Railroad Retirement Board                                      5                      7                       7                     0
 6800 Environmental Protection Agency                               16                     25                      25                     0
 6900 Department of Transportation                                  53                     43                      43                     0
 7000 Department of Homeland Security                               11                      9                       9                     0
 7500 Department of Health and Human                             3,616                  4,078                   4,078                     0
        Services
 7802 Farm Credit System Insurance                                  20                     17                      17                     0
        Corporation
 8600 Department of Housing and Urban                               29                     43                      43                     0
        Development
 8900 Department of Energy                                         111                    122                     122                     0
 9500 Independent and Other Agencies                                49                     51                      51                     0
 DE00 Department of Defense                                      5,361                  4,946                   4,946                     0
                                  Total                        (47,841)               (48,665)                (48,665)                    0




                                                                          - 11 -
                                                                  U.S.Department of the Treasury                                   11-15-2011 11:33:58
                                                                  Financial Management Service
                                                              Governmentwide Financial Report System

                                                           GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                                 Fiscal Year: 2011                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                             Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                     Account Type         NB            2011-SEPTEMBER         2010-SEPTEMBER
 BS              Liability to the General Fund for custodial and other   L                    C                      1,226,475              1,414,252
                 non-entity assets
                                                                                         Variance:                            0                     0

Trading                                                    2011-SEPTEMBER         2010-SEPTEMBER            Previously Reported     Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                        1,226,475                   1,414,252              1,414,252                     0
                                  Total                           (1,226,475)                 (1,414,252)            (1,414,252)                    0


Agency FS Status CP Line Description                                     Account Type         NB            2011-SEPTEMBER         2010-SEPTEMBER
 BS              Other Liabilities (without reciprocals)                 L                    C                          (2)                    (2)
                                                                                         Variance:                            0                     0

Trading        Name                             Status 2011-SEPTEMBER             2010-SEPTEMBER            Previously Reported     Line item Changes
Partner
 4700 General Services Administration                                     (1)                         (2)                    (2)                    0
 7000 Department of Homeland Security                                     (1)                          0                      0                     0
                                  Total                                    2                           2                      2                     0




                                                                                - 12 -
                                                             U.S.Department of the Treasury                                   11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                    GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2011                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type         NB              2011-SEPTEMBER        2010-SEPTEMBER
 NCS             Borrowing and Other Interest Revenue (Exchange)   ER                   C                         28,821                24,181
                                                                                   Variance:                             0                     0

Trading         Name                          Status 2011-SEPTEMBER         2010-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                 4,157                          4,141                  4,141                    0
 1300 Department of Commerce                                       26                             27                     27                    0
 1400 Department of the Interior                                    4                              4                      4                    0
 1601 Department of Labor                                       1,656                          1,255                  1,255                    0
 1800 United States Postal Service                                171                            157                    157                    0
 2500 National Credit Union Administration                          6                             73                     73                    0
 2700 Federal Communications Commission                             8                              7                      7                    0
 3600 DEPARTMENT OF VETERANS                                      143                            111                    111                    0
        AFFAIRS
 4700 General Services Administration                             129                            134                   134                     0
 6000 Railroad Retirement Board                                   128                            137                   137                     0
 6800 Environmental Protection Agency                               0                              1                     1                     0
 6900 Department of Transportation                                187                            142                   142                     0
 7000 Department of Homeland Security                              61                            115                   115                     0
 7200 Agency for International Development                         25                             25                    25                     0
 7300 Small Business Administration                               511                            547                   547                     0
 8300 Export-Import Bank of the United States                     439                            424                   424                     0
 8600 Department of Housing and Urban                             414                            316                   316                     0
        Development
 8900 Department of Energy                                        404                             197                   197                    0
 9100 Department of Education                                  20,196                          16,221                16,221                    0


                                                                          - 13 -
                                                             U.S.Department of the Treasury                                   11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2011                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2011-SEPTEMBER      2010-SEPTEMBER              Previously Reported     Line item Changes
Partner
 9500 Independent and Other Agencies                               118                         122                    122                      0
 DE00 Department of Defense                                         38                          25                     25                      0
                                  Total                        (28,821)                    (24,181)                (24,181)                    0




Agency FS Status CP Line Description                              Account Type          NB             2011-SEPTEMBER         2010-SEPTEMBER
 NCS             Borrowings Gains                                 ER                    C                           64                    160
                                                                                   Variance:                             0                     0

Trading         Name                            Status 2011-SEPTEMBER      2010-SEPTEMBER              Previously Reported     Line item Changes
Partner
 1200 Department of Agriculture                                     26                           0                      0                      0
 2500 National Credit Union Administration                          12                           2                      2                      0
 7000 Department of Homeland Security                               11                           3                      3                      0
 8600 Department of Housing and Urban                                0                         154                    154                      0
        Development
 8900 Department of Energy                                          15                            0                      0                     0
 9100 Department of Education                                        0                            1                      1                     0
                                  Total                            (64)                        (160)                 (160)                     0




                                                                          - 14 -
                                                             U.S.Department of the Treasury                               11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2011                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB           2011-SEPTEMBER        2010-SEPTEMBER
 NCS             Buy/Sell Revenue                                 ER                   C                       1,265                  219
                                                                                  Variance:                          0                     0

Trading          Name                           Status 2011-SEPTEMBER      2010-SEPTEMBER           Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     10                         10                   10                     0
 1300 Department of Commerce                                         2                          2                    2                     0
 1500 Department of Justice                                          7                         10                   10                     0
 1601 Department of Labor                                          100                          2                    2                     0
 1900 Department of State                                            5                          6                    6                     0
 2400 Office of Personnel Management                                 1                          1                    1                     0
 2800 Social Security Administration                               859                        106                  106                     0
 3600 DEPARTMENT OF VETERANS                                        10                         10                   10                     0
        AFFAIRS
 4700 General Services Administration                                6                          1                    1                     0
 4900 National Science Foundation                                    0                          1                    1                     0
 5100 Federal Deposit Insurance Corporation                          2                          0                    0                     0
 6000 Railroad Retirement Board                                      1                          1                    1                     0
 7000 Department of Homeland Security                               16                         15                   15                     0
 7200 Agency for International Development                           3                          2                    2                     0
 7500 Department of Health and Human                               172                          4                    4                     0
        Services
 8000 National Aeronautics and Space                                 1                          1                    1                     0
        Administration
 8600 Department of Housing and Urban                                7                          6                    6                     0
        Development
 8900 Department of Energy                                           2                          2                    2                     0


                                                                         - 15 -
                                                             U.S.Department of the Treasury                                  11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2011                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2011-SEPTEMBER      2010-SEPTEMBER              Previously Reported    Line item Changes
Partner
 9100 Department of Education                                        2                            3                     3                     0
 9500 Independent and Other Agencies                                54                           32                    32                     0
 DE00 Department of Defense                                          5                            4                     4                     0
                                  Total                         (1,265)                        (219)                 (219)                    0



Agency FS Status CP Line Description                              Account Type          NB             2011-SEPTEMBER        2010-SEPTEMBER
 NCS             Benefit Program Costs                            GC                    D                         1,744                 2,119
                                                                                   Variance:                             0                    0

Trading         Name                            Status 2011-SEPTEMBER      2010-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1601 Department of Labor                                          101                           101                   101                    0
 2400 Office of Personnel Management                             1,630                         1,523                 1,523                    0
 2800 Social Security Administration                                12                             0                     0                    0
 6900 Department of Transportation                                   1                             2                     2                    0
 9900 Treasury General Fund                                          0                           493                   493                    0
                                  Total                          1,744                         2,119                 2,119                    0




                                                                          - 16 -
                                                            U.S.Department of the Treasury                                 11-15-2011 11:33:58
                                                            Financial Management Service
                                                        Governmentwide Financial Report System

                                                    GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                 Fiscal Year: 2011                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                     Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                             Account Type         NB             2011-SEPTEMBER        2010-SEPTEMBER
 NCS             Borrowing and Other Interest Expense            GC                   D                         8,016                 8,192
                                                                                 Variance:                             0                    0

Trading          Name                         Status 2011-SEPTEMBER       2010-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                   592                         671                   671                     0
 1300 Department of Commerce                                        1                           2                     2                     0
 1400 Department of the Interior                                    5                           4                     4                     0
 2700 Federal Communications Commission                             5                           1                     1                     0
 3600 DEPARTMENT OF VETERANS                                      197                         141                   141                     0
        AFFAIRS
 6900 Department of Transportation                                 36                          34                    34                     0
 7200 Agency for International Development                        129                         132                   132                     0
 7300 Small Business Administration                               308                         247                   247                     0
 7500 Department of Health and Human                                4                           3                     3                     0
        Services
 8300 Export-Import Bank of the United States                     191                          249                   249                    0
 8600 Department of Housing and Urban                           1,866                        1,680                 1,680                    0
        Development
 8900 Department of Energy                                        161                           94                    94                    0
 9100 Department of Education                                   4,456                        4,881                 4,881                    0
 9500 Independent and Other Agencies                               62                           51                    51                    0
 DE00 Department of Defense                                         3                            2                     2                    0
                                  Total                         8,016                        8,192                 8,192                    0




                                                                        - 17 -
                                                             U.S.Department of the Treasury                                 11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2011                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB             2011-SEPTEMBER        2010-SEPTEMBER
 NCS             Buy/Sell Costs                                   GC                   D                         1,736                 1,642
                                                                                  Variance:                             0                    0

Trading          Name                           Status 2011-SEPTEMBER      2010-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     27                          46                    46                     0
 1300 Department of Commerce                                         1                           2                     2                     0
 1400 Department of the Interior                                    18                          19                    19                     0
 1500 Department of Justice                                         14                          17                    17                     0
 1601 Department of Labor                                            6                           6                     6                     0
 1800 United States Postal Service                                 276                         286                   286                     0
 1900 Department of State                                           16                          15                    15                     0
 2400 Office of Personnel Management                                24                          34                    34                     0
 4700 General Services Administration                              841                         827                   827                     0
 6800 Environmental Protection Agency                               28                           2                     2                     0
 6900 Department of Transportation                                  84                          31                    31                     0
 7000 Department of Homeland Security                              184                         151                   151                     0
 7200 Agency for International Development                          36                          13                    13                     0
 7500 Department of Health and Human                                53                          46                    46                     0
        Services
 8900 Department of Energy                                           5                          10                    10                     0
 9500 Independent and Other Agencies                               109                         126                   126                     0
 DE00 Department of Defense                                         14                          11                    11                     0
                                  Total                          1,736                        1,642                 1,642                    0




                                                                         - 18 -
                                                              U.S.Department of the Treasury                                  11-15-2011 11:33:58
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2011                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type         NB              2011-SEPTEMBER        2010-SEPTEMBER
 NCS             Federal Securities Interest Expense               GC                   D                         203,026               198,597
                                                                                   Variance:                             0                     0

Trading          Name                           Status 2011-SEPTEMBER       2010-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                       5                            5                      5                    0
 1400 Department of the Interior                                    119                          125                    125                    0
 1500 Department of Justice                                           6                            5                      5                    0
 1601 Department of Labor                                           650                          778                    778                    0
 1602 PENSION BENEFIT GUARANTY                                    1,112                        1,520                  1,520                    0
        CORPORATION
 1800 United States Postal Service                                    1                         0                        0                     0
 1900 Department of State                                           744                       762                      762                     0
 2400 Office of Personnel Management                             38,486                    39,489                   39,489                     0
 2500 National Credit Union Administration                          236                       221                      221                     0
 2700 Federal Communications Commission                              24                        18                       18                     0
 2800 Social Security Administration                            115,169                   118,014                  118,014                     0
 3600 DEPARTMENT OF VETERANS                                        541                       598                      598                     0
        AFFAIRS
 5000 Securities and Exchange Commission                              1                             0                     0                    0
 5100 Federal Deposit Insurance Corporation                         147                           254                   254                    0
 6000 Railroad Retirement Board                                      55                            59                    59                    0
 6800 Environmental Protection Agency                               120                           130                   130                    0
 6900 Department of Transportation                                  239                           235                   235                    0
 7000 Department of Homeland Security                                27                            40                    40                    0
 7500 Department of Health and Human                             15,740                        17,355                17,355                    0
        Services

                                                                          - 19 -
                                                             U.S.Department of the Treasury                                  11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2011                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2011-SEPTEMBER      2010-SEPTEMBER              Previously Reported    Line item Changes
Partner
 7802 Farm Credit System Insurance                                  76                           65                    65                     0
        Corporation
 8000 National Aeronautics and Space                                 1                            1                      1                    0
        Administration
 8600 Department of Housing and Urban                              484                        1,358                  1,358                    0
        Development
 8900 Department of Energy                                       1,442                         1,372                 1,372                    0
 9500 Independent and Other Agencies                               213                           226                   226                    0
 DE00 Department of Defense                                     27,388                        15,967                15,967                    0
                                  Total                        203,026                   198,597                  198,597                     0

Agency FS Status CP Line Description                              Account Type         NB              2011-SEPTEMBER        2010-SEPTEMBER
 NCS             Imputed Costs                                    GC                   D                           925                  1,008
                                                                                  Variance:                              0                    0

Trading         Name                            Status 2011-SEPTEMBER      2010-SEPTEMBER              Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                               919                        1,008                  1,008                    0
 7000 Department of Homeland Security                                6                            0                      0                    0
                                  Total                            925                        1,008                  1,008                    0




                                                                         - 20 -
                                                               U.S.Department of the Treasury                             11-15-2011 11:33:58
                                                               Financial Management Service
                                                           Governmentwide Financial Report System

                                                        GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                    Fiscal Year: 2011                            Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                        Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type         NB         2011-SEPTEMBER        2010-SEPTEMBER
 NCS             Other Expenses (without reciprocals)               GC                   D                      485                    0
                                                                                    Variance:                        0                     0

Trading        Name                             Status 2011-SEPTEMBER        2010-SEPTEMBER         Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                          485                        0                    0                     0
                                  Total                              485                        0                    0                     0




                                                                           - 21 -
                                                                U.S.Department of the Treasury                               11-15-2011 11:33:58
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2011                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type           NB          2011-SEPTEMBER        2010-SEPTEMBER
 CUST            Accrual for Non-entity Amounts to be Collected and CF                     D                      (153)                   0
                 Transferred to the General Fund
                                                                                      Variance:                         0                     0

Trading                                                  2011-SEPTEMBER       2010-SEPTEMBER           Previously Reported    Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                          (153)                         0                    0                     0
                                  Total                              (153)                         0                    0                     0


Agency FS Status CP Line Description                                 Account Type          NB          2011-SEPTEMBER        2010-SEPTEMBER
 CUST            Expenditure Transfers-out of financing sources      CF                    D                        49                    74
                                                                                      Variance:                         0                     0

Trading        Name                             Status 2011-SEPTEMBER         2010-SEPTEMBER           Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                            49                         74                   74                     0
                                  Total                                49                         74                   74                     0




                                                                             - 22 -
                                                                U.S.Department of the Treasury                                     11-15-2011 11:33:58
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                       Fiscal Year: 2011                                  Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                          Reported in: MILLIONS                       Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                 Account Type          NB               2011-SEPTEMBER         2010-SEPTEMBER
 CUST            Non-Entity Collections Transferred to the General   CF                    D                         2,096,426              1,972,885
                 Fund
                                                                                      Variance:                               0                     0

Trading                                                  2011-SEPTEMBER       2010-SEPTEMBER                Previously Reported     Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                      2,096,426                  1,972,885                 1,972,885                     0
                                  Total                          2,096,426                  1,972,885                 1,972,885                     0


Agency FS Status CP Line Description                                 Account Type          NB               2011-SEPTEMBER         2010-SEPTEMBER
 CUST            Other budgetary financing sources                   F                     C                           (324)                  1,044
                                                                                      Variance:                               0                     0

Trading         Name                            Status 2011-SEPTEMBER         2010-SEPTEMBER                Previously Reported     Line item Changes
Partner
 1400 Department of the Interior                                     (324)                            0                      0                      0
 2800 Social Security Administration                                    0                           663                    663                      0
 6900 Department of Transportation                                      0                           381                    381                      0
                                  Total                               324                         (1,044)                (1,044)                    0




                                                                             - 23 -
                                                                U.S.Department of the Treasury                                   11-15-2011 11:33:58
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2011                                  Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                       Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                 Account Type          NB              2011-SEPTEMBER        2010-SEPTEMBER
 CUST            Other taxes and receipts                            F                     C                            3                     12
                                                                                      Variance:                             0                     0

Trading        Name                             Status 2011-SEPTEMBER         2010-SEPTEMBER               Previously Reported    Line item Changes
Partner
 1400 Department of the Interior                                        0                             1                     1                     0
 9900 Treasury General Fund                                             3                            11                    11                     0
                                   Total                               (3)                          (12)                  (12)                    0

Agency FS Status CP Line Description                                Account Type           NB              2011-SEPTEMBER        2010-SEPTEMBER
 SCNP            Accrual for Non-entity Amounts to be Collected and CF                     D                         (12,519)              93,265
                 Transferred to the General Fund
                                                                                      Variance:                             0                     0

Trading                                                  2011-SEPTEMBER       2010-SEPTEMBER               Previously Reported    Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                       (12,519)                        93,265                93,265                    0
                                   Total                          (12,519)                        93,265                93,265                    0




                                                                             - 24 -
                                                                 U.S.Department of the Treasury                                 11-15-2011 11:33:58
                                                                 Financial Management Service
                                                             Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                          Fiscal Year: 2011                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                             Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                     Account Type         NB          2011-SEPTEMBER        2010-SEPTEMBER
 SCNP            Appropriation of unavailable special or trust fund      CF                   D                        0                     14
                 receipts Transfers-out
                                                                                         Variance:                         0                     0

Trading                                                  2011-SEPTEMBER           2010-SEPTEMBER          Previously Reported    Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                                0                         14                   14                     0
                                  Total                                    0                         14                   14                     0


Agency FS Status CP Line Description                                     Account Type         NB          2011-SEPTEMBER        2010-SEPTEMBER
 SCNP            Non-Entity Collections Transferred to the General       CF                   D                     103,055                  0
                 Fund
                                                                                         Variance:                         0                     0

Trading                                                  2011-SEPTEMBER           2010-SEPTEMBER          Previously Reported    Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                           103,055                         0                    0                     0
                                  Total                               103,055                         0                    0                     0




                                                                                - 25 -
                                                                U.S.Department of the Treasury                               11-15-2011 11:33:58
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2011                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                 Account Type         NB           2011-SEPTEMBER        2010-SEPTEMBER
 SCNP            Nonexpenditure Transfers-out of unexpended          CF                   D                         4                     0
                 appropriations and financing sources
                                                                                     Variance:                          0                     0

Trading                                                  2011-SEPTEMBER       2010-SEPTEMBER           Previously Reported    Line item Changes
Partner       Name                              Status
 1900 Department of State                                               4                         0                     0                     0
                                  Total                                 4                         0                     0                     0


Agency FS Status CP Line Description                                 Account Type         NB           2011-SEPTEMBER        2010-SEPTEMBER
 SCNP            Transfers-out Without Reimbursement                 CF                   D                         60                    41
                                                                                     Variance:                          0                     0

Trading       Name                              Status 2011-SEPTEMBER         2010-SEPTEMBER           Previously Reported    Line item Changes
Partner
 1300 Department of Commerce                                            0                         1                     1                     0
 1500 Department of Justice                                             1                         4                     4                     0
 1601 Department of Labor                                               0                        (1)                   (1)                    0
 7000 Department of Homeland Security                                  59                        37                    37                     0
                                  Total                                60                        41                    41                     0




                                                                            - 26 -
                                                                U.S.Department of the Treasury                                     11-15-2011 11:33:58
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2011                                   Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                        Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                 Account Type          NB               2011-SEPTEMBER         2010-SEPTEMBER
 SCNP            Imputed Financing Source                            F                     C                            925                   1,008
                                                                                      Variance:                               0                     0

Trading         Name                            Status 2011-SEPTEMBER         2010-SEPTEMBER                Previously Reported     Line item Changes
Partner
 2400 Office of Personnel Management                                  919                         1,008                   1,008                     0
 7000 Department of Homeland Security                                   6                             0                       0                     0
                                  Total                              (925)                        (1,008)                (1,008)                    0

Agency FS Status CP Line Description                                 Account Type          NB               2011-SEPTEMBER         2010-SEPTEMBER
 SCNP            Nonexpenditure transfers-in of unexpended           F                     C                            133                     92
                 appropriations and financing sources
                                                                                      Variance:                               0                     0

Trading                                                  2011-SEPTEMBER       2010-SEPTEMBER                Previously Reported     Line item Changes
Partner        Name                             Status
 1900 Department of State                                               9                              4                      4                     0
 7200 Agency for International Development                            123                             88                     88                     0
 9500 Independent and Other Agencies                                    1                              0                      0                     0
                                  Total                              (133)                           (92)                   (92)                    0




                                                                             - 27 -
                                                            U.S.Department of the Treasury                                     11-15-2011 11:33:58
                                                            Financial Management Service
                                                        Governmentwide Financial Report System

                                                     GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                    Fiscal Year: 2011                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type          NB              2011-SEPTEMBER         2010-SEPTEMBER
 SCNP            Other budgetary financing sources                F                     C                         (18,823)               (24,671)
                                                                                   Variance:                              0                     0

Trading          Name                         Status 2011-SEPTEMBER        2010-SEPTEMBER               Previously Reported     Line item Changes
Partner
 1200 Department of Agriculture                                      4                             1                     1                      0
 1400 Department of the Interior                                   (13)                         (361)                 (361)                     0
 1500 Department of Justice                                          3                             3                     3                      0
 1601 Department of Labor                                            0                             4                     4                      0
 1900 Department of State                                            0                             1                     1                      0
 3600 DEPARTMENT OF VETERANS                                        13                             7                     7                      0
        AFFAIRS
 4700 General Services Administration                               44                            27                    27                      0
 6900 Department of Transportation                                  29                           208                   208                      0
 7000 Department of Homeland Security                              123                             1                     1                      0
 7500 Department of Health and Human                                22                           157                   157                      0
        Services
 8000 National Aeronautics and Space                                 0                             2                      2                     0
        Administration
 8300 Export-Import Bank of the United States                        0                             1                      1                     0
 8600 Department of Housing and Urban                                1                             0                      0                     0
        Development
 8900 Department of Energy                                           7                           7                        7                     0
 9500 Independent and Other Agencies                                 2                           3                        3                     0
 9900 Treasury General Fund                                    (19,088)                    (24,895)                 (24,895)                    0
 DE00 Department of Defense                                         30                         163                      163                     0
                                  Total                         18,823                         24,671                24,671                     0


                                                                          - 28 -
                                                             U.S.Department of the Treasury                               11-15-2011 11:33:58
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2011                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading           Name                          Status 2011-SEPTEMBER      2010-SEPTEMBER           Previously Reported    Line item Changes
Partner




Agency FS Status CP Line Description                              Account Type         NB           2011-SEPTEMBER        2010-SEPTEMBER
 SCNP            Transfers-in Without Reimbursement               F                    C                         0                     (1)
                                                                                  Variance:                          0                     0

Trading       Name                              Status 2011-SEPTEMBER      2010-SEPTEMBER           Previously Reported    Line item Changes
Partner
 1601 Department of Labor                                           0                         (1)                   (1)                    0
                                  Total                             0                          1                     1                     0




                                                                         - 29 -
                                                                                                                                                                       11/15/2011 11:33:11

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 02             Taxes                                                                                         Fiscal Year: 2011                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                        Agency Notes:        Appendix A
      Status: Complete                                                                    I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxes (SSFAS No.7, par. 67-69)                                                Line Attributes: Dollars
                                                                                                                        Rounding Method: Millions                Decimal: Zero
Line Status   Line Description        NB      2011 - SEPTEMBER         2010 - SEPTEMBER              Previously Rptd       Line Item Changes
 1            Estimated realized      Debit                102,693                 93,000                      93,000                          0
              value of compliance
              assessments as of
              the end of the period
 2            Estimated realizable    Debit
              value of pre-
              assessment work-
              in-progress
 3            Changes in 1 and 2      Debit
              above
 4            Other claims for        Debit                 15,600                 27,587                      27,587                          0
              refunds not yet
              accrued but likely to
              be paid when
              administrative
              actions are
              completed
 5            Management's best       Debit
              estimate of
              unasserted claims for
              refunds
 6            Changes in 4 and 5      Debit
              above
 7            Amount of               Debit                106,519                 99,000                      99,000                          0
              assessments written
              off that continue to
              be statutorily
              collectible




                                                                                               - 1 -
                                                                                                                                                                                                    11/15/2011 11:33:11

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report

 Other Data: 02                Taxes                                                                                                            Fiscal Year: 2011                  Period: SEPTEMBER
        Entity: 2000           Department of the Treasury                                                                                            Agency Notes:        Appendix A
        Status: Complete                                                                                    I = Inactive Line


  Tab: Other Data Info.
      Section: B                 Section Name: Provide the following amount if a range is estimable               No Data: YES                 Line Attributes: Dollars
                                               and not included in Sec. A (SFFAS No. 7 par 67)                                               Rounding Method: User-Defined                   Decimal: User-Defined


Line Status     Line Description          NB                      CY Low                          CY High                       PY Low                      PY High
 1              Realizable value of      Debit
                pre-assessment
                work-in-progress
 2              Changes in line 1     Debit
                above
 3              Management's best     Debit
                estimate of
                unasserted claims for
                refunds
 4              Changes in line 3     Debit
                above

     Tab: Other Text Data

        Section: A                 Section Name: Taxes (SSFAS No.7, par. 67-69)

 Line         Question                                                                                                           Answer
 1            Provide the explicit definitions of estimated amounts of the size of the tax gap.                                 The tax gap is the difference between the amount of tax imposed by law and what taxpayers
                                                                                                                                actually pay on time. The tax gap arises from the three types of noncompliance: not filing
                                                                                                                                required tax returns on time or at all (the nonfiling gap), underreporting the correct amount of
                                                                                                                                tax on timely filed returns (the underreporting gap), and not paying on time the full amount
                                                                                                                                reported on timely filed returns (the underpayment gap). Of these three components, only the
                                                                                                                                underpayment gap is observed; the nonfiling gap and the underreporting gap must be
                                                                                                                                estimated. The tax gap, estimated to be about $345 billion for tax year 2001 (the most recent
                                                                                                                                estimate made), represents the net amount of noncompliance with the tax laws.
                                                                                                                                Underreporting of tax liability accounts for 82 percent of the gap, with the remainder almost
                                                                                                                                evenly divided between nonfiling (eight percent) and underpaying (ten percent). Part of the
                                                                                                                                estimate is based on data from a study of individual returns filed for tax year 2001. It does
                                                                                                                                not include any taxes that should have been paid on income from illegal activities. Each
                                                                                                                                instance of noncompliance by a taxpayer contributes to the tax gap, whether or not the IRS
                                                                                                                                detects it, and whether or not the taxpayer is even aware of the noncompliance. Some of the
                                                                                                                                tax gap arises from intentional (will full) noncompliance, and some of it arises from
                                                                                                                                unintentional mistakes.

                                                                                                                                The collection gap is the cumulative amount of tax, penalties, and interest that has been
                                                                                                                                assessed over many years, but has not been paid by a certain point in time, and which the
                                                                                                                                IRS expects to remain uncollectible. In essence, it represents the difference between the
                                                                                                                                total balance of unpaid assessments and the net taxes receivable reported on the balance
                                                                                                                                sheet of the IRS. The tax gap and the collection gap are related and overlapping concepts,



                                                                                                                 - 2 -
                                                                                                                                                                                                    11/15/2011 11:33:11

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                           GF007 - Other Data Report

Other Data: 02               Taxes                                                                                                            Fiscal Year: 2011                    Period: SEPTEMBER
       Entity: 2000          Department of the Treasury                                                                                            Agency Notes:        Appendix A
       Status: Complete                                                                                  I = Inactive Line



    Tab: Other Text Data

       Section: A                Section Name: Taxes (SSFAS No.7, par. 67-69)

Line        Question                                                                                                         Answer
                                                                                                                             but they have significant differences. The collection gap is a cumulative balance sheet
                                                                                                                             concept for a particular point in time, while the tax gap is like an income statement item for a
                                                                                                                             single year. Moreover, the tax gap estimates include all noncompliance, while the collection
                                                                                                                             gap included only amounts that have been assessed (a small portion of all noncompliance)
                                                                                                                             and have not yet reached their statutory collection expiration date. Also, the tax gap includes
                                                                                                                             only tax, while the collection gap includes tax, penalties, and interest.

2           Provide the appropriate explanation of the limited reliability of the estimates of the size of the tax           The Internal Revenue Service developed the concept of the tax gap as a way to gauge
            gap.                                                                                                             taxpayer¿s compliance with their federal tax obligations. The tax gap measures the extent of
                                                                                                                             which taxpayers do not file their tax returns and pay the correct tax on time.
                                                                                                                             Previous estimates of the tax gap relied on detailed research that was conducted for tax
                                                                                                                             years 1988 and earlier. To update this research and reflect a changing economy, revisions to
                                                                                                                             the tax code and more subtle shifts in individual behavior, the IRS launched the National
                                                                                                                             Research Program (NRP) in 2001.
                                                                                                                             The current estimates based on the NRP are preliminary, so they are shown as ranges. As
                                                                                                                             refinements are made to the tax gap analysis, some of these estimates may change. It is
                                                                                                                             unlikely, but possible, that the final estimates of the tax gap will fall outside of the established
                                                                                                                             range.

3           Provide cross-references to portions of the tax gap due from identified noncompliant taxpayers                   N/A
            and importers.
4           Provide the estimates of the annual tax gap (amounts should specifically define whether it                       The tax gap figure does not include taxes that should have been paid on income from the
            includes or excludes estimates of tax due on illegally earned revenue).                                          illegal sector of the economy.
5           Disclose the amounts by which trust funds may be over- or under-funded in comparison with the                    N/A
            requirements of law, if reasonable estimable.




                                                                                                               - 3 -
                                                                                                                                                        11/15/2011 11:33:11

                                                                           U.S. Department of the Treasury
                                                                            Financial Management Service
                                                                       Governmentwide Financial Report System
                                                                              GF007 - Other Data Report

 Other Data: 03           Annual Revenues and Expenditures                                                         Fiscal Year: 2011         Period: SEPTEMBER
      Entity: 2000        Department of the Treasury                                                                  Agency Notes:    N/A
     Status: Complete                                                                  I = Inactive Line


  Tab: Other Data Info.
    Section: A              Section Name: Revenues from the Public                           No Data: YES          Line Attributes:


Line Status   Line Description     NB                         HI                 SMI                       OASDI




    Section: B              Section Name: Expenditures to the Public                         No Data: YES          Line Attributes:


Line Status   Line Description     NB                         HI                 SMI                       OASDI




                                                                                            - 4 -
                                                                                                                                                                 11/15/2011 11:33:11

                                                                          U.S. Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System
                                                                             GF007 - Other Data Report

 Other Data: 03           Annual Revenues and Expenditures                                                             Fiscal Year: 2011             Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                       Agency Notes:    N/A
      Status: Complete                                                                   I = Inactive Line


  Tab: Other Data Info.
     Section: C             Section Name: Revenue from Other Government Accounts               No Data: YES            Line Attributes:


Line Status   Line Description     NB                        HI                    SMI                       OASDI




     Section: D             Section Name: Net Result (Trust Fund)                              No Data: YES            Line Attributes: Dollars
                                                                                                                     Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description     NB                        HI                    SMI                       OASDI
 2      I                         Debit




                                                                                              - 5 -
                                                                                                                                                                       11/15/2011 11:33:11

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                 GF007 - Other Data Report

 Other Data: 09            Stewardship Investments                                                                           Fiscal Year: 2011             Period: SEPTEMBER
       Entity: 2000        Department of the Treasury                                                                            Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: A              Section Name: Investment in Non-Federal physical property (SFFAS      No Data: YES              Line Attributes: Dollars
                                           No. 8, par 87)                                                                  Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2011                   FY 2010                       FY 2009                FY 2008                 FY 2007
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other non-Federal     Debit
              physical property

     Section: B              Section Name: Research and Development: Investment in                 No Data: YES              Line Attributes: Dollars
                                           Development (SFFAS No. 8, par. 94, 99 & 100)                                    Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2011                   FY 2010                       FY 2009                FY 2008                 FY 2007
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other investment in   Debit
              development




                                                                                                  - 6 -
                                                                                                                                                                       11/15/2011 11:33:11

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 09            Stewardship Investments                                                                           Fiscal Year: 2011             Period: SEPTEMBER
       Entity: 2000        Department of the Treasury                                                                            Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: C              Section Name: Investment in Human Capital (SFFAS No. 8, par 100)      No Data: YES              Line Attributes: Dollars
                                                                                                                           Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description       NB                 FY 2011                    FY 2010                       FY 2009                FY 2008                 FY 2007
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other Investments in   Debit
              human capital


     Section: D              Section Name: Research and Development: Investment in Basic           No Data: YES              Line Attributes: Dollars
                                           Research (SFFAS No. 8, par.99 & 100)                                            Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description       NB                 FY 2011                    FY 2010                       FY 2009                FY 2008                 FY 2007
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other investments in   Debit
              basic research




                                                                                                  - 7 -
                                                                                                                                                                                  11/15/2011 11:33:11

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report

 Other Data: 09                Stewardship Investments                                                                                  Fiscal Year: 2011             Period: SEPTEMBER
         Entity: 2000         Department of the Treasury                                                                                    Agency Notes:    N/A
        Status: Complete                                                                                I = Inactive Line


     Tab: Other Data Info.
      Section: E                 Section Name: Research and Development: Investment in Applied                No Data: YES              Line Attributes: Dollars
                                               Research (SFFAS No. 8, par 100)                                                        Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                    FY 2011                       FY 2010                       FY 2009                FY 2008                 FY 2007
 1                                       Debit
 2                                       Debit
 3                                       Debit
 4                                       Debit
 5                                       Debit
 6               Other investment in     Debit
                 applied research


     Tab: Other Text Data

        Section: A                  Section Name: Investment in Non-Federal physical property (SFFAS             No Data: YES
                                                  No. 8, par 87)

 Line         Question                                                                                                      Answer
 1            Provide a description of federally owened physical property transferred to state and local
              governments. (SFFAS No. 8, par 87)
 2            Provide a description of the major programs of Federal investments in non-Federal physical
              property used in the "Other Data Info" tab. (SFFAS No.8 par. 87)
     Tab: Other Text Data

        Section: B                  Section Name: Research and Development: Investment in                        No Data: YES
                                                  Development (SFFAS No. 8, par. 94, 99 & 100)

 Line         Question                                                                                                      Answer
 1            Provide a description of the major programs of Federal investments in development used in the
              "Other Data Info" tab. (SFFAS No. 8, par. 100)
 2            Provide a description of the progress of major developmental projects including the results with
              respect to
              projects completed or otherwise terminated during the year and the status of projects that will
              continue (SFFAS No. 8,
              par. 99).




                                                                                                             - 8 -
                                                                                                                                                                      11/15/2011 11:33:11

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF007 - Other Data Report

Other Data: 09              Stewardship Investments                                                                              Fiscal Year: 2011         Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                              Agency Notes:    N/A
       Status: Complete                                                                             I = Inactive Line



    Tab: Other Text Data

       Section: C               Section Name: Investment in Human Capital (SFFAS No. 8, par 100)             No Data: YES

Line         Question                                                                                                   Answer
1           Provide a description of the major education and training programs considered Federal
            investments in human
            capital used in the "Other Data Info" tab (SFFAS No. 8, par. 94).
    Tab: Other Text Data

       Section: D               Section Name: Research and Development: Investment in Basic                  No Data: YES
                                              Research (SFFAS No. 8, par.99 & 100)

Line         Question                                                                                                   Answer
1           Provide a description of the major programs of Federal investments in basic research used in the
            "Other Data
            Info" tab (SFFAS No. 8, par. 100).
2           Provide a description of any major new discoveries made during the year (SFFAS No. 8, par. 99)
    Tab: Other Text Data

       Section: E               Section Name: Research and Development: Investment in Applied                No Data: YES
                                              Research (SFFAS No. 8, par 100)

Line         Question                                                                                                   Answer
1           Provide a description of the major programs of Federal investments in applied research used in
            the "Other Data
            Info" tab (SFFAS No. 8, par. 100).
2           Provide a description of any major new applications developed during the year (SFFAS No. 8,
            par. 99)




                                                                                                         - 9 -
                                                                                                                                                                   11/15/2011 11:33:11

                                                                           U.S. Department of the Treasury
                                                                            Financial Management Service
                                                                       Governmentwide Financial Report System
                                                                              GF007 - Other Data Report

 Other Data: 10             Deferred Maintenance                                                                       Fiscal Year: 2011             Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                     Agency Notes:       N/A
      Status: Complete                                                                I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Range of Amounts                                No Data: YES               Line Attributes: Dollars
                                                                                                                     Rounding Method: User-Defined          Decimal: User-Defined
Line Status   Line Description         NB                CY- Low   D       CY- High    D CY - Critical Maintenance             PY- Low     D            PY- High    D PY - Critical Maintenance
                                                                                                                 D                                                                            D
 1            Buildings, structures,   N/A
              and facilities
 2            Furniture, fixtures,     N/A
              and equipment
 3            Other general            N/A
              property, plant, and
              equipment
 4            Heritage assets          N/A
 5            Stewardship land         N/A




                                                                                          - 10 -
                                                                                                                                                                      11/15/2011 11:33:11

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 12           Tax Burden                                                                                Fiscal Year: 2011                Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                    Agency Notes:        OIA - Appendix A
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxable Returnes-Individual Income Tax Returns for                      Line Attributes: Units
                                            Tax Year 2009 for the following AGI levels


Line Status   Line Description       NB                        AGI
 1            Under $15,000          N/A            37,624,000.0000
 2            $15,000 under          N/A            30,097,000.0000
              $30,000
 3            $30,000 under          N/A            25,168,000.0000
              $50,000
 4            $50,000 under          N/A            30,159,000.0000
              $100,000
 5            $100,000 under         N/A            13,522,000.0000
              $200,000
 6            $200,000 under         N/A               3,195,000.0000
              $500,000
 7            $500,000 or more       N/A                729,000.0000
     Section: B               Section Name: Individual AGI and Income Tax information -                             Line Attributes: Dollars
                                            Individual Income Tax Returns for Tax Year 2009                       Rounding Method: Millions                     Decimal: Zero


Line Status   Line Description       NB                        AGI         Total Income Tax
 1            Under $15,000         Debit                     76,133                     1,354
 2            $15,000 under         Debit                    662,180                    14,013
              $30,000
 3            $30,000 under         Debit                    982,969                    45,556
              $50,000
 4            $50,000 under         Debit                   2,139,407                  158,455
              $100,000
 5            $100,000 under        Debit                   1,801,447                  212,291
              $200,000
 6            $200,000 under        Debit                    905,347                   176,322
              $500,000
 7            $500,000 or more       N/A                    1,058,948                  257,958




                                                                                                  - 11 -
                                                                                                                                                                 11/15/2011 11:33:11

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 12           Tax Burden                                                                              Fiscal Year: 2011              Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                  Agency Notes:     OIA - Appendix A
      Status: Complete                                                                      I = Inactive Line


  Tab: Other Data Info.
     Section: C               Section Name: Individual AGI and Average Income Tax Information-                    Line Attributes: Dollars
                                            Individual Income Tax Returns for Tax Year 2009                     Rounding Method: Whole-Dollars             Decimal: Zero


Line Status   Line Description       NB      Avg. AGI per return      D    Avg. Income Tax per
                                                                                    return  D
 1            Under $15,000          N/A                      2,024                         36
 2            $15,000 under          N/A                     22,002                       466
              $30,000
 3            $30,000 under          N/A                     39,056                      1,810
              $50,000
 4            $50,000 under          N/A                     70,938                      5,254
              $100,000
 5            $100,000 under         N/A                    133,223                    15,700
              $200,000
 6            $200,000 under         N/A                    283,364                    55,187
              $500,000
 7            $500,000 or more       N/A                  1,452,604                   353,852
     Section: D               Section Name: Income Tax as a Percentage of AGI-Indvidual Income                    Line Attributes: Percent
                                            Tax Returns for Tax Year 2009


Line Status   Line Description       NB                       AGI
 1            Under $15,000          N/A                     1.8000
 2            $15,000 under          N/A                     2.1000
              $30,000
 3            $30,000 under          N/A                     4.6000
              $50,000
 4            $50,000 under          N/A                     7.4000
              $100,000
 5            $100,000 under         N/A                    11.8000
              $200,000
 6            $200,000 under         N/A                    19.5000
              $500,000
 7            $500,000 or more       N/A                    24.4000




                                                                                                 - 12 -
                                                                                                                                                                       11/15/2011 11:33:11

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 12              Tax Burden                                                                                Fiscal Year: 2011              Period: SEPTEMBER
        Entity: 2000         Department of the Treasury                                                                    Agency Notes:      OIA - Appendix A
       Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
      Section: E               Section Name: Income Subject to Tax & Total Income Tax After                            Line Attributes: Dollars
                                             Credits:Corp. Income for Tax Year 2008                                  Rounding Method: Millions                   Decimal: Zero


Line Status    Line Description       NB     Income Subject to Tax         Total Income Tax After
                                                                                      Credits
 1             Zero Assets           Debit                    13,373                      3,870
 2             $1 under $500         Debit                     7,414                      1,406
 3             $500 under $1,000     Debit                     3,778                          889
 4             $1,000 under $5,000   Debit                    12,785                      3,783
 5             $5,000 under          Debit                     7,846                      2,569
               $10,000
 6             $10,000 under         Debit                    11,898                      3,893
               $25,000
 7             $25,000 under         Debit                    10,343                      3,366
               $50,000
 8             $50,000 under         Debit                    12,766                      4,100
               $100,000
 9             $100,000 under        Debit                    23,043                      7,445
               $250,000
 10            $250,000 under        Debit                    30,685                      9,180
               $500,000
 11            $500,000 under         N/A                    107,715                     31,935
               $2,500,000
 12            $2,500,000 or more     N/A                    736,507                    156,087
      Section: F               Section Name: Percentage of Income Tax After Credits to Taxable                         Line Attributes: Percent
                                             Income-Corporation Income for Tax Year 2008


Line Status    Line Description       NB     Income Subject to Tax
 1             Zero Assets            N/A                    28.9000
 2             $1 under $500          N/A                    19.0000
 3             $500 under $1,000      N/A                    23.5000
 4             $1,000 under $5,000    N/A                    29.6000
 5             $5,000 under           N/A                    32.7000
               $10,000
 6             $10,000 under          N/A                    32.7000
               $25,000



                                                                                                     - 13 -
                                                                                                                                                              11/15/2011 11:33:11

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 12            Tax Burden                                                                                Fiscal Year: 2011             Period: SEPTEMBER
        Entity: 2000       Department of the Treasury                                                                   Agency Notes:      OIA - Appendix A
       Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
      Section: F               Section Name: Percentage of Income Tax After Credits to Taxable                       Line Attributes: Percent
                                             Income-Corporation Income for Tax Year 2008


Line Status    Line Description       NB     Income Subject to Tax
 7             $25,000 under          N/A                    32.5000
               $50,000
 8             $50,000 under          N/A                    32.1000
               $100,000
 9             $100,000 under         N/A                    32.3000
               $250,000
 10            $250,000 under         N/A                    29.9000
               $500,000
 11            $500,000 under         N/A                    29.6000
               $2,500,000
 12            $2,500,000 or more     N/A                    21.2000




                                                                                                     - 14 -
                                                                                                                                                                              11/15/2011 11:33:11

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 13             Other information                                                                                 Fiscal Year: 2011                   Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                            Agency Notes:        RSI data
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Estimated amounts that may be paid out as other                                   Line Attributes: Dollars
                                            claims for tax refunds                                                          Rounding Method: Millions                   Decimal: Zero


Line Status   Line Description         NB       2011 - SEPTEMBER          2010 - SEPTEMBER               Previously Rptd       Line Item Changes
 1            Estimated payout         Debit                   8,109                     8,800                     19,603                   -10,803
              (including principal
              and interest) for
              claims pending
              judicial review by the
              Federal Courts
 2            Claims under appeal      Debit                   7,507                     7,984                      7,984                          0



     Section: B               Section Name: Other information related to taxes                                                Line Attributes: Dollars
                                                                                                                            Rounding Method: Millions                   Decimal: Zero
Line Status   Line Description         NB       2011 - SEPTEMBER          2010 - SEPTEMBER               Previously Rptd       Line Item Changes
 1            Payroll taxes paid by    Debit                   3,688
              Federal agencies
              included in individual
              and FICA taxes
 2            Refundable portion       Debit                  22,691                    22,659                     22,659                          0
              of child care tax
              credits issued
 3            Amount of EITC           Debit                  55,652                    54,712                     54,712                          0
              refunds
 4            Amount of EITC           Debit                       0
              refunds applied to
              reduce taxpayer
              liability




                                                                                                  - 15 -
                                                                                                                                                                              11/15/2011 11:33:11

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

 Other Data: 15               Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)             Fiscal Year: 2011             Period: SEPTEMBER
         Entity: 2000         Department of the Treasury                                                                                Agency Notes:    N/A
        Status: Complete                                                                            I = Inactive Line


     Tab: Other Data Info.
      Section: A                Section Name: Risk Assumed                                                 No Data: YES             Line Attributes: Dollars
                                                                                                                                  Rounding Method: User-Defined         Decimal: User-Defined
Line Status      Line Description        NB       2011 - SEPTEMBER            2010 - SEPTEMBER                  Previously Rptd      Line Item Changes
 1               Present value of       Debit
                 unpaid expected
                 losses (net of
                 associated
                 premiums)
 2               Periodic changes       Debit




     Tab: Other Text Data

        Section: A                  Section Name: Risk Assumed                                              No Data: YES

 Line          Question                                                                                                 Answer
 1            Provide the indicators of the range of uncertainty around Federal insurance and guarantee
              programs related estimates and sensitivity of the estimates to changes in major assumptions
              (SFFAS No.5, par.114)
 2            Provide the actuarial or financial methods used to measure the present value of unpaid expected
              losses (SFFAS No. 5. par. 114)




                                                                                                        - 16 -
                                                                                                                                                                            11/15/2011 11:33:11

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF007 - Other Data Report

 Other Data: 16              Analysis of FR Operating Revenue to Budget Receipts                                             Fiscal Year: 2011                Period: SEPTEMBER
        Entity: 2000         Department of the Treasury                                                                          Agency Notes:       N/A
       Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
      Section: A               Section Name: Operating Revenues to the Budget Receipts                                       Line Attributes: Dollars
                                                                                                                           Rounding Method: Millions                  Decimal: Zero
Line Status    Line Description         NB      CY-Individual income tax   CY-Corporation income   CY-Unemployment taxes        CY-Excise taxes         CY-Estate and gift taxes   CY-Customs duties
                                                 and tax withholdings                    taxes
 1             Undistributed           Credit                1,757,493                   175,071                   6,803                    70,606                       7,301
               Offsetting receipts
               (offset against
               outlays)
 2             Proprietary receipts    Credit
               from the public
               (offset against
               outlays)
 3             Rents and royalties     Credit
               on the outer
               continental shelf
               lands (offset against
               outlays)
 4             Offsetting              Credit
               governmental
               receipts (offset
               against outlays)
 5             Intrabudgetary          Credit
               transactions (offset
               against outlays)
 6             Earned (exchange)       Credit
               revenue reported in
               the Statement of Net
               Cost
 7                                     Credit
 8                                     Credit
 9                                     Credit
 10            Total (exchange and      N/A                 -1,757,493                -175,071                    -6,803                   -70,606                      -7,301
               nonexchange)

Line Status    Line Description         NB           CY-Other taxes and CY-Miscellaneous earned
                                                            receipts                 revenue
 1             Undistributed           Credit                    87,340                   -7,971
               Offsetting receipts
               (offset against
               outlays)



                                                                                                   - 17 -
                                                                                                                                                             11/15/2011 11:33:11

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF007 - Other Data Report

 Other Data: 16              Analysis of FR Operating Revenue to Budget Receipts                                    Fiscal Year: 2011            Period: SEPTEMBER
        Entity: 2000         Department of the Treasury                                                                 Agency Notes:      N/A
       Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
      Section: A               Section Name: Operating Revenues to the Budget Receipts                              Line Attributes: Dollars
                                                                                                                  Rounding Method: Millions            Decimal: Zero
Line Status    Line Description        NB          CY-Other taxes and CY-Miscellaneous earned
                                                          receipts                 revenue
 2             Proprietary receipts    Credit                   1,141
               from the public
               (offset against
               outlays)
 3             Rents and royalties     Credit
               on the outer
               continental shelf
               lands (offset against
               outlays)
 4             Offsetting              Credit
               governmental
               receipts (offset
               against outlays)
 5             Intrabudgetary          Credit
               transactions (offset
               against outlays)
 6             Earned (exchange)       Credit                                             54,436
               revenue reported in
               the Statement of Net
               Cost
 7                                     Credit
 8                                     Credit
 9                                     Credit
 10            Total (exchange and      N/A                   -88,481                    -46,465
               nonexchange)




                                                                                                   - 18 -
                                                                                                                                                                                             11/15/2011 11:33:11

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report

 Other Data: 16                Analysis of FR Operating Revenue to Budget Receipts                                                          Fiscal Year: 2011                Period: SEPTEMBER
        Entity: 2000           Department of the Treasury                                                                                        Agency Notes:      N/A
        Status: Complete                                                                                 I = Inactive Line


  Tab: Other Data Info.
      Section: B                 Section Name: Fiscal 2010 Budget Receipts Not Reported in the                    No Data: YES             Line Attributes: Dollars
                                               Operating Revenue                                                                         Rounding Method: User-Defined                Decimal: User-Defined


Line Status     Line Description          NB          CY-Individual income        CY-Corporation income             CY-Employment and           CY-Unemployment CY-Other retirement            C       CY-Excise taxes   C
                                                                 taxes   C                    taxes   C           general retirement C             insurance  C
 1       I      Earned (exchange)         N/A
                revenue reported in
                the Statement of Net
                Cost
 2       I                                N/A
 3       I                                N/A
 4       I                                N/A

Line Status     Line Description          NB       CY-Estate and gift taxes CY-Customs duties                C        CY-Miscellaneous
                                                                          C                                               receipts   C
 1       I      Earned (exchange)         N/A
                revenue reported in
                the Statement of Net
                Cost
 2       I                                N/A
 3       I                                N/A
 4       I                                N/A

     Tab: Other Text Data

        Section: A                 Section Name: Operating Revenues to the Budget Receipts

 Line         Question                                                                                                        Answer
 1            Provide a detailed description of the undistributed offsetting receipts reconciling item(s).                   Individual Income taxes - IRS is showing more refunds than FMS of 237,827; Railroad taxes
                                                                                                                             shown on MTS as Individual on GFRS as other taxes; remaining difference $5,333 currently
                                                                                                                             unknown.

                                                                                                                             Corporation taxes - IRS is showing $5,370 more refunds with $644 unkown

                                                                                                                             Unemployment taxes - MTS is including Deposits by States of $49,269, per conversation
                                                                                                                             with FMS the fund is 16X8042.3 Labor (Treasury Managed Trust Fund); not on Treasury's
                                                                                                                             financial statements with an unknown difference of 169.

                                                                                                                             Excise taxes - MTS is showing more refunds of $2,120; $345 is associated with our
                                                                                                                             collections for DOI




                                                                                                                 - 19 -
                                                                                                                                                                                             11/15/2011 11:33:11

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report

Other Data: 16               Analysis of FR Operating Revenue to Budget Receipts                                                           Fiscal Year: 2011                 Period: SEPTEMBER
       Entity: 2000          Department of the Treasury                                                                                        Agency Notes:        N/A
       Status: Complete                                                                                I = Inactive Line



    Tab: Other Text Data

       Section: A                Section Name: Operating Revenues to the Budget Receipts

Line        Question                                                                                                       Answer
                                                                                                                           Estate and gift taxes - IRS is showing $98 more in refunds

                                                                                                                           Other taxes and receipts - Railroad of $4,678 is part of individual taxes on MTS; $324 of
                                                                                                                           Donation and Forfeiture of Property not on MTS; $54 unknown difference
2           Provide a detailed description of the proprietary receipts from the public reconciling item(s).                N/A
3           Provide a detailed description of the offsetting governmental receipts reconciling item(s).                    N/A
4           Provide a detailed description of the intrabudgetary transaction reconciling item(s).                          N/A
5           Provide a detailed description of the earned revenue reconciling item(s).                                      N/A
6           Provide a detailed description of the agency entered description reconciling item(s).                          N/A




                                                                                                              - 20 -
                                                                U.S. Department of the Treasury                                     11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 3   Fund Balance                                                                      A      D       F                  381,784                 437,026
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Fund Balance with Treasury                              F                381,784                437,026                   437,026                     0
Total:                                                                   381,784                437,026                   437,026                     0

Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 4   Loans and Interest Receivable                                                     A      D       F                  728,650                 552,853
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Interest Receivable                                     F                    225                    413                       413                     0
Loans Receivable                                        F                728,425                552,440                   552,440                     0
Total:                                                                   728,650                552,853                   552,853                     0
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 5   Troubled Asset Relief Program - Asset Guarantee Program                    I      A      D       F
                                                                                    Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Federal Investments                                     F                   0                      0                         815                   (815)
Total:                                                                      0                      0                         815                   (815)




                                                                              -1-
                                                                U.S. Department of the Treasury                                     11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2011                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2011-SEPTEMBER          2010-SEPTEMBER
                                                                                      Type
 6   Advances to the Unemployment Trust Fund                                            A      D      F                    42,773                 34,111
                                                                                     Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Loans Receivable                                        F                42,773                  34,111                    34,111                     0
Total:                                                                   42,773                  34,111                    34,111                     0

Line Agency Line Description                                                  Status Account NB       F/N     2011-SEPTEMBER          2010-SEPTEMBER
                                                                                      Type
 7   Due From the General Fund                                                          A      D      F                14,902,717             13,655,637
                                                                                     Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Other Assets (without reciprocals)                      F              14,902,717              13,655,637              13,655,637                     0
Total:                                                                 14,902,717              13,655,637              13,655,637                     0

Line Agency Line Description                                                  Status Account NB       F/N     2011-SEPTEMBER          2010-SEPTEMBER
                                                                                      Type
 8   Accounts Receivable and Related Interest                                    I      A      D      F
                                                                                     Variance:                                 0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Accounts Receivable                                     F                   0                       0                        361                   (361)
Total:                                                                      0                       0                        361                   (361)




                                                                               -2-
                                                                U.S. Department of the Treasury                                     11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 9   Other Intra-governmental Assets                                                   A      D       F                     1,148                  1,179
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Accounts Receivable                                     F                   407                    361                          0                    361
Advances to Others and Prepayments                      F                     2                      3                          3                      0
Federal Investments                                     F                   739                    815                          0                    815
Total:                                                                    1,148                  1,179                          3                  1,176
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 12 Cash, Foreign Currency & Other Monetary Assets                                     A      D       N                  117,121                 372,434
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                117,121                372,402                   375,250                 (2,848)
Accounts and Taxes Receivable                           N                      0                     32                        32                      0
Total:                                                                   117,121                372,434                   375,282                 (2,848)
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 13 Gold and Silver Reserves                                                           A      D       N                    11,062                 11,062
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                11,062                 11,062                     11,062                     0
Total:                                                                   11,062                 11,062                     11,062                     0


                                                                              -3-
                                                                U.S. Department of the Treasury                                     11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 14 Troubled Asset Relief Program (TARP) - Credit Program Receivables, Net             A      D       N                    80,104                144,692
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
TARP Direct Loans and Equity Investments                N                80,104                 144,692                   144,692                     0
Total:                                                                   80,104                 144,692                   144,692                     0

Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 15 Investments in Government Sponsored Enterprises                                    A      D       N                  133,043                 109,216
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Investment in Government sponsored                      N                133,043                109,216                   109,216                     0
enterprises (GSEs)
Total:                                                                   133,043                  109,216                109,216                          0
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 16 Investments in International Financial Institutions                                A      D       N                     5,707                  5,580
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Other Assets                                            N                 5,707                  5,580                      5,580                     0
Total:                                                                    5,707                  5,580                      5,580                     0




                                                                              -4-
                                                                U.S. Department of the Treasury                                     11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 17 Non-TARP Investments in American International Group, Inc.                         A      D       N                    10,862                 20,805
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Beneficial Interest in Trust                            N                10,862                 20,805                          0                 20,805
Total:                                                                   10,862                 20,805                          0                 20,805

Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 18 Other Investments and Related Interest                                             A      D       N                    15,798                 15,487
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                              N                15,798                 15,487                     12,639                  2,848
Total:                                                                   15,798                 15,487                     12,639                  2,848

Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 19 Credit Program Receivables, Net                                                    A      D       N                    92,820                186,396
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable and mortgage backed                    N                92,820                 186,396                   186,396                     0
securities
Total:                                                                    92,820                  186,396                186,396                          0




                                                                              -5-
                                                                U.S. Department of the Treasury                                     11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 20 Loans and Interest Receivable                                                      A      D       N                     6,248                    124
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable and mortgage backed                    N                 6,248                   124                        124                      0
securities
Total:                                                                     6,248                      124                    124                          0
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 21 Reserve Position in International Monetary Fund                                    A      D       N                    20,682                 12,938
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                20,682                 12,938                     12,938                     0
Total:                                                                   20,682                 12,938                     12,938                     0

Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 22 Tax, Other and Related Interest Receivables, Net                                   A      D       N                    36,690                 36,976
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                           N                36,690                 36,976                     36,976                     0
Total:                                                                   36,690                 36,976                     36,976                     0




                                                                              -6-
                                                                U.S. Department of the Treasury                                     11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 23 Inventory and Related Property, Net                                         I      A      D       N
                                                                                    Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Inventory and Related Property                          N                   0                      0                         697                   (697)
Total:                                                                      0                      0                         697                   (697)

Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 24 Property, Plant and Equipment, Net                                                 A      D       N                     2,266                  2,031
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Property, Plant and Equipment                           N                 2,266                  2,031                      2,031                     0
Total:                                                                    2,266                  2,031                      2,031                     0

Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 25 Beneficial Interest in Trust                                                I      A      D       N
                                                                                    Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER         2010-SEPTEMBER          Previously Reported      Line Item Changes
Beneficial Interest in Trust                            N                   0                      0                       20,805                (20,805)
Total:                                                                      0                      0                       20,805                (20,805)




                                                                              -7-
                                                                U.S. Department of the Treasury                                      11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 26 Other Assets                                                                        A      D      N                       751                     710
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Inventory and Related Property                          N                  743                     697                          0                    697
Other Assets                                            N                    8                      13                        13                       0
Total:                                                                     751                     710                        13                     697
Line Agency Line Description                                                  Status Account NB       F/N     2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 31 Federal Debt and Interest Payable                                                   L      C      F                 4,720,165                4,587,802
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Interest Payable                                        F                  47,742                  48,546                  48,546                      0
Federal Debt                                            F               4,672,423               4,539,256               4,539,256                      0
Total:                                                                 (4,720,165)             (4,587,802)             (4,587,802)                     0
Line Agency Line Description                                                  Status Account NB       F/N     2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 32 Other Debt and Interest Payable                                                     L      C      F                     8,539                  10,358
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Interest Payable                                        F                    98                      119                      119                      0
Federal Debt                                            F                 8,441                   10,239                   10,239                      0
Total:                                                                   (8,539)                 (10,358)                 (10,358)                     0


                                                                               -8-
                                                                U.S. Department of the Treasury                                     11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2011                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2011-SEPTEMBER          2010-SEPTEMBER
                                                                                      Type
 33 Due to the General Fund                                                             L      C      F                 1,226,475               1,414,252
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Liability to the General Fund for custodial and         F               1,226,475               1,414,252               1,414,252                     0
other non-entity assets
Total:                                                                 (1,226,475)             (1,414,252)            (1,414,252)                         0
Line Agency Line Description                                                  Status Account NB       F/N     2011-SEPTEMBER          2010-SEPTEMBER
                                                                                      Type
 34 Other Intra-governmental Liabilities                                                L      C      F                      453                     366
                                                                                     Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Accounts Payable                                        F                  159                     108                       108                      0
Interest Payable                                        F                    1                       0                          0                     0
Benefit Program Contributions Payable                   F                  239                     226                       226                      0
Advances from Others and Deferred Credits               F                   56                      34                        34                      0
Other Liabilities (without reciprocals)                 F                   (2)                     (2)                       (2)                     0
Total:                                                                    (453)                   (366)                     (366)                     0




                                                                               -9-
                                                                 U.S. Department of the Treasury                                      11/15/2011 11:33:43
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                       Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                  Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                    Status Account NB      F/N     2011-SEPTEMBER           2010-SEPTEMBER
                                                                                        Type
 37 Federal Debt and Interest Payable                                                     L      C     N                10,148,963                9,035,929
                                                                                       Variance:                                 0                        0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2011-SEPTEMBER           2010-SEPTEMBER        Previously Reported       Line Item Changes
Federal Debt Securities Held by the Public               N              10,148,963                9,035,929              9,035,929                      0
Total:                                                                 (10,148,963)              (9,035,929)            (9,035,929)                     0

Line Agency Line Description                                                    Status Account NB      F/N     2011-SEPTEMBER           2010-SEPTEMBER
                                                                                        Type
 38 Certificates Issued to the Federal Reserve                                            L      C     N                     5,200                   5,200
                                                                                       Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2011-SEPTEMBER           2010-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities                                        N                 5,200                    5,200                    5,200                      0
Total:                                                                    (5,200)                  (5,200)                  (5,200)                     0

Line Agency Line Description                                                    Status Account NB      F/N     2011-SEPTEMBER           2010-SEPTEMBER
                                                                                        Type
 39 Allocation of Special Drawing Rights                                                  L      C     N                    55,150                  54,958
                                                                                       Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2011-SEPTEMBER           2010-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities                                        N                 55,150                   54,958                  54,958                      0
Total:                                                                    (55,150)                 (54,958)                (54,958)                     0




                                                                                - 10 -
                                                                U.S. Department of the Treasury                                      11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 40 Gold Certificates Issued to Federal Reserve                                         L      C      N                    11,037                  11,037
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Other Liabilities                                       N                 11,037                  11,037                   11,037                      0
Total:                                                                   (11,037)                (11,037)                 (11,037)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 41 Refunds Payables                                                                    L      C      N                     3,983                   4,146
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Accounts Payable                                        N                 3,983                   4,146                     4,146                      0
Total:                                                                   (3,983)                 (4,146)                   (4,146)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 42 D.C. Pension and Judicial Retirement Actuarial Liability                            L      C      N                     9,671                   9,743
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Other Liabilities                                       N                 9,671                   9,743                     9,743                      0
Total:                                                                   (9,671)                 (9,743)                   (9,743)                     0




                                                                              - 11 -
                                                                U.S. Department of the Treasury                                     11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 43 Liabilities to Government Sponsored Enterprises                                    L      C       N                  316,230                 359,900
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Liabilities to Government Sponsored                     N                316,230                 359,900                  359,900                     0
Enterprises
Total:                                                                  (316,230)                 (359,900)             (359,900)                         0
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 44 Other Liabilities                                                                  L      C       N                     4,222                  4,470
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Accounts Payable                                        N                  804                    1,213                     1,213                     0
Federal Employee and Veteran Benefits                   N                  641                      601                       601                     0
Payable
Other Liabilities                                      N                   2,777                     2,631                 2,631                          0
Insurance and Guarantee Program Liabilities            N                       0                        25                    25                          0
Total:                                                                    (4,222)                   (4,470)               (4,470)                         0




                                                                              - 12 -
                                                                U.S. Department of the Treasury                                      11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 49 Earmarked Funds                                                                     E      C      B                       200                     200
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Earmarked Funds                            B                  200                     200                       200                       0
Total:                                                                    (200)                   (200)                     (200)                      0

Line Agency Line Description                                                  Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 50 All Other Funds                                                                     E      C      B                   342,778                 400,357
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Non-Earmarked Funds                        B                342,778                 400,357                  400,357                      0
Total:                                                                  (342,778)               (400,357)                (400,357)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 53 Earmarked Funds                                                                     E      C      B                    43,611                  41,426
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Earmarked Funds                            B                 43,611                  41,426                   41,426                      0
Total:                                                                   (43,611)                (41,426)                 (41,426)                     0




                                                                              - 13 -
                                                                U.S. Department of the Treasury                                      11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 54 All Other Funds                                                                     E      C      B                  (306,451)               (340,887)
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Non-Earmarked Funds                        B               (306,451)               (340,887)                (340,887)                     0
Total:                                                                   306,451                 340,887                  340,887                      0




                                                                              - 14 -
                                                                U.S. Department of the Treasury                                      11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 2   Individual Income and FICA Taxes                                                   F      C      N                 2,102,030                1,988,760
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER           2010-SEPTEMBER        Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N               2,102,030                1,988,760              1,988,760                      0
Total:                                                                 (2,102,030)              (1,988,760)            (1,988,760)                     0

Line Agency Line Description                                                  Status Account NB       F/N     2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 3   Corporate Income Taxes                                                             F      C      N                   242,848                 277,937
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER           2010-SEPTEMBER        Previously Reported       Line Item Changes
Corporation Income Taxes                                N                242,848                  277,937                 277,937                      0
Total:                                                                  (242,848)                (277,937)               (277,937)                     0

Line Agency Line Description                                                  Status Account NB       F/N     2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 4   Estate and Gift Taxes                                                              F      C      N                     9,079                  19,751
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER           2010-SEPTEMBER        Previously Reported       Line Item Changes
Estate and Gift Taxes                                   N                 9,079                    19,751                  19,751                      0
Total:                                                                   (9,079)                  (19,751)                (19,751)                     0




                                                                               - 15 -
                                                                U.S. Department of the Treasury                                      11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 5   Excise Taxes                                                                       F      C      N                    72,794                  70,946
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Excise Taxes                                            N                 72,794                  70,946                   70,946                      0
Total:                                                                   (72,794)                (70,946)                 (70,946)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 6   Railroad Retirement Taxes                                                          F      C      N                     4,692                   4,648
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                N                 4,692                   4,648                     4,648                      0
Total:                                                                   (4,692)                 (4,648)                   (4,648)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                      Type
 7   Unemployment Taxes                                                                 F      C      N                     6,893                   6,543
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Unemployment Taxes                                      N                 6,893                   6,543                     6,543                      0
Total:                                                                   (6,893)                 (6,543)                   (6,543)                     0




                                                                              - 16 -
                                                                  U.S. Department of the Treasury                                      11/15/2011 11:33:43
                                                                    Financial Management Service
                                                               Governmentwide Financial Report System

                                                  GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                  Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                  Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                    Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                        Type
 8   Deposit of Earnings, Federal Reserve System                                          F      C      N                    82,546                  75,845
                                                                                       Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                  Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                  N                 82,546                  75,845                   75,845                      0
Total:                                                                     (82,546)                (75,845)                 (75,845)                     0

Line Agency Line Description                                                    Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                        Type
 9   Fines, Penalties, Interest & Other Revenue                                           F      C      B                       591                   1,880
                                                                                       Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                  Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                  N                  568                      463                       463                      0
Other taxes and receipts                                  F                    3                       12                        12                      0
Other budgetary financing sources                         F                   20                    1,405                     1,405                      0
Total:                                                                      (591)                  (1,880)                   (1,880)                     0
Line Agency Line Description                                                    Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                        Type
 11 Less Refunds                                                                          F      C      N                  (416,221)               (469,937)
                                                                                       Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                  Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings                 N               (344,384)               (371,306)                (371,306)                     0
Other Taxes and Receipts                                  N                     (3)                     (1)                      (1)                     0
Corporation Income Taxes                                  N                (67,777)                (96,186)                 (96,186)                     0


                                                                                - 17 -
                                                                U.S. Department of the Treasury                                       11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2011                                     Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                           Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                           Account NB     F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                        Type
 11 Less Refunds                                                                          F    C        N                 (416,221)               (469,937)
Excise Taxes                                           N                  (2,189)                    (1,426)                (1,426)                      0
Estate and Gift Taxes                                  N                  (1,778)                      (925)                  (925)                      0
Unemployment Taxes                                     N                     (90)                       (93)                   (93)                      0
Total:                                                                   416,221                    469,937               469,937                        0




Line Agency Line Description                                                 Status Account NB        F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                     Type
 13 Beneficial Interest in Trust                                                I      F      C        N
                                                                                    Variance:                                    0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER           2010-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                N                   0                        0                      (2,666)                  2,666
Total:                                                                      0                        0                       2,666                   2,666

Line Agency Line Description                                                 Status Account NB        F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                     Type
 14 Non-Cash Accrual Adjustment                                                        F      C        N                      (150)                  6,539
                                                                                    Variance:                                    0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N       2011-SEPTEMBER           2010-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                   (310)                        0                         0                      0
Excise Taxes                                          N                      7                        71                        71                      0
Accrual for Non-entity Amounts to be                  F                   (153)                   (6,468)                   (6,468)                     0
Collected and Transferred to the General Fund
Total:                                                                       150                     (6,539)                (6,539)                         0


                                                                              - 18 -
                                                                U.S. Department of the Treasury                                      11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 16 Cash Proceeds from Sale of Stock                                                   F      C       N                     1,973                          0
                                                                                    Variance:                                   0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Miscellaneous Earned Revenue                            N                 1,973                     0                           0                     0
Total:                                                                   (1,973)                    0                           0                     0

Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 17 Non-Cash Market Adjustments                                                        F      C       N                    (9,944)                  (2,666)
                                                                                    Variance:                                   0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Other Taxes and Receipts                                N                     0                  (2,666)                        0                 (2,666)
Miscellaneous Earned Revenue                            N                (9,944)                      0                         0                      0
Total:                                                                    9,944                   2,666                         0                 (2,666)
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 21 Amounts Provided to Fund Non Federal Entities                                     CF      D       B                      462                      387
                                                                                    Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Other Taxes and Receipts                                N                 (462)                   (387)                     (387)                     0
Total:                                                                     462                     387                       387                      0




                                                                              - 19 -
                                                                U.S. Department of the Treasury                                       11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                       Type
 22 Amounts Provided to Fund the Federal Government                                     CF      D      B                 2,104,790                1,975,986
                                                                                      Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N      2011-SEPTEMBER           2010-SEPTEMBER         Previously Reported       Line Item Changes
Expenditure Transfers-out of financing sources         F                       49                       74                      74                      0
Other budgetary financing sources                      F                     (344)                    (361)                   (361)                     0
Non-Entity Collections Transferred to the              F                2,104,397                1,975,551               1,975,551                      0
General Fund
Total:                                                                  2,104,790                1,975,986               1,975,986                          0
Line Agency Line Description                                                   Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                       Type
 23 Non-cash revenue - Beneficial Interest in Trust                               I     CF      D      B
                                                                                      Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER           2010-SEPTEMBER         Previously Reported       Line Item Changes
Non-Entity Collections Transferred to the               F                   0                        0                      (2,666)                  2,666
General Fund
Total:                                                                          0                          0                (2,666)                  2,666




                                                                               - 20 -
                                                                U.S. Department of the Treasury                                      11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                     Type
 24 Non-Cash Accrual Adjustment                                                       CF      D       B                      (150)                  6,539
                                                                                    Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N       2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings             N                   (153)                       0                         0                      0
Other Taxes and Receipts                              N                    310                        0                         0                      0
Excise Taxes                                          N                     (7)                     (71)                      (71)                     0
Accrual for Non-entity Amounts to be                  F                      0                    6,468                     6,468                      0
Collected and Transferred to the General Fund
Total:                                                                      (150)                    6,539                  6,539                          0
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                     Type
 26 Cash Proceeds from Sales of Stock                                                 CF      D       N                     1,973                          0
                                                                                    Variance:                                   0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Non-Entity Collections Transferred to the               F                 1,973                     0                           0                      0
General Fund
Total:                                                                     1,973                          0                     0                          0




                                                                              - 21 -
                                                                U.S. Department of the Treasury                                      11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 27 Non-Cash Market Adjustment                                                        CF      D       N                    (9,944)                  (2,666)
                                                                                    Variance:                                   0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Non-Entity Collections Transferred to the               F                (9,944)                 (2,666)                        0                 (2,666)
General Fund
Total:                                                                    (9,944)                 (2,666)                      0                   (2,666)




                                                                              - 22 -
                                                                U.S. Department of the Treasury                                     11/15/2011 11:33:43
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF NET COST                                             Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 40 Total Gross Costs                                                                 GC      D       B                  488,741                 757,352
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Interest on Debt Held by the Public                     N                250,921                 214,796                  214,796                     0
Imputed Costs                                           F                    925                   1,008                    1,008                     0
Buy/Sell Costs                                          F                  1,736                   1,642                    1,642                     0
Benefit Program Costs                                   F                  1,744                   2,119                    2,119                     0
Federal Securities Interest Expense                     F                203,026                 198,597                  198,597                     0
Borrowing and Other Interest Expense                    F                  8,016                   8,192                    8,192                     0
Non-Federal Gross Cost                                  N                 21,693                 330,178                  330,178                     0
Other Expenses (without reciprocals)                    F                    485                       0                        0                     0
Gain/Loss from changes in actuarial                     N                    195                     820                      820                     0
assumptions
Total:                                                                   488,741                  757,352                757,352                          0
Line Agency Line Description                                                 Status Account NB       F/N      2011-SEPTEMBER          2010-SEPTEMBER
                                                                                     Type
 41 Total Earned Revenues                                                             ER      C       B                    84,586                 98,511
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported      Line Item Changes
Buy/Sell Revenue                                        F                 1,265                     219                       219                     0
Borrowings Gains                                        F                    64                     160                       160                     0
Borrowing and Other Interest Revenue                    F                28,821                  24,181                    24,181                     0
(Exchange)
Non-Federal Earned Revenue                             N                  54,436                   73,951                 73,951                          0
Total:                                                                   (84,586)                 (98,511)               (98,511)                         0


                                                                              - 23 -
                                                             U.S. Department of the Treasury                                      11/15/2011 11:33:43
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                           Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                             Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                   Type
 2   Beginning Balance                                                              BN      C      B                  (299,461)                (27,088)
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Beginning Net Position                               B               (299,461)                (27,088)                 (27,088)                     0
Total:                                                                299,461                  27,088                   27,088                      0

Line Agency Line Description                                               Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                   Type
 4   Appropriations Used                                                             F      C      B                   548,129                 502,439
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Other budgetary financing sources                    F                548,129                 502,439                  502,439                      0
Total:                                                               (548,129)               (502,439)                (502,439)                     0

Line Agency Line Description                                               Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                   Type
 5   Non-exchange Revenue                                                            F      C      B                       379                     281
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                             N                  114                      57                        57                       0
Other budgetary financing sources                    F                  265                     224                       224                       0
Total:                                                                 (379)                   (281)                     (281)                      0




                                                                           - 24 -
                                                                  U.S. Department of the Treasury                                   11/15/2011 11:33:43
                                                                    Financial Management Service
                                                               Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                                Fiscal Year: 2011                                 Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                  Reported in: MILLIONS                       Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB       F/N    2011-SEPTEMBER          2010-SEPTEMBER
                                                                                       Type
  6   Donations and Forfeitures of Cash and Cash Equivalents                             F      C       N                    586                     324
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N       2011-SEPTEMBER          2010-SEPTEMBER       Previously Reported      Line Item Changes
Other Taxes and Receipts                                N                    586                     324                     324                      0
Total:                                                                      (586)                   (324)                   (324)                     0

Line Agency Line Description                                                   Status Account NB       F/N    2011-SEPTEMBER          2010-SEPTEMBER
                                                                                       Type
  7   Transfers In/Out without Reimbursement                                             F      C       F                      0                     (14)
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N       2011-SEPTEMBER          2010-SEPTEMBER       Previously Reported      Line Item Changes
Appropriation of unavailable special or trust           F                     0                       14                      14                      0
fund receipts Transfers-out
Total:                                                                           0                      14                    14                          0
Line Agency Line Description                                                   Status Account NB       F/N    2011-SEPTEMBER          2010-SEPTEMBER
                                                                                       Type
  8   Other Budgetary Financing Sources                                                  F      C       B                   4,550                     12
                                                                                      Variance:                                 0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N       2011-SEPTEMBER          2010-SEPTEMBER       Previously Reported      Line Item Changes
Other Taxes and Receipts                                N                     (81)                     0                        0                     0
Other budgetary financing sources                       F                   4,631                     12                      12                      0
Total:                                                                     (4,550)                   (12)                    (12)                     0



                                                                                - 25 -
                                                              U.S. Department of the Treasury                                      11/15/2011 11:33:43
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                            Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                              Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                    Type
 10 Donations and Forfeitures of Property                                             F      C      N                       163                     319
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                  163                     319                       319                       0
Total:                                                                  (163)                   (319)                     (319)                      0

Line Agency Line Description                                                Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                    Type
 11 Accrued Interest & Discount on the Debt                                           F      C      F                    14,042                  11,086
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Other budgetary financing sources                     F                 14,042                  11,086                   11,086                      0
Total:                                                                 (14,042)                (11,086)                 (11,086)                     0

Line Agency Line Description                                                Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                    Type
 12 Transfers In/Out without Reimbursement                                            F      C      F                       (60)                    (42)
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Transfers-in Without Reimbursement                    F                    0                      (1)                       (1)                      0
Transfers-out Without Reimbursement                   F                   60                      41                        41                       0
Total:                                                                    60                      42                        42                       0




                                                                            - 26 -
                                                              U.S. Department of the Treasury                                      11/15/2011 11:33:43
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                            Fiscal Year: 2011                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                              Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                    Type
 13 Imputed Financing Sources                                                         F      C      F                       925                   1,008
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Imputed Financing Source                              F                  925                    1,008                     1,008                      0
Total:                                                                  (925)                  (1,008)                   (1,008)                     0

Line Agency Line Description                                                Status Account NB      F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                    Type
 14 Transfers to the General Fund and Other                                           F      C      B                  (127,938)               (128,945)
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2011-SEPTEMBER          2010-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                    359                     313                      313                      0
Other budgetary financing sources                     F                (37,761)                (35,993)                 (35,993)                     0
Accrual for Non-entity Amounts to be                  F                (12,519)                 93,265                   93,265                      0
Collected and Transferred to the General Fund
Non-Entity Collections Transferred to the             F                103,055                          0                     0                          0
General Fund
Total:                                                                 127,938                   128,945                128,945                          0




                                                                            - 27 -
                                                                 U.S. Department of the Treasury                                       11/15/2011 11:33:43
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                               Fiscal Year: 2011                                     Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                           Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB       F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                       Type
 21 Beginning Balance                                                                   BN      C       B                   400,557                 455,144
                                                                                      Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2011-SEPTEMBER          2010-SEPTEMBER          Previously Reported       Line Item Changes
Beginning Net Position                                 B                  400,557                 455,144                   455,144                      0
Total:                                                                   (400,557)               (455,144)                 (455,144)                     0

Line Agency Line Description                                                   Status Account NB       F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                       Type
 23 Appropriations Received                                                              F      C       B                   498,723                 456,970
                                                                                      Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2011-SEPTEMBER          2010-SEPTEMBER          Previously Reported       Line Item Changes
Appropriations received as adjusted (rescissions         F                498,723                 456,970                   456,970                      0
and other adjustments)
Total:                                                                   (498,723)                  (456,970)              (456,970)                         0
Line Agency Line Description                                                   Status Account NB       F/N      2011-SEPTEMBER           2010-SEPTEMBER
                                                                                       Type
 24 Appropriations Transferred In/Out                                                    F      C       B                       129                      92
                                                                                      Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2011-SEPTEMBER          2010-SEPTEMBER          Previously Reported       Line Item Changes
Nonexpenditure transfers-in of unexpended              F                    133                      92                         92                       0
appropriations and financing sources
Nonexpenditure Transfers-out of unexpended              F                       4                           0                     0                          0
appropriations and financing sources
Total:                                                                       (129)                       (92)                   (92)                         0


                                                                               - 28 -
                                                                 U.S. Department of the Treasury                                     11/15/2011 11:33:43
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                               Fiscal Year: 2011                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N     2011-SEPTEMBER           2010-SEPTEMBER
                                                                                       Type
 25 Other Adjustments                                                                    F      C      B                   (8,302)                  (9,210)
                                                                                      Variance:                                 0                        0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2011-SEPTEMBER          2010-SEPTEMBER        Previously Reported       Line Item Changes
Appropriations received as adjusted (rescissions         F                (8,302)                 (9,210)                  (9,210)                     0
and other adjustments)
Total:                                                                      8,302                     9,210                 9,210                          0
Line Agency Line Description                                                   Status Account NB      F/N     2011-SEPTEMBER           2010-SEPTEMBER
                                                                                       Type
 26 Appropriations Used                                                                  F      C      B                 (548,129)               (502,439)
                                                                                      Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2011-SEPTEMBER          2010-SEPTEMBER        Previously Reported       Line Item Changes
Other budgetary financing sources                      F                 (548,129)               (502,439)               (502,439)                     0
Total:                                                                    548,129                 502,439                 502,439                      0




                                                                               - 29 -
